U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                          Follow-up Review of the
                          Status of IDENT/IAFIS
                                Integration

                               Report Number I-2005-001




                                  December 2004
                                  EXECUTIVE SUMMARY


       United States immigration authorities have long recognized the need for
an automated fingerprint identification system to quickly determine the
immigration and criminal histories of aliens they apprehend. However, the
inability of immigration and law enforcement fingerprint identification systems
to share information prevents law enforcement agencies from identifying
criminals and wanted aliens in their custody, and has led to tragic results in
some cases. In a report issued earlier this year, the Office of the Inspector
General (OIG) described one such case, where border authorities twice released
a man attempting to enter the country illegally. He subsequently returned to
the United States illegally and traveled to Oregon where he raped two nuns,
killing one. Because the federal government’s immigration and law
enforcement fingerprint databases were not linked, the immigration agents who
stopped and released him at the border never learned of his extensive criminal
record. See OIG report entitled “IDENT/IAFIS: The Batres Case and the
Status of the Integration Project,” March 2004 (Batres report).

       Congress has expressed increasing concern that the Federal Bureau of
Investigation’s (FBI) Integrated Automated Fingerprint Identification System
(IAFIS) and the Department of Homeland Security’s (DHS) Automated Biometric
Identification System (IDENT) have not been integrated. After the terrorist
attacks of September 11, 2001, Congress required that the fingerprint
identification systems of law enforcement agencies be made interoperable so
that criminals and known or suspected terrorists can be more readily
identified.

       In the Enhanced Border Security and Visa Entry Reform Act of 2002
(Border Security Act), which amended several key portions of the USA PATRIOT
Act (Patriot Act), Congress required a “cross-agency, cross-platform electronic
system that is a cost-effective, efficient, fully interoperable means to share law
enforcement and intelligence information necessary to confirm the identity
of…persons applying for a United States visa.…”1 The Patriot Act further
required that this system be “readily and easily accessible” to all consular
offices, federal inspection agents, and law enforcement and intelligence officers
responsible for investigating aliens. The Border Security Act, in its description
of an “interoperable data system,” requires that immigration authorities have
“current and immediate” access to information in federal law enforcement



       1   USA PATRIOT Act (P.L. 107-56), Section 403(c)(2).




U.S. Department of Justice                                                 i
Office of the Inspector General
Evaluation and Inspections Division
agencies’ databases in order to determine whether to allow aliens to enter the
United States.2

      During the past four years, the OIG has issued four reports that
monitored the progress of efforts to integrate the automated biometric
fingerprint systems of the DHS and the FBI.3 In our most recent report, the
March 2004 Batres report, we found that integration has been moving slowly
and would take years to fully accomplish. Shortly after we issued the Batres
report, however, the DHS committed to Congress that it would expedite
deployment of the initial version of a workstation that integrates IDENT and
IAFIS (Version 1.2 IDENT/IAFIS workstations). On September 21, 2004, the
DHS reported that it had completed deployment of Version 1.2 to all 136
Border Patrol stations. In addition, DHS officials told us that the DHS is on
schedule to complete deployment of Version 1.2 to 179 of the approximately
331 ports of entry by December 31, 2004.

       The OIG initiated this review to determine if the Department of Justice
(Department) and the FBI are prepared to support the increase in IAFIS queries
expected to result from the DHS’s expedited deployment of Version 1.2
workstations. However, because we discovered significant disagreements
among the Departments of Justice, Homeland Security, and State regarding
the definition and required elements of an interoperable biometric fingerprint
system, we broadened our review to include an analysis of these issues. We
also reviewed the status of the Department’s efforts to develop and deploy the
next planned version of IAFIS.

      US-VISIT entry/exit system. In addition to effectively identifying
criminals among apprehended illegal aliens, border authorities also intend to
check visitors to the United States entering through ports of entry to ensure
that they are not criminals or suspected terrorists. To accomplish this, the
DHS is implementing a new entry/exit and border security system – the United
States Visitor and Immigrant Status Indicator Technology (US-VISIT) – at air,
sea, and land ports of entry.

       2     Enhanced Border Security and Visa Reform Act of 2002 (P.L. 107-173), Section
202(a)(2).

        3 In March 2000, the OIG issued a report entitled “The Rafael Resendez-Ramirez Case:

A Review of the INS’s Actions and the Operation of its IDENT Automated Fingerprint
Identification System”; a follow-up inspection report issued in December 2001 entitled “Status
of IDENT/IAFIS Integration”; another follow-up inspection report issued in June 2003 entitled
“Status of IDENT/IAFIS Integration”; and the March 2004 report entitled “IDENT/IAFIS: The
Batres Case and the Status of the Integration Project.” The INS was transferred to the
Department of Homeland Security in March 2003.




U.S. Department of Justice                                                             ii
Office of the Inspector General
Evaluation and Inspections Division
       To establish the entry/exit system quickly, the DHS designed US-VISIT
to use IDENT and its biometric databases to collect two fingerprints and a
digital photograph to provide the biometric identification for visitors. On
July 18, 2003, the Homeland Security Council Deputies approved the use of a
photograph and two fingerprints for initial US-VISIT deployment in sea and air
ports of entry. At the same time, the Deputies directed the DHS and the DOS
to work with the Homeland Security Council and the Office of Management and
Budget in developing future plans to migrate to an eight fingerprint system.
Consequent to the Deputies’ decision, in September 2003, the DOS began to
deploy small single finger scanners at its consulates and, in January 2004 the
DHS launched US-VISIT. Both are based on the two-fingerprint system
approved by the Deputies. The US-VISIT fingerprint checks against the IDENT
database take approximately 15 to 20 seconds.

       The DHS estimates that up to 43 million visitors a year – an average of
about 118,000 per day – will be subject to the US-VISIT requirements.4 This
includes most visitors traveling to the United States on a visa and the nationals
of the 27 countries participating in the Visa Waiver Program who do not require
a visa if their stay for business or pleasure is less than 90 days.5

       To ensure that US-VISIT is interoperable with IDENT/IAFIS, the
Department of Justice, the DHS, and the Department of State (DOS) are
working to establish the common elements of a comprehensive biometric
fingerprint policy, as required by the Border Security Act. The Data
Management Improvement Act of 2000 amended previous legislation requiring
an entry/exit data system and required implementation deadlines for US-VISIT.
The Border Security Act directed the Attorney General and Secretary of State to
implement an entry/exit system that includes biometric identifiers which
utilize a technology standard, and in recent legislation, Congress specifically
directed that the biometric fingerprint systems operated by the Department


       4  The 118,000 projected daily visitors who submit two fingerprints and a photograph to
US-VISIT do so at primary inspection, upon initial contact with immigration authorities. There
are different procedures (described below) for those visitors referred to secondary inspection.
Visitors are referred to secondary inspection if a search in any of the law
enforcement/immigration databases queried at primary inspection results in a “hit” or if the
person or their documents raise the suspicion of the primary immigration officer.

        5 Visitors not subject to US-VISIT requirements include those with certain designated

visa classifications, children under the age of 14, persons over the age of 79, Mexican nationals
to whom the Department of State has issued Border Crossing Cards for use along the southern
border, and Canadians entering the United States across the northern border. Under the Visa
Waiver Program, nationals of designated countries may enter and remain in the United States
without obtaining a visa for up to 90 days.




U.S. Department of Justice                                                             iii
Office of the Inspector General
Evaluation and Inspections Division
and the DHS work together.6 The DHS’s appropriation bills for fiscal years (FY)
2004 and 2005 and the DOJ’s FY 2005 appropriation bill specifically state that
it is essential for US-VISIT to be interoperable with IAFIS (FY 2004), and for
IDENT and IAFIS to ensure that both systems “can retrieve, in real time,
biometric information contained in [IDENT and IAFIS] (FY 2005).”7

RESULTS IN BRIEF

      This OIG review concluded that the FBI is prepared to handle the
projected workload increase that will result from the DHS’s expedited
deployment of Version 1.2 IDENT/IAFIS workstations at Border Patrol stations
and air, land, and sea ports of entry. We found that the DHS currently plans
to use IAFIS to check the fingerprints of less than one percent of the visitors
subject to US-VISIT at the ports of entry. However, if IAFIS will be required to
search fingerprints of an expanded number of visitors, current and planned
IAFIS capacity could be inadequate.

       We also found that efforts to achieve the fully interoperable biometric
fingerprint identification system directed by Congress have stalled. Despite
months of effort, the DHS, the DOS, and the Department disagree on a uniform
method for collecting fingerprint information or on the extent to which federal,
state, and local law enforcement agencies will have direct access to biometric
fingerprint records. The Department has warned that the federal government
may face significant future costs to re-engineer the fingerprint identification
systems if these issues are not resolved soon.

       Meanwhile, the majority of visitors to the United States are still not
checked directly against the FBI’s IAFIS Criminal Master File, which is the
most complete and current law enforcement database. Instead, the DHS
continues to rely upon the interim measure of checking most visitors’
fingerprints against the small portion of IAFIS data extracted into IDENT. As a
result, criminal aliens – including many who committed violent crimes that
threaten public safety – are not identified and prevented from entering the
United States. In addition, the lack of immediate access to the FBI’s full
Criminal Master File creates a risk that a terrorist could enter the country
undetected because the extract process results in a delay of up to one month


       6 After the DHS’s creation in the Homeland Security Act of 2002, the responsibility for

immigration-related issues (including US-VISIT) shifted from the Attorney General to the
Secretary of the DHS.

       7 See DHS Appropriations Bills for FY 2004 (Conference Report 108-280) and FY 2005
(Conference Report 108-774), and DOJ Consolidated Appropriations Act, 2005 (Conference
Report on H.R. 4818).



U.S. Department of Justice                                                            iv
Office of the Inspector General
Evaluation and Inspections Division
before new records of known or suspected terrorists’ fingerprints are entered
into the IDENT and US-VISIT databases.

      For the Department of Justice to effectively proceed with its plans to
make IAFIS interoperable with the biometric fingerprint systems of the DHS
and the DOS, high-level policy decisions must be made regarding who should
be subjected to fingerprint searches, the fingerprint collection standards to be
used, the databases to be queried, who will have access to the information,
how the information will be used, and who will maintain the databases.

      Impact of projected DHS workload on IAFIS. The current and planned
IAFIS capacity is sufficient to handle the projected workload that will result
from the DHS’s deployment of Version 1.2 of IDENT/IAFIS workstations.
According to DHS projections, as of December 31, 2004, the DHS will conduct
up to 6,400 full IAFIS checks (that do not rely on the IAFIS extracts) each day
from ports of entry and Border Patrol stations nationwide. Our review
indicates that current capacity of the FBI’s IAFIS system will support up to
8,000 full IAFIS checks by the DHS each day. Planned IAFIS improvements
through October 1, 2005, will increase IAFIS capacity to support 20,000 full
IAFIS checks from the DHS each day.

      Although the current and planned IAFIS capacity is sufficient to meet the
DHS’s requirements, the DHS workload projections assume that only a limited
number of visitors will be subjected to electronic checks directly against the full
IAFIS Criminal Master File. According to data provided by US-VISIT officials,
between July 1, 2003, and June 30, 2004, an average of about 22,350
individuals were referred to secondary inspection each day, and 1,811 of these
individuals were not admitted to the United States for law enforcement or
administrative reasons. DHS inspection policy states that “all subjects who are
suspected of being inadmissible to the United States shall be queried through
IDENT/IAFIS.” However, according to the DHS, by the end of FY 2005, it
expects to directly check only about 800 individuals each day (0.7 percent of
the 118,000 visitors subject to US-VISIT daily) against the full IAFIS Criminal
Master File.

      The vast majority of visitors (99.3 percent) will be checked only against
the US-VISIT watch list.8 These persons will not be checked directly against

       8 The US-VISIT watch list includes the IDENT lookout records, the IDENT
apprehension records with alerts, “Wants and Warrants” data extracted from IAFIS daily,
records of individuals from countries with special registration requirements, and individuals
with unknown or foreign birthplaces or prior arrests on immigration charges. Wants and
Warrants refer to the Wanted Persons file of the National Crime Information Center.




U.S. Department of Justice                                                             v
Office of the Inspector General
Evaluation and Inspections Division
the full IAFIS Criminal Master File, which, as we explain below, could result in
a failure to identify criminals or terrorists. However, a decision to check all of
the 22,350 visitors referred to secondary inspection directly against IAFIS could
exceed the current and planned IAFIS capacity of 20,000 daily searches.

       IAFIS availability. Our review of system availability data from
November 2003 through April 2004 found that IAFIS did not meet its
requirement that the entire system be available 99 percent of the time. During
that six-month period, the system was available 96.3 percent of the time. On
70 occasions, (including scheduled and unscheduled outages), downtime lasted
30 minutes or more and, in some cases, hours at a time. During these
outages, FBI responses to DHS fingerprint search requests were not timely and
resulted in aliens’ fingerprints not being checked against IAFIS. Further, IAFIS
users were not always notified of system outages. The excessive downtime
occurred because there is no backup system that can continue to process
transactions to completion when IAFIS or its components are taken out of
service for scheduled or unscheduled maintenance. The FBI is currently
working to improve IAFIS availability and provide more timely notification to
customers when the system is unavailable.

        Progress toward full interoperability. Although new interim measures
to improve border security have been implemented since issuance of our Batres
report, our current review found that the longer-term effort to implement a fully
interoperable biometric fingerprint identification system has stalled. We
identified two principal barriers to further progress. First, the DHS and the
DOS have not agreed to implement the January 2003 Technology Standard,
developed by the National Institute of Standards and Technology (NIST), jointly
with the Attorney General and the Secretary of State, at the direction of
Congress, as the uniform method for collecting fingerprint information and for
searching against large databases. The NIST research showed that ten “flat”
fingerprints can be taken almost as quickly as two flat fingerprints and that ten
flat fingerprints offered search accuracy rates approaching the traditional law
enforcement standard of ten “rolled” fingerprints.9 The NIST showed that
taking ten flat fingerprints offered a technologically and operationally
acceptable approach for the Departments of Justice, Homeland Security, and
State to screen incoming visitors. Accordingly, the NIST-recommended
Technology Standard is for ten flat fingerprints to be taken to add or “enroll”

       9  The law enforcement standard is to take fingerprints from all ten fingers by rolling
and pressing each finger on either a scanner or a standard fingerprint record form (ten rolled
prints). Fingerprints also may be taken without rolling the fingers (flat fingerprints) and from
fewer than ten fingers. Prints taken by simultaneously pressing all fingers straight down are
referred to as “slap” fingerprints.




U.S. Department of Justice                                                              vi
Office of the Inspector General
Evaluation and Inspections Division
individuals in databases and to conduct searches of the databases. The NIST
further recommended that two flat fingerprints and a digital picture be used to
verify the identity of a person against an existing record, but not for
enrollment. Thus, the current US-VISIT fingerprint collection standard (two
flat fingerprints for enrollment and database searches) is not consistent with
the NIST-recommended Technology Standard.

       The second barrier to achieving interoperability is that the DHS and the
Department disagree on a method of implementing a fully interoperable system
that provides federal, state, and local law enforcement agencies with the
“readily and easily accessible” access to the IDENT database specified in the
Patriot Act and in subsequent congressional legislation. Similarly, the DHS
does not believe that the FBI or other law enforcement agencies should have
access to US-VISIT records. The DHS maintains this position for several
reasons, including concerns that the information in IDENT is incomplete and
could be misinterpreted, and to protect the privacy of visitors enrolled in US-
VISIT. Without direct access to the DHS’s IDENT database, it is more difficult
for federal, state, and local law enforcement agencies to identify illegal aliens
they encounter.

       Because these issues have not been resolved, the DHS continues to rely
on records extracted from IAFIS into IDENT for most fingerprint searches of
visitors at ports of entry nationwide. The extracted data represents only a
small portion of the more than 47 million records in the IAFIS Criminal Master
File. A Department study of the extracted data has shown that the extracts are
prone to have errors and omissions that result in missed criminals. Further,
the fingerprint file of “Known or Suspected Terrorists” is only transmitted to the
DHS once a month. Consequently, criminals or terrorists could be missed by
checks against the extracted records.10

      In an August 2004 preliminary draft Metrics Study report, the
Department examined IDENT/IAFIS transactions that occurred at Border
Patrol stations and at secondary inspection in ports of entry to determine if
access to IAFIS would result in identifying more criminal aliens.11 The
Department reported that almost three quarters (73.1 percent) of the criminal
aliens encountered at Border Patrol stations and ports of entry were identified
only by checking IAFIS, and would not have been identified by checking IDENT


       10The file contains approximately 15,000 fingerprints of known or suspected terrorists,
including military detainees held oversees.

       11 The study did not include fingerprints of visitors submitted through US-VISIT at
primary inspection.



U.S. Department of Justice                                                           vii
Office of the Inspector General
Evaluation and Inspections Division
alone.12 The results clearly showed that not checking aliens against IAFIS
       TP        PT




increases the risk that the United States will unknowingly admit criminal
aliens.

       The Department has proposed conducting a similar study on visitors
enrolled in US-VISIT, but, as of October 22, 2004, the DHS had not yet agreed
to do so. Finally, the DHS’s decision to continue using two flat fingerprints
rather than ten flat fingerprints makes direct searches against IAFIS
impractical because two-fingerprint searches would significantly reduce the
accuracy of IAFIS by increasing the number of false positives.13 In addition, the
                                                                            TP   PT




cost of searching IAFIS with two flat fingerprints is 25 times greater than ten
fingerprints and requires significantly more computer processing resources.
The Department has argued that the federal government may face significant
costs to re-engineer its fingerprint identification systems in the future to
implement a uniform fingerprint technology standard and make all the systems
fully interoperable.

      Actions taken in response to prior OIG recommendations. The
Department and the FBI have taken steps that were responsive to all but one of
the recommendations we made in our March 2004 Batres report. The
Department was unable to implement our first recommendation, which was to
develop a memorandum of understanding (MOU) with the DHS to guide the
integration of IAFIS and IDENT. Although the agencies have continued to work
together to solve operational and technical problems of mutual concern, the
MOU has not been developed because of fundamental disagreements between
the Department and the DHS over the attributes of an interoperable biometric
fingerprint system and the degree to which the systems should be consolidated
or made interoperable. For the other four recommendations:

   •        The Department assigned responsibility to a senior official. The
            U                                                                         U




            Department assigned responsibility for coordinating the IDENT/IAFIS
            integration project to the Department Chief Information Officer (CIO).
            The CIO has been actively involved in efforts to develop a biometric
            fingerprint system that will most effectively meet the security and law

        12 This is the second of two congressionally directed “Cost and Operational
            TP        PT




Effectiveness Assessments.” The first Metrics Study report was issued on July 18, 2003.

        13 The false positive rate, or false accept rate, is the probability that the system will
            TP        PT




incorrectly determine that a search fingerprint and a file fingerprint are matches. This would
occur if a traveler is mistakenly matched as a criminal hit. The false negative rate, or false
reject rate, is the probability that the system will not identify a search fingerprint match when
the match is in the system. This would occur if a criminal with a record in IAFIS is not
identified when his or her fingerprints are searched.




U.S. Department of Justice                                                                viii
Office of the Inspector General
Evaluation and Inspections Division
       enforcement needs of all concerned parties. His office also developed two
       options for a long-term interoperable solution.

   •   The Department pursued development of Version 2 of IDENT/IAFIS. The
       U                                                                            U




       Department’s Justice Management Division has continued to plan for
       Version 2 of IDENT/IAFIS. Version 2 is intended to provide IDENT
       apprehension and criminal history information to other federal, state,
       and local law enforcement agencies.14 The FBI’s planned Next
                                                TP   PT




       Generation IAFIS also includes elements that will support Version 2 of
       IDENT/IAFIS. Also, on September 4, 2004, the Department issued a
       solicitation for “fast capture” fingerprint/palm print technology that will
       quickly capture ten rolled-equivalent fingerprints or palm prints with
       better image quality than current technologies and that is affordable and
       deployable in the near future.

   •   The FBI started providing Wants and Warrants to the DHS on a daily
       U




       basis. As of May 17, 2004, the FBI made the Wants and Warrants
                 U




       extracts from IAFIS available to the DHS on a daily basis. Previously,
       these extracts were provided once every two weeks. The Department
       considers extracts an interim measure only.

   •   The DHS established procedures to ensure that IAFIS data is available to
       U




       the Border Patrol. As part of the its expedited deployment of Version 1.2
                           U




       workstations, the DHS established and issued written procedures that
       outline appropriate steps to ensure that IAFIS criminal histories of all
       aliens who have criminal records are provided to and reviewed by the
       Border Patrol.

      Conclusion. Notwithstanding the significant positive steps taken to
expedite the deployment of the initial integrated version of IDENT/IAFIS,
progress toward the longer term goal of making all biometric fingerprint
systems fully interoperable has stalled. The Department, the DHS and the
DOS have not agreed on a uniform fingerprint Technology Standard nor agreed
how to develop a fully interoperable system that provides law enforcement
agencies with “readily and easily accessible” access to IDENT and US-VISIT
immigration records as directed by Congress in the Patriot Act and in
subsequent congressional legislation.

       Because these capabilities have not been developed, over 99 percent of
the visitors seeking admission to the United States under the US-VISIT

       14
       TP This was planned before US-VISIT and may no longer be applicable. Progress has
            PT




stalled and JMD is not actively pursuing this approach as it awaits further decisions.




U.S. Department of Justice                                                        ix
Office of the Inspector General
Evaluation and Inspections Division
provisions will only be checked against the US-VISIT watch list. Because that
watch list relies on a limited number of records extracted from the IAFIS
Criminal Master File, the checks will not be as complete as those made directly
against the full 47-million-record IAFIS Criminal Master File. As the
Department’s Metrics Study showed, when only extracts are checked many
criminal aliens – including many who committed violent crimes that threaten
public safety – are not identified and may be unknowingly admitted to the
United States.

      For the Department to effectively proceed with planning to make IAFIS
interoperable with the biometric fingerprint systems of the DHS and the DOS,
high-level policy decisions must be made regarding who should be subjected to
fingerprint searches, the fingerprint collection standard to be used, the
databases to be queried, who will have access to the information, how the
information will be used, and who will maintain the databases. We recommend
that the Department seek to have the federal government address those
decisions in a timely way. Until those decisions are made, we recommend that
the Department:

       1. Within 90 days of the enactment of the Department’s FY 2005
          appropriations act, report to the Homeland Security Council and
          Congress that the Department, the DHS, and the DOS have reached
          an impasse and cannot complete the MOU directed by Congress. The
          report should formally request that the Homeland Security Council or
          Congress decide on the adoption of the NIST Technology Standard
          and define the capabilities to be provided in the interoperable system;

       2. Increase the transmission of the fingerprints of Known or Suspected
          Terrorists from the FBI to the DHS from monthly to at least weekly;

       3. Request access to a random sample of data from US-VISIT and other
          relevant immigration biometric databases used for enforcement or
          benefit purposes for comparison to IAFIS in order to determine the
          risk posed by not checking all visitors against IAFIS;

       4. Coordinate with the DHS to identify the capacity needed to conduct
          IAFIS searches on all visitors referred to secondary inspection and
          inform the Department’s CIO how the capacity of IAFIS (now planned
          to be 20,000 searches by October 1, 2005) could be increased to
          handle that level of activity;




U.S. Department of Justice                                                x
Office of the Inspector General
Evaluation and Inspections Division
       5. Develop options for the eventual upgrade of IAFIS to enable the
          system to conduct ten flat fingerprint searches on all US-VISIT
          enrollees and TPRS submissions from the Border Patrol; 15 and

       6. Take steps to ensure that IAFIS meets its availability requirement of
          99 percent.




       15   Ten-Print Rap Sheet (TPRS) refers to the criminal history file associated with an
alien’s fingerprints. Border Patrol agents and inspectors at ports of entry receive a TPRS
response from IAFIS if an alien’s fingerprints return a potential match to fingerprints in the
IAFIS database.



U.S. Department of Justice                                                              xi
Office of the Inspector General
Evaluation and Inspections Division
                             TABLE OF CONTENTS
___________________________________________________________________________

INTRODUCTION ................................................................................... 1

Background ............................................................................................... 3

Scope and Methodology ............................................................................ 19


RESULTS OF THE REVIEW - PART I ................................................... 21

FBI IAFIS Capacity to Handle Projected Workload Increase ....................... 21

DHS Workload Projections........................................................................ 24

IAFIS System Availability Requirements.................................................... 25

RESULTS OF THE REVIEW – PART II ................................................. 30

Efforts to Achieve Interoperable Fingerprint System Have Stalled.............. 30

DHS and DOS Do Not Agree on Technology Standard for Collecting
     Fingerprint Information................................................................... 32

Departmental Positions on Fully Interoperable System ............................ 37

Risks of Failing to Resolve Issues.............................................................. 44

The Federal Government May Face Significant Costs To Later
     Re-engineer Different Fingerprint Systems ...................................... 48

RESULTS OF THE REVIEW – PART III ................................................ 49

CONCLUSION AND RECOMMENDATIONS ........................................... 54

APPENDIX I: Background on FBI and INS Automated
    Fingerprint Identification Databases ............................................... 56

APPENDIX II: Acronyms Used In This Report.......................................... 72

APPENDIX III: Department (JMD) Comments on the Draft Report........... 74

APPENDIX IV: OIG Analysis of Department (JMD) Comments................. 77


U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX V: DHS Comments on the Draft Report ................................. 81

APPENDIX VI: OIG Analysis of DHS Comments ...................................... 87

APPENDIX VII: DOS Comments on the Draft Report............................. 101

APPENDIX VIII: OIG Analysis of DOS Comments.................................. 105




U.S. Department of Justice                                                    ii
Office of the Inspector General
Evaluation and Inspections Division
                               INTRODUCTION
______________________________________________________________________________

        The Office of the Inspector General (OIG) conducted this review to
examine the Department of Justice’s (Department) and the Federal Bureau of
Investigation’s (FBI) preparations to support the expedited deployment of the
initial integrated version of the Department of Homeland Security’s (DHS)
Automated Biometric Identification System (IDENT) and the FBI’s Integrated
Automated Fingerprint Identification System (IAFIS). However, because we
discovered significant disagreements between the Departments of Justice,
Homeland Security, and State regarding the definition and required elements of
an interoperable biometric fingerprint system, we broadened our review scope
to include an analysis of these issues. We also reviewed the Department’s
plans to develop and deploy the next version of IAFIS, which will be required to
complete the integration project.

      In four reviews since 2000, the OIG has reported on the efforts to
integrate IDENT and IAFIS. In those reports, we found that integration was
moving slowly and would take years to accomplish fully. These reports were:

   •   March 2000 - “The Rafael Resendez-Ramirez Case: A Review of the INS’s
       Actions and the Operation of its IDENT Automated Fingerprint
       Identification System;”

   •   December 2001 - “Status of IDENT/IAFIS Integration” (follow-up report);

   •   June 2003 - “Status of IDENT/IAFIS Integration” (follow-up report); and

   •   March 2004 - “IDENT/IAFIS: The Batres Case and the Status of the
       Integration Project.”

      Since our March 2004 report, the use of IDENT/IAFIS at air, sea, and
land ports of entry has been expanded to meet new DHS entry/exit and border
security requirements implemented in the United States Visitor and Immigrant
Status Indicator Technology (US-VISIT) system. These requirements include an
entry/exit tracking system to collect, maintain, and share information on
foreign nationals, including biometric identifiers. Several of the principal
federal agencies that manage and use biometric databases, including the
Department, the DHS, and the Department of State (DOS), are in the process of
establishing the common elements of a comprehensive biometric fingerprint
policy and its attendant procedures to meet the new requirements of the
Enhanced Border Security and Visa Reform Act of 2002 (Border Security Act).




U.S. Department of Justice                                              1
Office of the Inspector General
Evaluation and Inspections Division
      The Background section of this report provides a brief description of the
IAFIS, IDENT, and US-VISIT systems; the efforts to integrate the IDENT and
IAFIS systems; congressional direction regarding the interoperability of these
biometric fingerprint systems; and the DHS’s efforts to expedite the deployment
of Version 1.2 of IDENT/IAFIS. The Background section also identifies each of
the federal agencies involved in the IDENT/IAFIS integration and the sharing of
biometric fingerprint information among these agencies.

      The Results of the Review section is organized into three parts. Part I
describes the FBI’s short-term preparations for the DHS’s expedited
deployment of Version 1.2 of IDENT/IAFIS. Part II describes the barriers to
further integration of IDENT and IAFIS, including differing positions on
interoperability and the minimum elements required for an interoperable
biometric fingerprint system, as defined by the National Institute of Standards
and Technology (NIST). Part III describes the Department’s progress on the
recommendations in our March 2004 report.

      To supplement the descriptions provided in the Background section,
Appendix I contains a complete history of the IDENT and IAFIS systems,
including summaries of our four prior reports and the efforts made by the DHS
and the FBI to integrate the systems. Appendix II contains a list of acronyms
used in this report.




U.S. Department of Justice                                               2
Office of the Inspector General
Evaluation and Inspections Division
                               BACKGROUND
______________________________________________________________________________

Fingerprint Biometric Identification Systems

       The IAFIS, IDENT, and US-VISIT systems were designed by three
different agencies to provide biometric identification support for three separate
purposes. The uses and basic operation of each system are described below,
along with a brief summary of the effort to integrate IDENT and IAFIS.

      IAFIS. IAFIS is the FBI’s automated fingerprint identification system
and criminal history file, operated by the FBI’s Criminal Justice Information
Services (CJIS) Division in Clarksburg, West Virginia. IAFIS contains digitized
records of latent fingerprints (e.g., fingerprints found at crime scenes) and a
Criminal Master File of more than 47 million sets of ten rolled fingerprints.16
IAFIS also includes a Civil Subject Index Master File, which contains
fingerprints of non-criminals (e.g., military, government, or authorized non-
government personnel). IAFIS includes three major components: the
Automated Fingerprint Identification System (AFIS), the Identification Tasking
and Networking (ITN), and the Interstate Identification Index (III). The AFIS is
the search engine that matches fingerprint images, the ITN maintains the
fingerprint image repository and manages workflow processes, and the III
contains textual criminal history information on arrests and dispositions of
criminal subjects.17

      IAFIS provides fingerprint identification and criminal history services to
the law enforcement community and others needing access to such data
through a network of integrated systems. According to the IAFIS System
Requirements Definition (SRD) document, the FBI provides “user identification
services” to: “(1) authorized customers located at the over 62,000 law
enforcement and criminal justice service agencies; (2) others who have an
authorized justification (such as members of Congress or United States citizens

        16 The law enforcement standard is to take fingerprints from all ten fingers by rolling

and pressing each finger on either a scanner or a standard fingerprint record form (ten rolled
prints). Fingerprints also may be taken without rolling the fingers (flat fingerprints) and from
fewer than ten fingers. Prints taken by simultaneously pressing all fingers straight down are
referred to as “slap” fingerprints.

       17  Textual queries are also sent through IAFIS via the National Crime Information
Center (NCIC), which operates a national database of computerized information on individuals
with active wants and warrants, stolen articles, vehicles, guns, license plates, and other data.
Over 80,000 participating federal, state, and local law enforcement agencies submit
information for wanted and missing persons to the NCIC.




U.S. Department of Justice                                                               3
Office of the Inspector General
Evaluation and Inspections Division
requesting their own FBI record); and (3) FBI staff members who are identified
as service providers [e.g., fingerprint examiners].”18 The five basic user
                               U   U                                   TP   PT




identification services provided by IAFIS are:

    • Ten-print services for criminal and civil fingerprints. Ten-print
       U                                                                         U




      fingerprint records are checked against the criminal fingerprint database
      to identify subjects of criminal investigations or to do civil background
      checks and provide the requesting law enforcement agency with rap
      sheets of potential matches.19 Civil fingerprint database checks are not
                                                         TP   PT




      routine.

    • Image request services. Criminal database searches attempt to match
       U                                             U




      subjects by name, FBI number, or other information to identify a
      fingerprint record.20 For potential matches, the requestor receives the
                                       TP   PT




      subject’s fingerprint image and an indication of whether a criminal photo
      or palm print is available. These requests are known as “IRQs.”

    • Document submission services. These services include providing
       U                                                           U




      requesters with documents, expunging records from the database,
      consolidating multiple records, entering death notices, and responding to
      requests from United States citizens for their FBI records.

    • Subject search and criminal history request services. Searches of the
       U                                                                             U




      civil and criminal master files conducted using a subject’s name and
      physical and/or biographic descriptors.

    • Latent print services. The Forensic Analysis Division, within the FBI
       U                                         U




      Laboratory located in Quantico, Virginia, attempts to match unidentified
      fingerprints (such as those from crime scenes) with fingerprints of known
      individuals.




       18
       TP   PT   IAFIS Systems Requirement Definition, October 31, 2003, p. 7.

       19
       TP   PT   Rap sheet refers to the Record of Arrests and Prosecutions.

       20
       TP  The FBI number is a unique identification number assigned to each individual who
            PT




has a criminal history record in the NCIC. An associated fingerprint record for the individual
will have the same FBI number.




U.S. Department of Justice                                                               4
Office of the Inspector General
Evaluation and Inspections Division
       TPRS and CAR transactions. In 2001, the CJIS Division developed the
       U                               U




special Ten-Print Rap Sheet (TPRS) transaction for the DHS. The CJIS Division
designed the TPRS, which refers to the criminal history file associated with an
alien’s fingerprints, to return a
response within 10 minutes.                    Efforts to Integrate IDENT and IAFIS
When a Border Patrol agent or an          Since the early 1990s, the FBI and the INS have
officer in secondary inspection at   been discussing and working toward integrating their
a port of entry transmits an         fingerprint identification systems. The integrated
                                     system, IDENT/IAFIS, has been developed and
alien’s fingerprints to IAFIS, the   deployed in successive versions that implement
system searches its Criminal         increasing capabilities. Deployment of the current
Master File for a potential “hit” or version of IDENT/IAFIS (Version 1.2) began in the fall
                                     of 2003. The purpose of the Version 1.2 integrated
match. If the alien’s fingerprints   workstation was to provide information from IAFIS to
generate a match in IAFIS, and       immigration authorities.
the fingerprint scores (based on
                                          Using Version 1.2 workstations, immigration
the number of matching points        officers take ten rolled fingerprints and a digital
between the fingerprints) of a       photograph. The IDENT/IAFIS workstation uses the
candidate are above a                ten-print record to query IAFIS and simultaneously
                                     uses the prints of the two index fingers to query and
predetermined threshold, IAFIS       enroll the alien in IDENT. The results of the two
returns the criminal history file    queries are generally available to the officers in less
to the officer and the system        than 10 minutes. The next planned version of the
                                     IDENT/IAFIS integrated system is Version 2. The goal
automatically verifies the match.    of Version 2, which has not yet been developed, is to
If the alien meets the DHS’s         share immigration information with federal, state, and
booking criteria, the alien is       local law enforcement. For a complete history of the
                                     integration project, see Appendix I.
booked at the station or the port
of entry, and the officer transmits
a Criminal Answer Required (CAR) rolled ten-print transaction back to IAFIS.
This CAR fingerprint record is then accessible to other law enforcement
agencies when they query IAFIS.

      IDENT. IDENT was developed by the former Immigration and
Naturalization Service (INS) to track individuals apprehended for illegal border
crossing and to identify recidivists for possible criminal prosecution.21 The  TP   PT




system matches two flat fingerprints from the right and left index fingers of
detained aliens against similar fingerprint records contained in the following
IDENT databases:

    • Lookout database. The lookout database contains fingerprints,
       U                   U




      photographs, and basic information on aliens who have been previously

       21
       TP On March 1, 2003, the INS was transferred to the DHS and its operational
            PT




responsibilities divided among three bureaus: the Bureau of Customs and Border Protection
(CBP), the Bureau of Immigration and Customs Enforcement (ICE), and the Bureau of
Citizenship and Immigration Services (CIS).




U.S. Department of Justice                                                               5
Office of the Inspector General
Evaluation and Inspections Division
            deported or who have criminal records. As of June 2004, there were
            approximately 1 million aliens in the lookout database.

    • Apprehension database. The apprehension database contains
       U                                     U




      fingerprints and photographs of aliens who have been previously
      apprehended. The apprehension database lists the time, date, and
      circumstances of each apprehension, as well as information on aliens
      who may require special attention, such as for a medical condition. As of
      June 2004, there were approximately 6 million aliens in the
      apprehension database. The apprehension database also includes alert
      records that may require special attention at a subsequent encounter,
      such as a medical alert, an officer safety alert, or an alert that the alien
      has a prior removal from the United States.22                  TP   PT




      US-VISIT. At the direction of Congress, the DHS developed the US-VISIT
entry/exit tracking system to “collect, maintain, and share information on
foreign nationals, including biometric identifiers, through a dynamic system
that determines whether the individual should be prohibited from entering the
U.S.; has overstayed or otherwise violated the terms of her/his admission;
should be apprehended or detained for law enforcement action; [or] needs
special protection/attention (e.g., refugees).”23 The US-VISIT program is
                                         U       U         TP   PT




designed to provide “end-to-end management of data on foreign nationals
covering their interactions with U.S. officials before they enter, when they
enter, while they are in the U.S., and when they exit.”24 As of November 15,   TP   PT




2004, the US-VISIT database contained the records (two fingerprints and a
photograph) of over 10 million enrolled legitimate travelers to the United States.

      Approximately 260 million foreign visitors seek admission to the United
States annually. In 2005, about 43 million of these visitors (about 118,000 per
day) will be subject to enrollment into US-VISIT. The 43 million visitors subject
to US-VISIT include most individuals traveling to the United States on a visa
and the nationals of the 27 countries participating in the Visa Waiver Program

        22 IDENT also contains an Asylum database of fingerprint records searched and
       TP    PT




enrolled only by immigration officers that process asylum claims, and a Border Crossing Card
database of fingerprints searched and enrolled by DOS officials that process Mexican Border
Crossing Card applications and a database of the fingerprint records of nonimmigrant aliens
arriving from certain countries identified as presenting an elevated security concern.
Applicants seeking admission to the United States under US-VISIT are not searched against
the apprehension, asylum, or border crossing card databases. Also, US-VISIT uses the lookout
capability of IDENT to check the travelers’ biometrics.

       23
       TP    PT   US-VISIT Fiscal Year (FY) 2004 Expenditure Plan, January 2004, p.1.

       24
       TP    PT   US-VISIT Fiscal Year (FY) 2004 Expenditure Plan, January 2004, p.1.



U.S. Department of Justice                                                               6
Office of the Inspector General
Evaluation and Inspections Division
who do not require a visa if their stay for business or pleasure is less than 90
days. Visitors not subject to US-VISIT requirements include those with certain
designated visa classifications, children under the age of 14, persons over the
age of 79, Mexican nationals to whom the DOS has issued Border Crossing
Cards for use along the southern border, and Canadians entering the United
States across the northern border.

       The DHS designed the US-VISIT system to collect two flat fingerprints
and a digital photograph, and to query databases (such as the US-VISIT watch
list and, for some visitors who will be refused admission, IAFIS) to ensure that
the individual applying for a visa or seeking entry to the United States does not
have any criminal or immigration violations before they are permitted to enter
this country.25 The fingerprints are taken either at visa-issuing consulates
overseas or at the ports of entry when the visitors arrive. According to the DHS
Expenditure Plan, this pre-entry processing will establish one “gold standard”
identity for each foreign national and will be used in all of his or her future
travel to and from the United States.

       The first time a visitor’s fingerprints are taken, they are checked against
the US-VISIT watch list and the visitor is enrolled into the US-VISIT database.26
When visitors subsequently enter or exit the United States, their fingerprints
are only matched against their own enrolled fingerprints (a “one-to-one”
verification match) to confirm the visitor’s identity. In fiscal year (FY) 2003 and
FY 2004, the DHS spent approximately $700 million on US-VISIT. The DHS
anticipates spending up to $15 billion on the program in the next ten years.

Congress Directed That Biometric Identification Systems Be Interoperable

       Beginning in 1999, Congress expressed its concern that the biometric
identification systems of the FBI and the INS could not communicate, resulting
in the INS encountering criminal aliens wanted by the FBI and releasing them
without knowing that they were wanted. As documented in prior OIG reports
on the Rafael Resendez-Ramirez and Victor Manual Batres cases, the failure to
identify these criminals while they were in INS custody sometimes led to tragic
results.

       25 The US-VISIT watch list includes the IDENT lookout records, the IDENT

apprehension records with alerts, “Wants and Warrants” data extracted from IAFIS daily,
records of individuals from countries with special registration requirements, and individuals
with unknown or foreign birthplaces or prior arrests on immigration charges. Wants and
Warrants refer to the Wanted Persons file of the National Crime Information Center.

       26  Because immigration inspectors at primary inspection generally have less than a
minute to inspect arriving visitors, a rapid response time is essential. A check of the US-VISIT
watch list takes approximately 15 to 20 seconds.



U.S. Department of Justice                                                              7
Office of the Inspector General
Evaluation and Inspections Division
       In the USA PATRIOT Act (Patriot Act) enacted on October 26, 2001,
Congress directed the Attorney General and the Secretary of State, jointly with
the NIST, to develop a technology standard for verifying the identity of visa
applicants.27 Congress called for a “cross-agency, cross-platform electronic
system that is a cost-effective, efficient, fully integrated means to share law
enforcement and intelligence information necessary to confirm the identity
of…persons applying for a United States visa.…”28 The Department, the DOS,
and the NIST were directed to “develop and certify a technology standard that
can be used to verify the identify of persons applying for a United States visa or
such persons seeking to enter the United States pursuant to a visa for the
purposes of conducting background checks, confirming identity, and ensuring
that a person has not received a visa under a different name or such person
seeking to enter the United States….” The Patriot Act also specified that the
electronic system should be readily and easily accessible to all consular offices,
Federal inspection agents, and all law enforcement and intelligence officers
responsible for investigating aliens.

       The Border Security Act, enacted on January 23, 2002, amended several
key portions of the Patriot Act, including the sections regarding the
identification of aliens. Section 202(a)(2) of the Border Security Act required an
“interoperable electronic data system to provide current and immediate access
to information in databases of Federal law enforcement agencies and the
intelligence community that is relevant to determine whether to issue a visa or
to determine the admissibility or deportability of an alien.”29 The Border
Security Act also amended the Patriot Act by accelerating the deadlines and
expanding the technology standard to be developed by the Department (now
the DHS), the DOS, and the NIST (described in the paragraph above) to include
“appropriate biometric identifier standards.”30 The Border Security Act also
required that the Department (now the DHS) and the DOS implement the
technology standard at United States ports of entry and overseas consular
posts, and to “issue to aliens only machine-readable, tamper-resistant visas
and other travel and entry documents that use biometric identifiers.”
       27 After the DHS’s creation in the Homeland Security Act of 2002, the responsibility for
immigration-related issues shifted from the Attorney General to the Secretary of the DHS.

       28   USA PATRIOT Act (P.L. 107-56), Section 403(c)(2).

       29 In its directive regarding the sharing of biometric fingerprint information among
systems, Congress describes the operations of the systems as being “fully-integrated” or
“interoperable.” For purposes of this report, we consider these terms to have the same
meaning.

       30 Enhanced Border Security and Visa Reform Act of 2002 (P.L. 107-173), Section

202(a)(4)(B).




U.S. Department of Justice                                                             8
Office of the Inspector General
Evaluation and Inspections Division
       In more recent legislation, Congress has become increasingly specific in
directing that the biometric fingerprint identification systems operated by
various federal law enforcement agencies work together. On April 20, 2004,
Senator Judd Gregg, Chairman of the Commerce, Justice, State and the
Judiciary Appropriations Subcommittee, which initially approved funding for
the FBI’s IAFIS, spoke about fingerprint compatibility and the continuing need
for the DHS to become fully integrated with the FBI. Regarding the deployment
of DHS’s IDENT/IAFIS Version 1.2 workstations, Senator Gregg stated:

       Workstations are only a one-way solution. Workstations give
       DHS access to IAFIS, but they do not give law enforcement
       access to immigration records. FBI and State and local law
       enforcement believe there are situations that require access to
       immigration records.

       Five years have passed and $41 million has been provided and
       the systems are still not integrated. Extracting a sampling of
       IAFIS information every two weeks is not enough…even daily
       extracts cannot substitute real-time information or full
       interoperability. The extracts do not include criminal
       histories. The need for criminal histories was made apparent
       in the 2002 case of Victor Manual Batres.

       In reports accompanying the DHS’s FY 2004 and FY 2005 appropriations
bills, Congress gave specific directions regarding the interoperability of the
IAFIS, IDENT, and US-VISIT systems.31 The Congress also urged increased
coordination between the Department and the DHS, as shown in the following
excerpts:

       DHS Appropriations Bill, FY 2004 (Conference Report 108-280):
       The conferees believe that the success of US VISIT depends on
       the effective integration of biometrics into its systems and
       operations. The biometric infrastructure being built must be a
       viable long-term solution fully interoperable with the FBI [IAFIS]
       that meets biometric standards of [NIST].

       DOJ Appropriations Bill, FY 2005 (Conference Report on H.R.
       4818, Consolidated Appropriations Act, 2005): The conferees
       are troubled by the security gap on the nation's borders caused
       by delays in linking [IDENT]….and [US-VISIT] with criminal
       history   data    contained    in   the   [FBI’s   IAFIS]...With

       31The Department is still operating under a continuing resolution, thus the FY 2005
Appropriation Bill is not yet available.



U.S. Department of Justice                                                          9
Office of the Inspector General
Evaluation and Inspections Division
       implementation of a new visa tracking system and enrollment of
       millions of visitors into US-VISIT, it is essential that the Federal
       Bureau of Investigation collaborate with the Directorate of
       Border and Transportation Security to ensure that IDENT and
       US-VISIT can retrieve, in real time, biometric information
       contained in the IAFIS database, and that the IAFIS database
       can retrieve, in real time, biometric information contained in
       IDENT and US-VISIT.32

The DHS Deployed Version 1.2 of IDENT/IAFIS Workstations to All Border
Patrol Stations, and Committed to Deploying the Integrated Workstations
at 179 Ports of Entry by December 31, 2004.

       The March 2004 Batres report generated significant attention on the
status of the integration project. In March 2004, approximately two months
after the launching of US-VISIT, DHS officials announced plans for an
expedited deployment of Version 1.2 IDENT/IAFIS workstations. In
congressional testimony, DHS officials announced that the DHS was planning
to expedite the deployment of Version 1.2 IDENT/IAFIS workstations to all
Border Patrol stations and the 50 highest volume ports of entry by
December 31, 2004.

      During a March 4, 2004, hearing of the Homeland Security
Subcommittee of the House Appropriations Committee, DHS Secretary Tom
Ridge responded to questions regarding findings contained in the OIG’s Batres
report. When the Committee Chairman asked Secretary Ridge why the Border
Patrol did not yet have instant access to the FBI’s fingerprint records, Secretary
Ridge responded, “…I think we can make a significant number of connections
between the points of entry in the Border Patrol and the database this year
with the dollars available in the budget. I think that can get us up to 65 to 70
percent of those connections.”

      It was unclear from Secretary Ridge’s congressional testimony whether
the “65 to 70 percent” referred only to the Border Patrol stations (there are
currently 136 nationwide), or also included the 331 United States ports of
entry.33 According to US-VISIT Program Managers we spoke with, they
interpreted Secretary Ridge’s reference to “65 to 70 percent” as applying only to

       32  This language is almost identical to the language in the DHS FY 2005 Appropriations
Bill, Conference Report 108-774.

       33    This includes 317 sites in the United States and 14 “pre-clearance” sites in other
countries.




U.S. Department of Justice                                                              10
Office of the Inspector General
Evaluation and Inspections Division
Border Patrol stations. While the DHS’s overall goal was to deploy
IDENT/IAFIS workstations at 70 percent of the Border Patrol locations by the
end of the 2004 calendar year, they were likely to exceed this goal and deploy
the workstations to all Border Patrol stations by December 31, 2004. These
same Program Managers indicated that in addition to deploying IDENT/IAFIS
workstations to all Border Patrol stations, the DHS would also deploy the
integrated workstations to 179 ports of entry by December 31, 2004. The 179
ports of entry will include all air and sea locations and the 50 largest land ports
of entry. The DHS plans to complete deployment by December 31, 2005, when
it installs workstations at its ICE investigative offices, detention locations, and
the remaining ports of entry.

       On September 21, 2004, the DHS issued a press release announcing the
early completion of the deployment of the integrated workstations to all Border
Patrol stations. Thus, the 1.1 million aliens apprehended by Border Patrol
agents annually will now be processed with Version 1.2 of IDENT/IAFIS.34 The
following table (Table 1) provides a brief chronology of relevant deadlines and
actions taken by the Department, the DHS, and other entities prior to, and
immediately following, the issuance the OIG Batres report in March 2004.




       34 Exceptions to the requirement include aliens under 14 years of age, over 79 years of
age, and when the workload at a Border Patrol station is too great, in which case Border Patrol
agents are only required to enter/enroll apprehended aliens into IDENT.




U.S. Department of Justice                                                           11
Office of the Inspector General
Evaluation and Inspections Division
                                         Table 1
     Timeline of IDENT/IAFIS/US-VISIT Actions and Deadlines in 2004
    DATE                                    ACTION OR DEADLINE

January          DHS launches Increment 1 of US-VISIT at 115 airports and 14 seaports.
1/5/04
February         FBI’s CJIS Division continues implementing IAFIS upgrades began in
2/1/04           September 2003.

March            OIG publishes report, “IDENT/IAFIS: The Batres Case and the Status of the
3/2/04           Integration Project.”

March            DHS Secretary announces expedited deployment of IDENT/IAFIS to 70% of
3/4/04           Border Patrol stations by 12/31/04.

April            Senator Gregg stresses need for DHS/DOJ system interoperability, citing lack
4/20/04          of interoperability between US-VISIT and IAFIS.

May              DHS begins expedited rollout of IDENT/IAFIS workstations at Border Patrol
5/9/04           stations.
May              FBI’s CJIS Division begins providing extracts of IAFIS data (Wants and
5/17/04          Warrants) to DHS on a daily basis, instead of bi-weekly.

May              NIST issues report on one-to-one verification using fingerprint matching.
5/19/04
June             DHS selects Accenture as US-VISIT prime contractor.
6/2/04
                 NIST issues report on US-VISIT’s fingerprint identification performance.

June             NIST issues summary report of 2003 fingerprint vendor technology evaluation.
6/4/04
August           JMD releases preliminary draft of its second Metrics Study report.
8/27/04
September        The Department, through NIJ, solicits input for ten-print “fast capture”
9/4/04           fingerprint/palm technology initiative.

September        NIST issues summary of past research, reiterating its January 2003
9/13/04          recommendations to Congress that ten flat fingerprints be the enrollment
                 standard for large biometric databases, and two flat fingerprints and a
                 photograph be the standard for identity verification.

September        DHS completes deployment of IDENT/IAFIS workstations at all Border Patrol
9/21/04          stations ahead of schedule.

September        DHS expands US-VISIT procedures to include visitors traveling under the Visa
9/30/04          Waiver Program arriving at air and sea ports of entry.

October          DOS deadline for all visa issuing consulates to electronically transmit two
10/26/04         fingerprints to query the US-VISIT watch list, per the Border Security Act.

November         DHS goal for US-VISIT and IDENT/IAFIS installation at 50 busiest land ports
11/15/04         of entry.

December         Data Management Improvement Act of 2000 deadline for US-VISIT installation
12/31/04         at 50 busiest land ports of entry and DHS goal for IDENT/IAFIS installation at
                 180 ports of entry.




U.S. Department of Justice                                                                     12
Office of the Inspector General
Evaluation and Inspections Division
Key Agencies in the IDENT/IAFIS Integration

      In response to the March 2004 OIG report on the Batres case and the
status of the efforts to integrate IDENT and IAFIS, several other agencies,
notably the DOS and the Department of Defense (DoD), have become more
involved with the Department and the DHS as they decide how fingerprint
biometrics should be collected and shared across the government. These
agencies have also increased their coordination and communication with each
other through participation in various interagency meetings. The following
section describes each organization’s role in the IDENT/IAFIS integration, and
the interagency meetings held to support the project.

Department of Justice

      Justice Management Division. The Justice Management Division
(JMD) is the Department component with direct responsibility for the
IDENT/IAFIS integration project. JMD has had oversight of the integration
project since 1999, when the Attorney General assigned JMD to coordinate the
development of a plan to integrate IDENT and IAFIS.35 The Assistant Attorney
General for Administration heads JMD, along with four Deputy Assistant
Attorneys General (DAAG).

       Management and Planning Staff. Within JMD, the Management and
Planning Staff, under the DAAG for Policy, Management, and Planning, is
responsible for the day-to-day coordination of the IDENT/IAFIS integration
project. The Management and Planning Staff is responsible for compiling
budget requests, creating project plans, conducting integration studies,
publishing reports, attending regular interagency meetings, and working
directly with Department and non-Department representatives on IDENT/IAFIS
integration issues.

      Office of the Chief Information Officer. The DAAG for Information
Resources Management is the Department’s Chief Information Officer (CIO),
and is responsible for leading and implementing the efficient acquisition and
management of information technology across the Department. The CIO is the
highest ranking individual in the Department directly responsible for managing
the IDENT/IAFIS integration project. The CIO represents the Department in
meetings with the DHS and at high-level policy meetings with other non-
Department entities, such as the Office of Management and Budget, the White
House Homeland Security Council Deputies, and the CJIS Division.

        In July 1999, a House Report directed the INS to suspend further deployment of
       35

IDENT until the Department submitted a plan for integrating IDENT and IAFIS.




U.S. Department of Justice                                                      13
Office of the Inspector General
Evaluation and Inspections Division
      Joint Automated Booking System (JABS) Program Management Office.
The purpose of the JABS is to enable federal law enforcement agencies
nationwide to share information on offenders, including fingerprint data. The
system receives booking information from law enforcement agencies, stores it,
then queries IAFIS for matching fingerprint and biographical data. The JABS
Program Management Office ensures that all Department law enforcement
components, the DHS, and other federal agencies have access to JABS data,
and also oversees the data sharing process.36 The JABS Board of Directors is
an oversight group for the JABS program that makes process and policy-
related recommendations to the JABS Program Management Office.

       FBI’s Criminal Justice Information Services Division. The FBI’s CJIS
Division, located in Clarksburg, West Virginia, maintains and operates IAFIS.
The CJIS Division has approximately 2,400 employees organized into the
following three branches: Policy, Administrative and Liaison; Communications
and Technology; and Operations. The Deputy Assistant Director (DAD) for the
Operations Branch is responsible for identifying the funding needs of the
various Operations Branch’s priority projects and tasks. For the IDENT/IAFIS
integration project, the Operations Branch DAD also serves as the FBI’s liaison
for policy issues with JMD, the DHS, and technical groups outside the FBI.
Two of the Operations Branch’s sections have direct responsibility for IAFIS --
the Information Technology Management Section (ITMS), and the Identification
and Investigative Services Section (IISS).

      Within the ITMS, the Requirements Management Unit (RMU) is
responsible for identifying IAFIS user needs, developing system specifications,
and conducting system testing. The RMU Chief works with other ITMS Unit
Chiefs regarding IAFIS-related operations, systems, and technology support
issues. The RMU Chief also serves as the technical liaison representing the
CJIS Division at regular working group meetings with JMD and DHS staff. The
IISS Chief attends meetings with JMD, the DHS, and other entities outside the
FBI. The IISS houses the Division’s approximately 250 fingerprint examiners
who, when needed, verify fingerprint matches run through IAFIS. The
fingerprint verification service is provided 24 hours a day, 7 days a week.




       36All TPRS transactions pass through JABS. Therefore, JABS will also have to be
prepared to support the increased workload from the DHS. The officials we spoke to stated
that JABS was ready for the expedited deployment of Version 1.2.



U.S. Department of Justice                                                         14
Office of the Inspector General
Evaluation and Inspections Division
Department of Homeland Security

       On March 1, 2003, the DHS assumed responsibility for national border
security and enforcement of immigration laws. The DHS has five major
divisions or “directorates.” The largest one, the Border and Transportation
Security (BTS) Directorate, manages the IDENT and US-VISIT systems. The
DHS’s operational immigration responsibilities are divided among three
bureaus: the Bureau of Customs and Border Protection (CBP), the Bureau of
Immigration and Customs Enforcement (ICE) (both units of BTS), and the
Bureau of Citizenship and Immigration Services (CIS).

        Bureau of Customs and Border Protection. The Border Patrol falls
under the DHS’s CBP, along with employees from the former U.S. Customs
Service, the INS, and the Department of Agriculture. The CBP’s mission
includes preventing terrorists and criminal aliens from entering the United
States and apprehending individuals attempting to enter the United States
illegally. Over 40,000 employees, including Border Patrol agents and
inspectors stationed at ports of entry, work for the CBP.

      US-VISIT Program Management Office. The DHS manages US-VISIT
through its US-VISIT Program Management Office. The Office includes the
ENFORCE/IDENT Program Management Office, which in turn manages
IDENT/IAFIS integration and deployment of integrated workstations.37 The
Program Management Office staff’s responsibilities include communicating with
CJIS Division and JMD representatives and participating in meetings with non-
Department entities.

      Biometrics Support Center. The Biometrics Support Center is a DHS
contractor facility that updates and maintains the IDENT lookout and
apprehensions with alert database enrollments. It also provides DHS agents
with an immediate response to (non-electronic) queries of subjects’ fingerprints.
The Biometrics Support Center is staffed with fingerprint examiners, many of
whom are former FBI personnel. The Biometrics Support Center also accepts
search requests from local law enforcement personnel through a local
immigration officer.




       37  ENFORCE is the DHS’s case management system that documents and tracks the
investigation, identification, apprehension, detention, and removal of immigration law violators.




U.S. Department of Justice                                                            15
Office of the Inspector General
Evaluation and Inspections Division
National Institute of Standards and Technology

        The Commerce Department’s NIST has statutory authority, along with
the Secretaries of State and Homeland Security, to develop and certify a
Technology Standard that includes biometrics, in order to verify the identity of
individuals applying for a visa or using a visa to enter the United States. In
developing this Technology Standard, the NIST evaluated government and
commercial biometric systems, and published the results of its research,
including recommendations, in several reports since 2002. Scientists at the
NIST have been working with the FBI for over 30 years to research, develop,
and improve fingerprint-matching procedures, and have created several
fingerprint databases used to test new fingerprint identification algorithms and
“live” fingerprint scanners, such as the types used by US-VISIT and
IDENT/IAFIS. The NIST works with representatives from the CJIS Division,
JMD, the DOS, and the DHS, and participates in regular interagency meetings
with them and relevant contractors.

Department of State

       To comply with the US-VISIT biometric identifier requirement, the DOS is
currently deploying small single-finger electronic fingerprint scanners and
digital cameras at all United States visa processing embassies and overseas
consulates. The DOS US-VISIT deployment schedule indicates that, as of
October 26, 2004, all of the approximately 214 visa-issuing consulates are
required to transmit two flat fingerprints to query the IDENT/US-VISIT
biometric watch list.38

       Bureau of Consular Affairs. The DOS’s Bureau of Consular Affairs is
responsible for implementing policies relating to the broad range of overseas
consular services and immigration, including the management of individuals
applying for a United States visa. Representatives from the Bureau of Consular
Affairs work with the DHS and the Department regarding biometrics issues,
and participate in the interagency meetings regarding fingerprint issues. The
Bureau of Consular Affairs is also overseeing several pilot projects with the
FBI, in which United States consulates in Mexico (including Guadalajara and
Monterrey) are taking ten flat fingerprints from visa applicants.




       38 This deadline, postponed from October 1, 2003, refers to the date by which certain
passports used for travel to the United States must be machine-readable (Border Security Act,
Section 303).



U.S. Department of Justice                                                          16
Office of the Inspector General
Evaluation and Inspections Division
Department of Defense

       The Secretary of the Army is responsible for biometrics within the DoD.
The Army’s Biometric Management Office and Biometrics Fusion Center report
directly to the Army CIO.

      Biometric Management Office. Representatives from the DoD’s Biometric
       U                              U




Management Office have been working with FBI’s CJIS Division since
November 2003 to develop standardized policies for collecting, searching and
sharing fingerprints collected overseas from military detainees and latent
fingerprints gathered from investigation sites. As a result of this collaboration,
the DoD is currently upgrading its technology to conform to the electronic
fingerprint standards that IAFIS utilizes. The DoD is in the process of
configuring its own automated fingerprint identification system and is
coordinating with the CJIS Division. The Biometric Management Office
representatives also participate in various inter-agency meetings.

Key Working Groups

      The above groups have created several interagency committees and
working groups to coordinate the sharing of biometric fingerprint information.
They address topics ranging from policy and long-term issues, to meetings with
working-level participants to discuss technical and operational issues. The
committees and working groups include:

    • Executive Office of the President, Homeland Security Council,
      Deputies Committee. Officials at the Deputy level (or their designees)
      from the Department, the DHS, the DOS, and other agencies have met
      regularly since January 2004 to discuss security issues, including
      IDENT/IAFIS and US-VISIT fingerprint biometric interoperability issues
      and long-term goals.

   •   Policy Coordination Committee. Also formed in January 2004, the
       Policy Coordination Committee reports to the Homeland Security Council
       Deputies on issues such as current and future use of the fingerprint data
       contained in IAFIS, IDENT, and US-VISIT. Managed by the Office of
       Management and Budget, Policy Coordination Committee participants
       include representatives from the Department (e.g., the CIO, the FBI CJIS
                                                      U   U




       Division, and JMD), the DHS, the DOS, and the DoD.

   •   US-VISIT Federal Stakeholders Advisory Board (US-VISIT Board). The
       US-VISIT Board, chaired by the DHS’s Under Secretary for BTS, provides
                                                                   T   T




       advice and recommendations for the management of the US-VISIT
       system. Non-DHS members include the Department CIO, Assistant


U.S. Department of Justice                                                 17
Office of the Inspector General
Evaluation and Inspections Division
       Director in Charge of the CJIS Division, and the Deputy Assistant
       Secretary of State for Consular Affairs.

   •   Interagency Task Force. The Task Force, chaired by the Director of US-
       VISIT, meets weekly to discuss operational issues but has no policy role.
       The group includes Accenture (US-VISIT prime contractor) and
       representatives from across the DHS and other agencies. The
       Department’s Office of the CIO is also represented.

   •   US-VISIT Strategic Plan Team. The Team outlines business
       requirements needed for immigration and border management and the
       technology, data, and facilities needed to support the requirements. The
       FBI CJIS Division and the Department are represented.

   •   NIST Biometric Working Group. Representatives from JMD, CJIS
       Division, the DOS, the DHS, as well as relevant contractors, attend
       regular meetings at the NIST to discuss issues surrounding Patriot Act
       biometrics. Scientists at the NIST attend these meetings and explain to
       participants the findings of their biometrics research studies.

    • JABS Board of Directors. The JABS Board of Directors is an oversight
      group that makes process and policy-related recommendations to the
      JABS Policy Management Office. It is comprised of the Department’s
      CIO, a Section Chief from the CJIS Division, and other representatives
      from the organizations that utilize JABS.

   •   Source Selection Advisory Committee. The DHS formed the Source
       Selection Advisory Committee, which was comprised of managers from
       the DHS’s US-VISIT Policy Management Office and included the CJIS
       Division’s Operations Branch DAD, to select the prime contractor for US-
       VISIT. The contract was awarded to Accenture on June 2, 2004.




U.S. Department of Justice                                             18
Office of the Inspector General
Evaluation and Inspections Division
SCOPE AND METHODOLOGY

       Because the scope of this review involves issues beyond the Department,
including issues within the DHS, we coordinated this review with the DHS’s
Office of Inspector General. Our fieldwork consisted of interviews, site visits,
and extensive documentation review.

      Interviews. We interviewed individuals from the Department, the DHS,
the NIST, the DOS, and the DoD. We also spoke to contractors working for the
companies responsible for supporting the integration project.

       Interviews with Department personnel. From the Department, we
interviewed the CIO, his Special Assistant, and a Senior Program Analyst in the
CIO’s office. From JMD, we interviewed the IDENT/IAFIS and JABS Program
Managers, and members of their staff. From the FBI, we interviewed the
Assistant Director in Charge of the CJIS Division and members of his staff,
including two Deputy Assistant Directors, two Section Chiefs, a Senior
Information Technology Specialist, a fingerprint examiner, and several other
senior personnel at the CJIS Division.

      Interviews with DHS personnel. From the DHS’s US-VISIT Program
Management Office, we interviewed the Deputy Director of US-VISIT, and
several IDENT/IAFIS Program Managers. From the Bureau of Customs and
Border Protection, we interviewed the senior Border Patrol Officer responsible
for IDENT/IAFIS, an inspector at the Dulles International Airport, and a
Program Officer from the executive office of US-VISIT.

       Interviews with the NIST, the DOS, and the DoD. From the NIST, we
interviewed the chief scientist with principle responsibility for biometrics
research. From the State Department, we interviewed the Deputy Assistant
Secretary of State for Consular Affairs, and two members of her staff involved
in biometrics. From the Defense Department, we interviewed the Director of
the DoD Biometrics Management Office, a representative of the DoD’s Office of
the Assistant Secretary of Defense, and several contractors.

      Site visits. We visited the FBI’s CJIS Division in Clarksburg, West
Virginia in order to interview FBI personnel and observe IAFIS system
capabilities. We also visited the DHS’s port of entry at Dulles International
Airport to observe IDENT/IAFIS operations and US-VISIT entry/exit
procedures, and to interview DHS staff. In addition, we attended the
Department’s Fingerprint Vendor Technology Evaluation meeting, and a
presentation given by JMD and relevant contractors regarding their assessment
of IDENT/IAFIS search accuracy.



U.S. Department of Justice                                              19
Office of the Inspector General
Evaluation and Inspections Division
      Documentation review. We reviewed numerous documents, including
the Department’s and the DHS’s updated deployment and budget plans; the
most recent JMD Metrics Study; fingerprint biometrics studies conducted by
the NIST and the FBI; IDENT/IAFIS integration status reports; recent
congressional testimony and reports; FBI and US-VISIT system descriptions
and performance data; interagency meeting minutes; and correspondence
between representatives from the Departments of Justice, Homeland Security,
and State.




U.S. Department of Justice                                          20
Office of the Inspector General
Evaluation and Inspections Division
                    RESULTS OF THE REVIEW – PART I
______________________________________________________________________________


       Existing FBI IAFIS capacity is sufficient to handle the
       projected workload increase that will result from the DHS’s
       expedited deployment of Version 1.2 of IDENT/IAFIS
       workstations. However, that conclusion is based on current
       DHS workload projections which assume that less than
       one percent of visitors will be subjected to direct IAFIS
       fingerprint searches at the ports of entry. Current and
       planned IAFIS capacity through October 1, 2005, is not
       adequate to support a significant expansion of the number
       of visitors searched. In addition to having adequate current
       capacity, the FBI requires that the IAFIS system be
       available to users at least 99 percent of the time. Between
       November 2003 and April 2004, IAFIS failed to meet system
       availability requirements.     Because there is no backup
       system, during scheduled or unscheduled maintenance
       IAFIS must be taken out of service and cannot complete
       fingerprint searches.     As a result, responses to DHS’s
       fingerprint search requests were delayed, resulting in
       aliens’ fingerprints not being checked against IAFIS at all.
       The FBI is working to improve system availability and
       provide more timely notification to customers when the
       system is unavailable.


Existing FBI IAFIS Capacity is Sufficient to Handle the Projected
Workload Increase That Will Result From the DHS’s Expedited
Deployment of Version 1.2 of IDENT/IAFIS Workstations

      On March 4, 2004, DHS Secretary Ridge testified before Congress that
the DHS would expedite the deployment of Version 1.2 IDENT/IAFIS
workstations. The DHS committed to completing deployment of the new
workstations to all its Border Patrol stations and to the 179 ports of entry
included in the first two phases of US-VISIT (the 115 air ports of entry, 14 sea
ports of entry, and the 50 busiest land ports of entry) by December 31, 2004.
As of September 21, 2004, the DHS completed deployment of Version 1.2
workstations to all 136 of its Border Patrol stations. DHS officials told us that
they are on track to deploy Version 1.2 workstations to the 179 ports of entry
by the end of 2004.




U.S. Department of Justice                                               21
Office of the Inspector General
Evaluation and Inspections Division
       The deployment of Version 1.2 integrated workstations will increase the
number of IAFIS queries submitted by the DHS. The DHS conducted an
analysis to estimate the potential increase in TPRS queries that would be sent
to IAFIS from all Border Patrol stations and all US-VISIT air, land, and sea
ports of entry through December 31, 2005 (when the DHS is scheduled to
complete deployment of the Version 1.2 workstations). As part of the analysis,
the DHS included information on low and peak times of day and year. For
January through April 2004, the DHS-projected number of daily transactions
for the Border Patrol ranged from a low of 2,553 to a high of 5,230. For the
ports of entry, the DHS-projected number of daily TPRS transactions ranged
from a low of 629 to a high of 829.39 Based on the DHS data, we estimated that
the daily range of TPRS IAFIS queries after December 31, 2005, could be
between 3,182 and 6,059 queries per day.

      For other data on IAFIS workload and preparations to meet DHS
requirements, we contacted CJIS Division officials. They told us that, as of
May 25, 2004, the DHS was submitting approximately 2,200 to 3,000 TPRS
search requests each day; 1,300 CAR bookings; and 3,000 fingerprint image
requests to IAFIS (Table 2). At that time, IAFIS was capable of processing
8,000 TPRS requests per day.

                                      Table 2 – IAFIS Daily Capacity and Usage
Query Types            CURRENT           CURRENT         CURRENT           Planned           Projected        Projected
                       Capacity           Queries         Queries         Version 1.2         Queries          Queries
                                        (All sources)   (DHS Only)         Capacity        (All sources)     (DHS Only)
                                                                         (10/1/2005)      (10/1/2005)       (10/1/2005)
TPRS queries                                                                                                      3,182 –
(DHS only)                  8,000                        2,200-3,000            20,000                             6,059(a)
CAR bookings               30,000             20,500           1,300            60,000            35,000     up to 3,900(b)

IRQ                         7,000              6,000          3,000(c)           7,000             6,000                3,000

Latents                      635(d)              350               25              635               450       up to 158(e)
Name checks/III/
Criminal histories        850,000            425,000         187,000          850,000           470,000          Unknown

(a) Provided by the DHS. The DHS projection is based on workload data for January through April 2004.
(b) The FBI plans to support up to 1 million additional annual CAR bookings from the DHS after October 1, 2005.
(c) The CJIS Division limits the DHS to 3,000 IRQs per day to ensure that other entities have access to fingerprint
     image retrievals.
(d) All federal agencies except the FBI have been allocated 25 percent of IAFIS’s latent fingerprint search capacity.
(e) The DHS allocation is 158; in the past the DHS has not submitted latent requests up to its allocation.

Source: CJIS Division, except where noted as from the DHS.




        The DHS projection assumed there would be 71 TPRS transactions for every 100
         39

IDENT search and enroll transactions.




U.S. Department of Justice                                                                                   22
Office of the Inspector General
Evaluation and Inspections Division
       According to the CJIS Division’s FY 2005 Budget Enhancement Request,
as of May 2004 the CJIS Division had implemented $2.7 million worth of IAFIS
improvements, including upgrades of the IAFIS server platform and network,
expanded storage capacity, and increased bandwidth. After October 1, 2005,
the CJIS Division expects to implement enhancements that will increase IAFIS
capacity from the current 8,000 daily TPRS search requests to 20,000 daily
TPRS search requests.40 The CJIS also plans to increase its capacity to process
                           TP   PT




CAR bookings from the current 30,000 to 60,000 per day. The increased CAR
capacity will accommodate up to 1 million additional CAR submissions per
year from the DHS. The capacity for fingerprint image requests and name
checks will remain the same for FY 2005. The CJIS Division plans to hire
additional fingerprint examiners (above the 12 requested in the FY 2005 budget
request) to supplement the approximately 250 examiners already on board and
support anticipated retirements.

      In addition, the Budget Enhancement Request indicated that the CJIS
Division is implementing several IAFIS upgrades in FY 2004 and FY 2005 to
enable the FBI to better support the DHS. For example, the CJIS Division was
planning to:

   •        Reduce the guaranteed IAFIS processing time for TPRS responses from
            10 minutes to 2 to 3 minutes by prioritizing TPRS transactions; and

   •        Provide additional software and hardware upgrades to support these
            enhancements, including requesting an additional $12.4 million in IAFIS
            system enhancements for FY 2005 (that would represent the bulk of the
            FBI’s FY 2005 IDENT/IAFIS budget of $16 million).

       Based on the existing IAFIS capacity of 8,000 TPRS transactions per day,
the FBI appears to be capable of handling the increased volume of TPRS
searches projected to occur as a result of the DHS’s expedited deployment of
Version 1.2 of IDENT/IAFIS workstations through December 2004. The
current capacity also appears capable of supporting a decision by the DHS to
conduct a TPRS check on all of the aliens not admitted to the United States
each day at the ports of entry. The planned IAFIS upgrades will increase the
TPRS transaction capacity to 20,000 searches per day by October 1, 2005, and
will give the system a surplus capacity of at least 13,000 TPRS transactions
over the 6,059 maximum expected daily workload from the DHS.

       40
       TP CJIS Division representatives met with the IAFIS contractor, Lockheed Martin, to
             PT




ensure that they would be able to support 20,000 TPRS transactions per day. Operations and
maintenance functions are managed by FBI staff and executed by FBI and Lockheed Martin
staff.




U.S. Department of Justice                                                       23
Office of the Inspector General
Evaluation and Inspections Division
DHS Workload Projections Assume That Less Than One Percent of Visitors
Will Be Subjected to Direct IAFIS Fingerprint Searches at the Ports of
Entry

      Although we concluded that the FBI is prepared to meet the expected
increase in IAFIS workload through October 1, 2005, we noted that DHS
workload projections assume that the number of visitors who receive IAFIS
fingerprint searches will be sharply limited. The DHS is not planning to use
IAFIS TPRS searches to screen all, or even many, visitors at ports of entry, but
plans to limit TPRS queries to a small percentage of those who are referred to
secondary inspection and not admitted to the United States.41 According to the
DHS, in 2005 approximately 43 million visitors to the United States (an average
of 118,000 each day) will be subject to US-VISIT requirements at ports of entry
nationwide. The DHS estimates that, once full deployment of all IDENT/IAFIS
workstations is complete, it will request direct TPRS IAFIS queries on about
800 aliens each day (0.7 percent of the visitors subject to US-VISIT). Although
the 800 a day projection is significantly lower than the average of 1,800
individuals a day who were determined inadmissible between July 1, 2003 and
June 30, 2004, present IAFIS capacity could handle an additional 1,000
queries a day.42 The other 99.3 percent of aliens requesting entry into the
United States will be checked against US-VISIT, but will not be checked against
the IAFIS Criminal Master File.

       If the number of visitors who are subjected to IAFIS fingerprint
searches is expanded, the current and planned IAFIS capacity through
October 1, 2005, may be exceeded. Although we concluded that current and
planned IAFIS capacity is sufficient to meet the DHS’s projected requirements,
the DHS workload projections assume that only about 800 visitors will be
subjected to IAFIS fingerprint searches at the ports of entry each day. That
represents only 0.7 percent of the 118,000 total projected daily visitors in 2005
that are denied admittance each day. According to data provided by US-VISIT
officials, between July 1, 2003, and June 30, 2004, an average of about 22,350
individuals referred to secondary inspection each day, and 1,811 of the
individuals were not admitted to the United States for law enforcement or

        41 Visitors are referred to secondary inspection if a search in any of the law

enforcement/immigration databases queried at primary inspection results in a hit or if they
raise the suspicion of the primary immigration officer. DHS data for the period from July 1,
2003, to June 30, 2004, shows that 8,156,638 of the 260,863,839 visitors to the United States
(8.9 percent) were referred by immigration agents for secondary inspection. Of these, 661,072
(0.3 percent of all visitors), or about 1,811 per day, were subsequently not admitted to the
United States due to administrative, immigration, or criminal issues.

       42DHS inspection policy states that “all subjects who are suspected of being
inadmissible to the United States shall be queried through IDENT/IAFIS.”



U.S. Department of Justice                                                            24
Office of the Inspector General
Evaluation and Inspections Division
administrative reasons.43 The vast majority of visitors subject to the provisions
of US-VISIT (99.3 percent) will be checked against the US-VISIT watch list,
which contains a limited number of records extracted from the IAFIS database
such as the Wants and Warrants file, but the visitors will not be checked
directly against the full IAFIS Criminal Master File.

       Although by October 1, 2005 IAFIS will have surplus capacity of between
13,000 and 16,000 TPRS transactions over current projected requirements, the
number of visitors checked directly against IAFIS could increase significantly if
the population of visitors subjected to the IAFIS TPRS searches is expanded.
For example, a decision to check all visitors referred for secondary inspection –
which averaged 22,350 each day between July 1, 2003, and June 30, 2004 –
could exceed the current and planned IAFIS capacity of 20,000 TPRS searches
per day through October 1, 2005. Although such an expansion is not currently
planned, this could change based on the results of a proposed study discussed
later in this report that would determine how many criminal visitors missed by
US-VISIT could have been detected by checking IAFIS.

Between November 2003 and April 2004, IAFIS Failed to Meet System
Availability Requirements.

      In addition to having the capacity to process its expected workload, the
IAFIS system must be continually operational in order to respond to fingerprint
search requests 24 hours a day, 7 days a week. However, the IAFIS system
consists of several components that do not have redundant backup systems, so
when any of the components is out of service for software or hardware
upgrades (scheduled downtime), or due to unforeseen system problems
(unscheduled downtime), the FBI cannot continue to fully process fingerprint
search requests.44 Availability requirements call for the entire IAFIS system to
be available to users 99 percent of the time and for each IAFIS component to be
available 99.5 percent of the time.

       According to CJIS Division data, IAFIS has not been meeting these
system availability requirements. We found that during the six months from
November 2003 through April 2004, IAFIS was down a total of 161 hours,
resulting in an average monthly availability of approximately 96 percent
        43 Visitors are referred to secondary inspection if a search in any of the law

enforcement/immigration databases queried at primary inspection results in a hit or if they
raise the suspicion of the primary immigration officer.

       44  Depending on the specific component that is out of service, queries can sometimes be
partially processed by the available IAFIS components and queued until the remaining
components are available.




U.S. Department of Justice                                                           25
Office of the Inspector General
Evaluation and Inspections Division
(Chart 1). Of the 161 hours of downtime, about 60 percent was scheduled and
40 percent was unscheduled (Table 3, next page). During this six-month
period, IAFIS had 24 scheduled outages and 46 unscheduled outages of 30
minutes or more.

       Excessive downtime makes it possible for aliens with a criminal record in
IAFIS but with no criminal record in IDENT to be released. The impact is most
acutely felt at Border Patrol stations that are processing large numbers of
apprehended aliens. If Border Patrol agents do not receive a response from
IAFIS within 10 minutes or shortly thereafter, decisions on whether to detain or
release the alien will be made based only on the results of an IDENT query.
Visitors at ports of entry already will have been checked against the US-VISIT
watch list, and, if they are referred to secondary inspection, officers can query
the IAFIS criminal history database by the visitors’ name and make a decision
based on checks of other immigration databases. However, there is still the
risk of not having the right name and missing information that would be
available through a fingerprint match.

                                            CHART 1 - IAFIS Availability
                                             November 2003-April 2004

           99.0%                   98.1%         98.2%
           98.0%                                                                    97.1%
           97.0%     96.3%                                      96.1%
           96.0%
           95.0%
           94.0%
           93.0%
                                                                           91.9%
           92.0%
           91.0%
           90.0%
           89.0%
           88.0%
                    Nov-03         Dec-03        Jan-04        Feb-04      Mar-04   Apr-04


       Source: FBI CJIS Division




U.S. Department of Justice                                                          26
Office of the Inspector General
Evaluation and Inspections Division
                                               TABLE 3
               FBI IAFIS Availability for Six-Month Period November 2003 - April 2004

    Date      Hours in        Downtime           IAFIS        Unscheduled Downtime   Scheduled Downtime
               Month                           Availability
                         (Hours)   (Percent)    (Percent)      (Hours)   (Percent)   (Hours)    (Percent)
November-03     720      26:26      3.8%         96.2%         10:40      40.4%      15:46      59.6%
December-03     744      13:50      1.9%         98.1%          2:50      20.5%      11:00      79.5%
January-04      744      13:27      1.8%         98.2%          8:47      65.3%      4:40       34.7%
February-04     696      27:10      3.9%         96.1%          8:36      31.7%      18:34      68.3%
March-04        744      59:59      8.1%         91.9%         36:22      60.6%      23:37      39.4%
April-04        720      20:58      2.9%         97.1%          4:50      23.1%      16:08      76.9%

   TOTAL       4,368     161:50     3.7%         96.3%         72:05      40.4%      89:45       59.6%
Source: FBI CJIS Division

       CJIS Division officials told us that they schedule downtime periods of
about eight hours to accomplish necessary software updates and other
installations at least four times per year, typically in March, June, September,
and December. In addition, they stated that there are “small outages” at least
six times per year. Scheduled downtime is generally planned for times when
the CJIS Division expects minimal customer activity (e.g., early morning
hours). As shown in Table 3, IAFIS experienced scheduled downtime on a
monthly basis for the six-month period that we reviewed (November 2003
through April 2004). CJIS Division officials acknowledged the frequent
downtime and told us that they are working to limit scheduled downtime to the
expected four times per year, but that it is “not one of their highest priorities.”
They stated that the CJIS Division is currently researching methods of
installing software faster to reduce scheduled downtime from eight hours to
approximately one hour, and is considering including a “hot maintenance
concept” in the Next Generation IAFIS in which some software upgrades could
be accomplished without taking the system out of service.45

      Customer notification procedures. During IAFIS downtime, responses
to DHS requests for fingerprint searches may be delayed.46 Unscheduled
delays, in particular, can present a significant problem for the Border Patrol,
which relies on quick response times in order to process apprehended aliens.
The CJIS Division policy is to notify customers if IAFIS cannot respond to
queries within 10 minutes for the DHS, and 2 hours for other customers.
However, CJIS Division officials stated that, particularly during March 2004,
the CJIS Division was unable to notify the Border Patrol of the IAFIS problems

       45   Next Generation IAFIS is discussed in more detail later in this report.

       46 Delays in response time may also be due to problems at the DHS site or with other
FBI systems.




U.S. Department of Justice                                                                     27
Office of the Inspector General
Evaluation and Inspections Division
in a timely manner. The CJIS Division later provided the DHS with written
explanations of the problems, but a Border Patrol senior agent told us that he
was frustrated by the extended IAFIS downtime (specifically during March),
lengthy repair time, and an inability to directly contact the CJIS Division help
desk.

       To improve customer notification, on May 5, 2004, the CJIS Division
modified the “call tree” that it uses to notify IAFIS users (and other CJIS
Division system customers) of unscheduled downtime and other system
problems to include the DHS help desk. In addition, the CJIS Division now
sends a message to a designated individual at the US-VISIT Program
Management Office, who then notifies locally designated area coordinators of
the downtime via e-mail. The US-VISIT Program Management Office confirmed
to us that it is now receiving better notice of such outages.

       Lack of backup increases risk of service loss. In addition to causing
downtime when components are out of service, the lack of backup systems for
IAFIS means that, if a catastrophe severely damages the IAFIS system, there is
no backup that can continue to provide electronic fingerprint identification
services to law enforcement authorities. Copies of IAFIS data are sent to an off-
site location regularly, however.47 In February 2004, at the request of the
Department, the IAFIS contractor (Lockheed Martin) prepared two reports that
describe options for developing a disaster recovery site to ensure continuation
of CJIS Division operations (including IAFIS, the NCIC, the National Instant
Criminal Background Check System, and other services) in case of a
catastrophe at the CJIS facility.48 The reports confirm that “If the data the
CJIS division maintains were destroyed, law enforcement services throughout
the United States would be severely degraded.” The reports recommend
developing a “mirror” site that would cost an estimated $174 million and take
up to eight years to complete.

       Although it was not originally a requirement, CJIS officials told us,
during an October 2004 follow-up interview, that the backup site is now
required to ensure continual IAFIS availability during normal downtime, as well
as in the event of a disaster. They also told us that the CJIS Division awarded
a contract for an Enterprise Storage Area Network, which will replicate IAFIS

       47  US-VISIT and IDENT have redundant search capability with databases residing in
Rockville, Maryland, and Dallas, Texas.

       48 Final Report on the Analysis of Alternative Concepts for Disaster Recovery, February
26, 2004; and Final Report on the Methodology to Plan, Design, Develop, and Implement CJIS
Disaster Recovery.




U.S. Department of Justice                                                          28
Office of the Inspector General
Evaluation and Inspections Division
data, in real-time, to an off-site location. While such a system would more
effectively safeguard IAFIS data, it would not be capable of processing search
requests during downtime. The CJIS Division is also considering developing an
interim disaster recovery site and is evaluating the projected costs.




U.S. Department of Justice                                           29
Office of the Inspector General
Evaluation and Inspections Division
                    RESULTS OF THE REVIEW – PART II
______________________________________________________________________________


       Although interim measures to improve border security have
       been implemented, the longer-term effort to achieve the
       fully interoperable biometric fingerprint identification
       system directed by Congress has stalled due to two
       principal issues. First, the Department, the DHS and the
       DOS have not agreed on a uniform Technology Standard for
       collecting fingerprint information.        Second, the DHS
       disagrees with the Department that a fully interoperable
       system must provide federal, state, and local law
       enforcement agencies with ready access to IDENT and US-
       VISIT immigration records. Until these issues are resolved,
       some criminal aliens will not be identified as they try to
       enter the United States, illegal aliens already in the United
       States may not be identified, and the speed and accuracy of
       identification checks will be significantly reduced.       In
       addition, the federal government may face significant costs
       to later re-engineer the fingerprint systems to correct
       deficiencies.


Interim Measures to Improve Border Security Have Been Implemented,
But Efforts to Achieve the Fully Interoperable Fingerprint Biometric
Identification System Directed By Congress Have Stalled.

       As described in the background section of this report, since we last
reported on the status of the integration project in March 2004, the
Department and the DHS have implemented several interim measures to
improve border security. With the implementation of US-VISIT on January 1,
2004, the DHS will now check about 43 million of the 260 million annual
visitors’ fingerprints against data extracted from the FBI’s IAFIS. On May 17,
2004, the FBI began providing daily rather than bi-weekly Wants and Warrants
electronic extracts to the DHS, as recommended in the OIG’s Batres report.
Also, on September 21, 2004, the DHS finished deploying Version 1.2
IDENT/IAFIS workstations to all Border Patrol stations, and is in the process of
deploying integrated workstations to all United States ports of entry, to be
completed by December 31, 2005.

      However, even with these significant interim measures, the fully
interoperable biometric fingerprint system directed by Congress has not been
achieved. The current system is not a fully interoperable biometric fingerprint


U.S. Department of Justice                                             30
Office of the Inspector General
Evaluation and Inspections Division
system because: (1) the Department, the DHS, and the DOS have not
implemented a uniform fingerprint collection methodology; and (2) law
enforcement agencies still do not have direct access to all of the DHS’s
immigration fingerprint biometrics information. Efforts to implement a system
that corrects these deficiencies have stalled because of a failure to agree on
standard collection methodologies, and disagreement over the extent to which
agencies will have access to each other’s fingerprint data.

      At the direction of Congress, the NIST developed a Technology
Standard to establish a uniform method for collecting fingerprint
information. In the Patriot Act, as amended by the Border Security Act,
Congress directed the NIST, jointly with the Attorney General and Secretary of
State, to develop and certify a technology standard for verifying the identity of
those seeking a visa to visit the United States. In January 2003, the NIST, the
Attorney General, and the Secretary of State submitted a joint report to
Congress containing recommendations on the most effective Technology
Standard for an interoperable biometric database.49 The Technology Standard
recommended by the NIST called for ten flat fingerprints to be taken for
enrollment and checking of large biometric databases. The NIST further
recommended that two flat fingerprints and a digital picture be used to confirm
the identity of a person against his or her own existing record, but not for
enrollment.

       The NIST continued to conduct research on fingerprint biometrics
throughout 2003 and 2004, and issued several subsequent reports. In these
reports, the NIST analyzed the fingerprint matching performance and accuracy
of: (1) IAFIS, using flat and rolled prints and two or more fingers;50 (2) US-
VISIT, using flat prints and one-to-one identify verification; and (3) fingerprint
vendor technology, using operational fingerprint data from a variety of United
States government sources. Regarding enrollment speed, the NIST found that
taking ten flat fingerprints took 10 to 15 seconds longer than taking two flat
fingerprints, using current fingerprint scanning technology.51 Regarding the
effects on response time, the NIST confirmed other research that found that
providing more fingerprints substantially speeds search processing by
increasing the filtering of the database (which reduces the number of
fingerprints actually searched). The NIST also found that search accuracy

       49 Use of Technology Standards and Interoperable Databases with Machine-Readable,

Tamper-Resistant Travel Document, January 2003.

       50 Taking more than two but less than ten flat fingerprints was an option considered,
including taking eight flat fingerprints (not using the thumbprints).

       51 The NIST found that two flat fingerprints can be taken in approximately 10-15
seconds, and that ten flat fingerprints can be taken in approximately 30 seconds.



U.S. Department of Justice                                                          31
Office of the Inspector General
Evaluation and Inspections Division
increased (i.e., there were fewer false positives) when the maximum number of
fingers (ten) was used to search a database.52 This was true for all the
fingerprint matching systems that the NIST tested. In September 2004, the
NIST provided Congress with a summary of its recommendations for a
fingerprint Technology Standard. The summary reported that the extensive
testing of biometric systems conducted by the NIST in 2003 and 2004
confirmed the NIST’s January 2003 recommended Technology Standard of ten
flat fingerprints for enrollment and two flat fingerprints and a digital picture for
identity verification.

The Department, the DHS and the DOS Have Not Agreed on a Uniform
Technology Standard for Collecting Fingerprint Information.

       The Department, the DHS, and the DOS have not agreed to begin
collecting fingerprint biometric information in a uniform manner. At present,
the Department standard is to collect ten rolled fingerprints for enrollment in
IAFIS, although the Department also accepts that two flat fingerprints may be
used to subsequently verify aliens’ identities by checking their fingerprints
against their own records (one-to-one matches). The DHS collects two flat
fingerprints at ports of entry to enroll visitors into US-VISIT. The DHS also
collects ten rolled fingerprints from apprehended aliens at Border Patrol
stations and from visitors referred to secondary inspection at ports of entry
that are not going to be admitted to the United States to check IAFIS, but
enrolls them in IDENT using only two fingerprints. If an officer decides to book
an apprehended alien, an officer transmits ten rolled fingerprints to IAFIS and
to the Biometrics Support Center to enroll the alien in the lookout database.
At United States consulates, the DOS collects two flat fingerprints to enroll
individuals applying for visas into US-VISIT. Each of the departments’
positions regarding implementation of a fingerprint collection standard is
discussed below.

       The Department position on collecting fingerprint information. The
Department endorsed the recommendations in the NIST’s Technology
Standard. All Department officials we spoke with stated that direct queries of
the criminal and immigration databases using ten flat fingerprints (instead of
two) would enable more complete and rapid adjudication of individuals seeking

        52 The false positive rate, or false accept rate, is the probability that the system will

incorrectly determine that a search fingerprint and a file fingerprint are matches. This would
occur if a traveler is mistakenly matched as a criminal hit. The false negative rate, or false
reject rate, is the probability that the system will not identify a search fingerprint match when
the match is in the system. This would occur if a criminal with a record in IAFIS is not
identified when his or her fingerprints are searched.




U.S. Department of Justice                                                              32
Office of the Inspector General
Evaluation and Inspections Division
admission to the United States. They also stated that taking ten flat
fingerprints would reduce the number of false positives, and offer more options
for system design and interoperability across the DHS, the DOS, the
Department, and other agencies. A ten flat fingerprint system would also
significantly increase the probability of making a match on latent fingerprints
from crime scenes.

       Department officials stated that acting promptly to implement a system
to collect ten flat fingerprints could reduce system upgrade costs, minimize the
volume of re-enrollments, and reduce the inconvenience to foreign travelers.
Finally, although the Department officials stated that all systems should collect
ten flat fingerprints, they also stated that the systems must be flexible so that
upgrades in biometric capture technology, such as the ability to collect ten
rolled fingerprints quickly and accurately, could be incorporated in the future.

      Consistent with the above, the Department has stated that it believes
that the US-VISIT fingerprint workstations at consulates and ports of entry
should be modified to collect ten flat prints for enrollment in the database.
Because the NIST found that ten flat fingerprints could be taken in almost the
same time as the two flat prints, the Department believes this option could be
implemented within one year. In its draft proposal to the Policy Coordination
Committee, the Department’s estimate was that it would cost the Department
$103 million in the first year to implement a ten-flat fingerprint system.53

      The DHS position on fingerprint collection. Although not a party to
the original NIST study, the DHS officials we spoke with were aware of the NIST
Technology Standard and DHS staff participated in the discussions that led to
the publication of the NIST Technology Standard. In April 2004, we asked the
US-VISIT Deputy Director whether, and when, the DHS would begin taking
more than two fingerprints to enroll individuals in US-VISIT. He responded
that the DHS plans to continue with the current two-print process, and will
make a decision regarding eight or ten prints “based on recommendations by
the NIST and as the technology evolves,” as it is still “an open question”
whether the DHS is required to collect more than two fingerprints for US-VISIT.
The DHS officials continue to maintain this position. However, in the DHS’s
May 28, 2004, Statement of Work, which described the scope of the Prime
Contractor’s obligations under the contract to develop US-VISIT, the DHS
stated that a move to taking eight fingerprints at consular offices worldwide is

       53 The Department also estimated first year costs for the DOS’s visa processing to be
$13.3 million, and $59 million for the DHS. DOS officials said that its cost estimates for
moving to a 10-fingerprint system are higher than suggested by the DOJ, but the DOS officials
did not provide a cost estimate.




U.S. Department of Justice                                                         33
Office of the Inspector General
Evaluation and Inspections Division
“in planning.” Also, on July 18, 2003, the Homeland Security Council Deputies
approved the use of a photograph and two fingerprints for initial US-VISIT
deployment in sea and air ports of entry. At the same time, the Deputies
directed the DHS and the DOS to work with the Homeland Security Council
and the Office of Management and Budget to develop future plans to migrate to
an eight fingerprint system.

      The DHS officials also stated that operationally IAFIS cannot meet the
rapid response time of 15 to 20 seconds that is needed when visitors are
checked against the US-VISIT watch list at primary inspection.54 DHS officials
                                                                            TP        PT




also said they would have to purchase more expensive scanners and
reconfigure the primary inspection work space to accommodate the scanners.

       The DOS position on fingerprint collection. DOS officials told us that
DOS consulates are taking two flat fingerprints of visa applicants because this
meets the congressional mandate to implement standardized fingerprint
collection at all consulate posts no later than October 26, 2004.55 Regarding    TP        PT




the possibility of implementing an eight or ten print system, the Deputy
Assistant Secretary of State for Visa Services told us that the DOS will be
guided “by what the scientists [i.e., the NIST] say.” She acknowledged the
                                          U   U




NIST’s finding that too many false positives could occur with a two-print
system, and stated that, at the point that the system began returning an
unacceptable number of false positives, the DOS would go to a system using
more than two fingerprints. The Deputy Assistant Secretary and other DOS
officials cited the following concerns associated with implementing a fingerprint
system that uses more than two fingerprints:

   •   Cost and resource issues. DOS officials told us that they have resisted
       U                              U




       going to more than two prints largely because the scanners used to take


       54
       TP Although the rapid response time is essential at the primary inspection booths, it is
            PT




much less an issue for secondary inspection and for the consular posts where more time can
be taken before deciding whether to admit a visitor into the United States or grant a visa.

        55 The Border Security Act, Section 303 (b)(1) states, “not later than October 26, 2004,
       TP   PT




the Attorney General and the Secretary of State shall issue to aliens only machine-readable,
tamper-resistant visas and other travel and entry documents that use biometric identifiers.
The Attorney General and the Secretary of State shall jointly establish document
authentication standards and biometric identifiers standards to be employed on such visas and
other travel and entry documents from among those biometric identifiers recognized by
domestic and international standards organizations.” Although the deadline has been
extended one year, the DOS officials stated that all visa-issuing consulates would be
transmitting two fingerprints to the DHS to be checked against the US-VISIT watch list by
October 26, 2004.




U.S. Department of Justice                                                                      34
Office of the Inspector General
Evaluation and Inspections Division
           ten fingerprints are more expensive and staff would have to be retrained
           to use the new equipment.

   •   Need for visa applicants to remain in clear view. Because DOS
       U                                                  U




       employees at consulates must operate behind a “hard line” (a glass
       window separating visa applicants from employees), they must have a
       clear view of visa applicants to verify that individuals are physically
       placing their own fingers on the scanner. Fingerprint scanners that are
       too large to mount on the window ledge may have to be placed where
       there can be no clear view of visa applicants and could make it difficult
       for non-English-speaking applicants to understand how to scan their
       fingerprints. As a result, the ten-print scanners may have to be installed
       off-site, which would be inefficient for visa processing.

    • Ten-prints viewed as criminal. DOS officials told us that the two-print
       U                                U




      system has been well received by visa applicants thus far. However, the
      officials expressed concern that visa applicants may view the
      requirement to provide ten fingerprints as a criminal booking procedure,
      which the DOS is concerned could discourage travel to the United States.

      Table 4 (next page) provides a comparison of the fingerprint collection
methods used by the Department, the DHS, and the DOS and the pros and
cons of each method.




U.S. Department of Justice                                                 35
Office of the Inspector General
Evaluation and Inspections Division
                            TABLE 4 - COMPARISON OF FINGERPRINT COLLECTION METHODS

    Methods                           Used By                                            Pros                                              Cons
Rolled prints of 10   DOJ: Used as the IAFIS Criminal Master        Provides the most complete information for        Taking 10 rolled prints is time consuming and
    fingers              File enrollment standard                       identifying individuals                           labor intensive
(10-rolled prints)    DHS: Used to check apprehended aliens         Search accuracy; results in among the fewest      Most difficult to take prints of acceptable
                         against IAFIS Criminal Master File;            false positive hits                              quality (highest enroll reject rate)
                         used to enroll aliens in the IDENT
                         Lookout database; used to enroll           Provide the most information to match             Requires different/more expensive equipment
                         aliens to be booked in IAFIS Criminal          against latent fingerprints
                                                                                                                      Most intrusive (operator must physically roll
                         Master File (CAR booking); used for        Greatest categorization of fingerprints reduces      subjects’ fingers)
                         background checks prior to issuing            search to about 2 percent of database,
                         lawful permanent resident card or             enabling the most efficient use of             Most objectionable to foreign visitors
                         granting citizenship.                         processing power
                      DOS: Not used
Flat-pressed prints   DOJ: FBI is currently implementing this       Search accuracy for identifying criminals in      More expensive than two flats
    of 10 fingers        as the standard for civil enrollments          IAFIS is statistically indistinguishable
                         and conducting background checks               from using 10-rolled prints                   Perceived as more intrusive than two flats
(10-flat prints)                                                                                                      Slower IAFIS searches than 10 rolled
                      DHS: Not used                                 Takes only 10 to 15 seconds longer than
                                                                       taking 2-flat prints                           Provides less information than 10-prints for
                      DOS: Not used
                                                                    Less intrusive than 10-rolled prints – operator       identifying latent fingerprints
                      NIST recommended standard to enroll and           need not touch subject
                         search interoperable systems
                                                                    Fewer false positives than 2-prints
                                                                    Improved categorization of fingerprints
                                                                       reduces search to about 6 percent of
                                                                       database, enabling more efficient use of
                                                                       processing power
Flat-pressed prints   DOJ: Not used, but accepted for               Least expensive for equipment and labor           Least accurate, results in most false positive
    of 2 fingers         one-to-one verification matches                                                                  hits and more false frequent negatives (i.e.,
                                                                    Least intrusive for subjects                          missed identification of criminal on file)
(2-flat prints)       DHS: used to enroll aliens in IDENT
                         apprehension database as well as for       Least objectionable for foreign visitors          Least categorization makes it inefficient for
                         later searches of this database; used to   Acceptable search time when used to check 2-          searching 10-print databases, such as
                         enroll visitors at ports of entry in the       print databases                                   IAFIS (requires searching 70 percent of
                         US-VISIT database (if not done by                                                                database)
                         DOS)                                       Fastest and easiest to take prints of
                                                                        acceptable quality (lowest enroll reject      Provides least information for identifying latent
                      DOS: used at consulates to search US-             rate)                                             fingerprints, which may be from any of 10
                         VISIT watch list database and enroll                                                             fingers
                         visa applicants in US-VISIT
                                                                                                                      Possibility of finger sequence errors
                      NIST recommended standard for
                         one-to-one verifications only


U.S. Department of Justice                                                                                                                                     36
Office of the Inspector General
Evaluation and Inspections Division
The DHS Disagrees with the Department that a Fully Interoperable
System Must Provide Federal, State, and Local Law Enforcement Agencies
with Ready Access to IDENT and US-VISIT Immigration Records.

       The second barrier to further progress on implementing an IDENT/IAFIS
system that is fully interoperable, including with US-VISIT, is that the DHS has
not agreed to provide the Department and other law enforcement agencies with
direct access to US-VISIT records. In the Border Security Act, Congress
directed creation of “an interoperable electronic data system to provide current
and immediate access to information databases of Federal law enforcement
agencies and the intelligence community that is relevant to determine whether
to issue a visa or determine the admissibility or deportability of an alien.”56
Both the Border Security and Patriot Acts further specified that information in
the system be “readily and easily accessible” to immigration officials and law
enforcement or intelligence officers responsible for investigating or identifying
aliens.57

      On June 22, 2004, the Homeland Security Council Deputies stated that
the Department and the FBI should provide a proposal with suggested
language to provide the FBI with access to US-VISIT. On August 3, the
Deputies stated that by August 6, 2004, the DHS will provide the FBI with 100
accounts for accessing US-VISIT data or, if this is not possible, define the way
forward to overcome the technical or other obstacles impeding this access.

      In October 2004, the DHS drafted an MOU to grant user accounts to 30
individuals named by the FBI for accessing US-VISIT.58 On November 1, 2004,
the DHS sent a memorandum to the Deputy Director of the Homeland Security
Council stating that it had met its obligations to provide the FBI with full
access to its US-VISIT records. In the memorandum, the DHS stated that it
had provided training on the data limitations of US-VISIT records to these 30
individuals. In the memorandum, the DHS also stated that it would provide
US-VISIT access and training to an additional 200 users whom the FBI
indicated also need access to US-VISIT. However, Department officials told us

       56    Enhanced Border Security and Visa Reform Act of 2002 (P.L. 107-173), Section
202(a)(2).

       57 The Border Security Act specifies federal law enforcement, whereas the Patriot Act

includes all law enforcement officers. See Enhanced Border Security and Visa Reform Act of
2002 (P.L. 107-173), Section 202(a)(5) and USA PATRIOT Act (P.L. 107-56), Section 403(c)(3).

       58 In its November 1, 2004, memorandum to the Homeland Security Council, the DHS
stated that the MOU is currently being circulated for review and clearance with the Department
and the FBI.



U.S. Department of Justice                                                          37
Office of the Inspector General
Evaluation and Inspections Division
that they are disappointed at the slow pace and limited scope of the access that
the DHS has provided thus far and do not consider that the FBI has “full and
immediate” access to the US-VISIT database.

       Further, little progress has been made toward providing the DHS’s
apprehension and criminal history information to other federal, state, and local
law enforcement agencies. We found that the DHS’s current plans do not
ensure that the information in the DHS’s IDENT and US-VISIT databases will
be “readily and easily accessible” to the Department or other federal, state, and
local law enforcement agencies. Progress to interoperability has been stymied
by disagreements over how it is to be achieved. Each of the Departments’
positions on this issue is discussed below.

        The Department’s position on law enforcement access to
immigration data. According to Department of Justice officials we spoke with,
a fully interoperable system should provide direct, real-time access to data
from the IDENT, IAFIS, and US-VISIT databases to other federal and local law
enforcement agencies. In the Department’s submission to the OMB working
group supporting the Homeland Security Council Deputies, JMD defined
interoperability as:

       The seamless ability to share data that is complete, accurate
       current, and timely (available as needed) among and between
       participating stakeholders. The flow of information being
       shared must be multi-directional, not just one-way.

       The need for multi-directional sharing was echoed by Department
officials we spoke with. For example, on June 15, 2004, we interviewed a
Section Chief at the CJIS Division who stated that the FBI’s primary issue with
the current process of the FBI sending the DHS extracts from IAFIS is the lack
of direct access to DHS information. The Section Chief explained that the FBI
supports collecting and sharing biometric information; however, the
information sharing should be a “two-way street” – that is, the DHS must also
share its information with the FBI. For investigations and special queries, the
Section Chief stated that the FBI must be able to search any United States
government database directly, including IDENT, in a timely manner.

       Information in the IDENT database, specifically the alerts in the
apprehensions file, is not in the IAFIS database. Alerts flag the records of
aliens who did not meet the criteria for inclusion in the lookout database but
nevertheless who should be closely scrutinized or detained if apprehended.
Alerts include warnings about aliens who may present threats to officer safety.
This information would be useful to federal, state, and local law enforcement
officers who might encounter the aliens. If the FBI is unable to directly access


U.S. Department of Justice                                              38
Office of the Inspector General
Evaluation and Inspections Division
the information in IDENT and US-VISIT, it will be less able to identify aliens
arrested in the United States who have violated their immigration status, tell
employers the status of an applicant for a sensitive position, and coordinate
with the DOS to ensure that law enforcement can identify persons of interest
when they apply for a visa.

       We asked whether the FBI’s position had been communicated to the
DHS, and the FBI Section Chief told us that at every opportunity during
frequent meetings with representatives from the DHS he reiterates the FBI’s
need for direct access to the DHS databases. The Section Chief said he even
has asked DHS representatives directly when the FBI will have access to DHS
data, but has received no response. Further, CJIS Division executives we
interviewed confirmed the FBI’s need for multi-directional interoperability.

      In another interview, a Senior Information Technology Specialist in the
CJIS Division’s Operations Branch confirmed the Department’s position on
interoperability and law enforcement access to DHS data. He told us that
interoperability for the FBI means that law enforcement personnel must have
access to information about previously apprehended individuals who have
again illegally entered the United States. He explained that the most valuable
aspect of interoperability is that all the DHS and FBI data would be available to
law enforcement personnel the way that CAR transactions are currently
available to anyone who queries IAFIS.

       Further, Department officials stated that an interoperable environment
should reduce or eliminate the replication of records in multiple databases.
The “principles of interoperability” that the Department submitted to the
Homeland Security Council Deputies stated: “Providing large data extracts
from one system to another is the antithesis of interoperability.” FBI officials
also stated that sending the DHS extracts of IAFIS data (e.g., Wants and
Warrants) is an inefficient and untimely practice. The CJIS Division Section
Chief mentioned above told us that the FBI would prefer that the DHS search
IAFIS directly, as do other users. However, the Section Chief explained that the
DHS does not want to directly search IAFIS and wants the FBI to continue
sending DHS extracts so that the DHS can build its own database of duplicate
information. He also stated that providing extracts to the DHS is not efficient
or cost-effective for the FBI as it requires human intervention to move the
records to compact disks and send them to the DHS.

      Finally, Department officials stated that non-citizens have minimal rights
under the Privacy Act. Although the DHS made the policy decision to afford
US-VISIT enrollees privacy protections, these protections do not preclude the
sharing of information for law enforcement purposes.



U.S. Department of Justice                                              39
Office of the Inspector General
Evaluation and Inspections Division
      The DHS position on law enforcement access to immigration data.
The DHS officials we spoke with did not agree with the Department’s vision of
interoperability. In our interviews with DHS officials, they stated that law
enforcement officials outside of the DHS should not have access to US-VISIT
records because of privacy concerns. They also cautioned that the law
enforcement records on individuals in the IDENT database are not the
individual’s comprehensive immigration records. In addition, they stated
IDENT may have outdated or incomplete information. While outdated or
incomplete data does not compromise the utility of the database, DHS officials
said that it may result in errors if relied on by other law enforcement agencies.

        Privacy concerns with access to US-VISIT data. Regarding US-VISIT,
Program Managers from the DHS’s US-VISIT Program Management Office told
us that they view US-VISIT as wholly separate from IDENT/IAFIS. They
explained that the fingerprint records stored in US-VISIT are from people who
are presumed innocent and that US-VISIT is considered a “benefit” or “good
guys” database. Conversely, IDENT and ENFORCE are on the enforcement
side and are considered “bad guys” databases, as they are comprised primarily
of immigration violators. The US-VISIT Deputy Director told us that the DHS is
particularly concerned about guarding the data in US-VISIT to protect the
privacy of visiting foreign nationals who are presumed to be non-criminals.
The DHS has extended the principles and protections of the 1974 Privacy Act
to all individuals processed through US-VISIT and include a process for redress
if an individual has a complaint. The US-VISIT Program Office worked closely
with the DHS Privacy Officer to develop the US-VISIT privacy policy. The policy
explains who the program affects, what information is collected, how the
information is used, and how people can find out what information is retained.

      DHS Program Managers stated that another issue is ownership of US-
VISIT records. The US-VISIT Deputy Director believed strongly that the DHS
has the ability to store, and can “maintain the integrity of, foreign nationals’
fingerprints.” Regarding access by other law enforcement agencies, he stated
that records in the database can be searched for law enforcement purposes on
a case-by-case basis. He reiterated, though, that the FBI should not be given
the authority to search the database directly. Instead, the DHS can check the
US-VISIT fingerprints against a criminal watch list or for other agencies if the
FBI or any other law enforcement agency has a “legitimate reason” to query the
records.

      The US-VISIT Deputy Director and the US-VISIT Program Managers told
us that law enforcement personnel can get access to immigration data by
submitting a search request for a “subject of interest” to the DHS, the Law
Enforcement Support Center, or the Biometrics Support Center. For example,
the Virginia State Police have expressed interest in having access to law


U.S. Department of Justice                                               40
Office of the Inspector General
Evaluation and Inspections Division
enforcement immigration information on aliens they encounter. The Program
Managers explained that if during a traffic stop an officer finds a subject of
interest, the officer could contact the Law Enforcement Support Center, which
maintains updated records on immigration violators and is capable of placing a
“detainer” on a deported felon. We asked when such information would be
available more immediately via direct access. The US-VISIT Deputy Director
stated that the DHS’s prime contractor, Accenture, is responsible for defining
the interoperability scheme for working with local law enforcement.59 That is,
in conjunction with DHS officials, Accenture must help decide how best to
provide federal, state and local law enforcement with access to IDENT data.

       IDENT does not reflect updated immigration status. The US-VISIT
Program Managers also told us that the IDENT and US-VISIT databases cannot
be relied upon to accurately determine immigration status because
immigration status is dynamic. The databases were created to serve different
purposes and populations and may not contain current and complete
immigration data. For example, if an individual is apprehended along the
border and naturalized two years later, IDENT would contain information on
the apprehension but may not contain information on the subsequent
naturalization. The latter information is kept in other databases that are
available to immigration officers, but not to law enforcement agencies querying
IDENT. This is important, the Program Managers stated, because it creates the
potential for police officers using incomplete information to apprehend someone
that they think is an immigration violator. According to the US-VISIT Program
Managers, there have not yet been any detailed discussions about how to
resolve this issue.

       In addition to disagreeing with the Department that other law
enforcement agencies should be able to directly access US-VISIT, DHS officials
also disagree that the current practice of extracting records from IAFIS to
IDENT fails to meet the requirement for integrating the systems. The DHS
officials told us that they believe they have already achieved an acceptably
integrated IDENT/IAFIS system by having access to the Department’s data in
IAFIS through the FBI’s now-daily transmission of its Wants and Warrants file,
and the monthly transmission of suspected terrorists’ and military detainees’
fingerprints on a compact disk.

       Similarly, the DHS has stated this same position to Congress. During an
April 1, 2004, hearing before the Immigration and Border Security
Subcommittee of the Senate Judiciary Subcommittee, Senator Chambliss
asked the DHS Assistant Secretary for Border and Transportation Security

       59 At the time of this interview, the DHS had not yet awarded the contract. The
contract was awarded to Accenture on June 2, 2004.



U.S. Department of Justice                                                          41
Office of the Inspector General
Evaluation and Inspections Division
Policy and Planning whether the DHS agreed with a recommendation in the
OIG’s March 2004 report that the Department should develop and implement
an MOU with the DHS to guide integration of IDENT and IAFIS. The Assistant
Secretary indicated that he disagreed with the recommendation because “…we
have an integrated system…that can be used by the Border Patrol to essentially
query both the IDENT system, which has a record of people that have been
illegally deported or denied entry and so forth, as well as the IAFIS system,
which is the FBI's huge fingerprint database of people with criminal records.
So,…we have an integrated system.”

       The DOS position on law enforcement access to immigration data.
DOS officials told us that, in their opinion, the FBI should have access to
certain DHS data, such as entry and exit information in US-VISIT. They told
us that during interagency meetings they have encouraged the DHS to share
this information with the FBI, but they recognize the DHS’s privacy concerns.
The DOS offered to share its textual visa applicant information with the FBI
and plans to sign an MOU with the FBI regarding procedures for sharing such
information. Information from visa applicants is stored in the Consular
Consolidated Database, which does not contain fingerprint data, only
photographs and textual information on applicants. DOS officials explained
that, under the MOU, certain CJIS Division representatives would have access
to the Consular Consolidated Database. The DOS officials believed that direct
FBI access to the DOS Consular Consolidated Database will be a significant
improvement over past procedures when the FBI relied on the DOS Security
Advisory Opinions.

       Although the DOS supports FBI access to US-VISIT data, it does not
support taking ten flat fingerprints from visa applicants to query IAFIS directly.
Instead, the DOS supports the current process of the FBI providing extracts of
its IAFIS data to the DHS. The DOS suggested that the FBI transfer all foreign-
born criminal history data in IAFIS to IDENT. During a June 23, 2004,
interview with DOS officials, we explained that the Department considers that
as an interim measure until long-term interoperability and direct access was
achieved. However, the Deputy Assistant Secretary of State for Visa Services
told us that the current process of FBI transferring information from IAFIS to
IDENT is “the way to go,” and believes that “it’s working.” She responded that
the DOS does not consider this to be only an interim measure. She also stated
that the DOS should maintain the fingerprints its officers enroll at the consular
posts because this would best ensure the integrity of the fingerprints collected
overseas and allow them to verify that an individual provided his or her own
fingerprints.

      The Department disagrees with the DHS’s and the DOS’s positions on
interoperability and access to immigration biometrics records in IDENT and


U.S. Department of Justice                                               42
Office of the Inspector General
Evaluation and Inspections Division
US-VISIT. The Department’s position is that a fully interoperable system
should provide direct, real-time, multi-directional sharing of data with other
federal, state, and local law enforcement agencies. Currently, no direct
connection between IAFIS and IDENT or US-VISIT makes this possible. The
Department maintains that the interim measure of providing large extracts of
IAFIS data to DHS, while valuable in the short-term, is time-consuming and
inefficient. Most important, it does not ensure the most complete and timely
identification of criminal aliens and known or suspected terrorists.

       We also found that the Attorney General and the CIO have
communicated the Department’s position on interoperability to the DHS on
several occasions. On November 6, 2003, the Attorney General wrote a letter to
DHS Secretary Ridge, citing the need for increased coordination between the
Department and the DHS.60 The Attorney General’s letter also included a
letter, dated September 8, 2003, from the Department’s CIO to the DHS’s CIO
that proposed a broad MOU between the Department and the DHS that would
cover policy and business processes related to US-VISIT, interoperability of
IAFIS with US-VISIT, identity enrollment and the NIST standard, information
sharing between US-VISIT and federal, state and local law enforcement, and
the role of IDENT/IAFIS in the US-VISIT strategy and schedule, including
upgrading integrated workstations.

      On May 25, 2004, the Attorney General sent a memorandum to the
Homeland Security Council representatives, including the Deputy Secretary of
DHS and the Secretary of State, to reiterate the Department’s position on
interoperability as it relates to US-VISIT. The Attorney General stated that the
two principles of safety and security for Americans and a quick and accurate
processing of people should guide the US-VISIT program. Regarding safety and
security, the Attorney General stated:

       . . . the best way to protect our safety and security is to make
       our various fingerprint systems fully interoperable. This will
       maximize our ability to apprehend or exclude potential
       terrorists and other violent criminals. . . While this will require
       additional resources, I believe that . . . it is better to spend
       those funds developing the proper system now.                  The
       alternative of continuing to rely on separate systems and
       extracts and deciding later that we need interoperability would
       entail substantial delays and even more expense. I believe
       that DHS, DOJ/FBI, and State should move towards this goal
       as quickly as possible.

       60 On January 27, 2004, the Attorney General re-sent the November 6, 2003, letter to
Secretary Ridge, because the Secretary did not receive the original letter.



U.S. Department of Justice                                                         43
Office of the Inspector General
Evaluation and Inspections Division
     Regarding the quick and accurate processing of people, the Attorney
General stated:

       We need to implement technology and establish a fingerprint
       standard that minimizes the “false positive” problem…Large
       numbers of “false positives” could severely slow down and/or
       compromise our inspection processes and have adverse
       security, foreign policy and commercial consequences. . . it is
       my view that we need to rely on our best scientists to
       determine the specific standard we should adopt for
       fingerprint enrollment to accomplish this…I believe that this
       will result in an enrollment standard of more than two
       fingerprints.

Until These Issues are Resolved, Risks Remain that Criminal Aliens Will
Not Be Identified as They Try to Enter the United States, Illegal Aliens
May Not Be Identified, and the Speed and Accuracy of Identification
Checks Will Be Significantly Reduced.

      The majority of visitors to the United States are still not checked
against the most complete and current law enforcement records to
identify criminal aliens. The IAFIS Criminal Master File contains over 47
million fingerprint records. As of September 2004, the FBI has copied many of
the IAFIS records most likely to be associated with aliens and provided them to
the DHS for inclusion in IDENT (see text box, next page). However, the records
provided through September 2004 amount to only one percent or less of all
IAFIS records.

       Under the current US-VISIT system, the vast majority of the 118,000
daily visitors will be checked against the records copied into IDENT [using two
fingerprints]. Because the US-VISIT, IAFIS, and IDENT systems are not
interoperable, only a select number of visitors who are subjected to additional
screening are checked against the full Criminal Master File in IAFIS. Current
DHS estimates indicate that the DHS plans to conduct a full check on only
about 800 visitors a day (about 0.7 percent of all visitors entering the United
States). However, a draft August 2004 report by JMD demonstrates that not
checking aliens against the full IAFIS database increases the risk of admitting
criminal aliens.61


       61 “Cost and Operational Effectiveness Analysis, Second Report to Congress,” August
27, 2004, Justice Management Division, Management and Planning Staff, United States
Department of Justice.




U.S. Department of Justice                                                        44
Office of the Inspector General
Evaluation and Inspections Division
       JMD’s Metrics study                       IAFIS Records Copied Into IDENT
report. 62 In an August
                                  Latent Fingerprints. Approximately 7,000 latent fingerprints
2004 draft Metrics report,        collected at crime scenes, and approximately 250 latent
JMD reported that querying        fingerprints related to known or suspected terrorist activity.
individuals directly against
                                  Known or Suspected Terrorist Fingerprints. Approximately
IAFIS resulted in a               15,000 fingerprints of known or suspected terrorists, including
significant increase in the       military detainees being held oversees, updated monthly.
number of criminals
                                  Wants and Warrants. A daily list of about 141,000 records of
identified, and that failing to   active warrants for individuals with an unknown or foreign
conduct IAFIS queries leaves      birthplace or prior arrest on immigration charges. The DHS
the United States vulnerable      electronically scans the list to identify new and deleted
                                  records, and requests fingerprint images that it does not have.
to criminal aliens and
terrorists entering the           Criminals from High Risk Countries. About 179,500
country undetected. In this       fingerprint records of males from 25 countries, such as Iraq,
                                  Iran, Syria, and the Sudan, designated as high risk (a one-time
study, JMD analyzed               effort).
179,094 encounters with
aliens that occurred during       All Potential Foreign Criminals. At the DHS’s request, the FBI
                                  identified about 7 million records that list foreign or no place of
2003 at 40 sites (21 Border       birth or a prior arrest on immigration charges. These records
Patrol stations and 19 ports      are being extracted and added to the IDENT database, but
of entry) using Version 1.2       because the FBI limits the DHS to 3,000 IRQs per day, at the
                                  current rate it will take over 6 years to fully extract these
IDENT/IAFIS workstations.         fingerprint records.*
Of the encounters examined,
164,232 occurred at Border        *NOTE: Because IDENT may not have the capacity to hold all
                                  7 million records, the DHS is currently trying to prioritize the
Patrol sites and 14,862           most serious criminal offenders.
occurred at ports of entry.
As described in the               Sex Offenders. About 11,000 fingerprint records of convicted
                                  sex offenders who have an unknown or foreign birthplace, or
Background Section, the           prior arrest on immigration charges.
Version 1.2 workstations
enable the DHS to query
IAFIS directly (in addition to IDENT). The Metrics study examined whether
searching IAFIS, as opposed to searching only IDENT, resulted in the
identification of more criminals seeking entry into the United States. The study
also identified the most serious offenses the criminals had committed.

       The Metrics study found that, of the 179,094 aliens checked, 80,150
(44.8 percent) had no record, and 74,924 (41.8 percent) had prior
administrative immigration violations. The remaining 24,020 (13.4 percent) of
the aliens had criminal records (20,346 from Border Patrol stations and 3,674
from ports of entry). Importantly, the study found that at least 17,553 of these
criminal aliens – 73.1 percent – were identified only as a result of the IAFIS

       62  This is the second of several expected Metrics reports and it updates the first report
of July 18, 2003.




U.S. Department of Justice                                                                45
Office of the Inspector General
Evaluation and Inspections Division
      Table 5: Criminal Hits Attributed to IAFIS by Most Serious Offense
 Most Serious Offense           Hits                     Percent of Total
 Immigration                    3,526                    28.6%
 Dangerous Drugs                1,851                    15.0%
 Assault                        1,574                    12.8%
 Weapons Offenses               180                      1.5%
 Robbery                        128                      1.0%
 Sexual Assault                 116                      0.9%
 Sex Offenses                   84                       0.7%
 Kidnapping                     41                       0.3%
 Homicide                       38                       0.3%
 All Others                     4,794                    38.9%
 Total                          12,332                   100.0%

Source: JMD Metrics Report


 query. Almost three quarters of the criminal aliens attempting to enter the
 country would not have been identified as criminals by IDENT alone because
 immigration officials would not have had access to their criminal records in
 IAFIS.

       Many of the criminal aliens had committed serious violations. JMD
 analyzed the criminal rap sheets of 12,332 of the 17,553 individuals identified
 by IAFIS to determine the nature and severity of their criminal histories. The
 most serious offense on 7,538 (61 percent) of the rap sheets fell into one of nine
 categories identified as “special interest” because they would likely result in
 action by a United States Attorney or the Executive Office of Immigration
 Review (Table 5, next page). Many had committed crimes that raised public
 safety or border security concerns. Nearly one-third (4,012) committed violent
 crimes or were involved with dangerous drugs. Also, many were repeat
 offenders. Over half the rap sheets contained multiple charges and 15.6
 percent had five or more charges while 4.4 percent had 10 or more charges.

       The JMD Assistant Director for Management and Planning told us that
 JMD would like to conduct a study of US-VISIT fingerprint data similar to the
 Metrics Study described above. In conjunction with a statistician, the CJIS
 Division, the DHS, and JMD could take statistically valid random samples of
 US-VISIT data from various ports of entry and from other relevant immigration
 biometric databases used for enforcement or benefit purposes in IDENT and
 search the DHS’s two-flat fingerprint data against IAFIS. The objective of the
 study would be to assess the risk of not checking the fingerprints of all visitors
 subject to US-VISIT or those exempt from US-VISIT against the complete IAFIS
 database. The research would be conducted so as not to disrupt normal IAFIS
 operations. Officials from JMD have discussed this possible study with the



 U.S. Department of Justice                                                 46
 Office of the Inspector General
 Evaluation and Inspections Division
DHS, but the DHS and JMD have not yet agreed on the parameters of the
study or on the data that is to be sampled.

       Until a standard ten fingerprint methodology is adopted and an
interoperable system is implemented, the speed and accuracy of
identification checks will be significantly reduced. Research conducted by
MitreTek showed that taking more fingerprint impressions greatly speeds
fingerprint searches.63 When IAFIS processes a fingerprint search, it first
classifies the fingerprints according to pattern (e.g., left loop, right loop, whorl,
and arch). It then conducts a fingerprint matching check against only records
of fingerprints having the same basic patterns. For searches using ten rolled
fingerprints, about 98 percent of the database can be filtered out so that the
fingerprint matching is conducted on only about 2 percent of the records.
Using ten flat prints allows about 94 percent of the database to be filtered out.
In contrast, with two flat fingerprints about 70 percent of the database must be
matched, increasing the amount of processing required by about 35 fold over
ten rolled prints. These research findings strongly suggest that, because the
US-VISIT system is not collecting fingerprints in accordance with the NIST’s
recommended Technology Standard, response times will be delayed as the US-
VISIT database grows. In addition to longer processing times, using fewer than
ten fingerprints results in reduced accuracy and a greater likelihood of
identifying false positives.

       Further, the Metrics study report found that the data extracts from IAFIS
to IDENT are prone to error because, for example, one of the selection criteria
relies upon self-reported data (e.g., place of birth). However, aliens being
arrested have an incentive to lie about their nationality to avoid deportation.
Also, many United States citizens have an unknown or foreign place of birth.
The result is that the records of United States citizens may be loaded into the
IDENT database, while the records of some non-United States citizens and
potential criminal aliens are not included. The Metrics study found that the
Wants and Warrants extract failed to include 22 percent (121 of 541) of
criminal aliens with active Wants and Warrants.64




       63 Implications of the IDENT IAFIS Image Quality Study for Visa Fingerprint Processing,

MitreTek Systems, October 31, 2002.

       64 Of the 22 percent (121) of the criminal aliens with outstanding Wants and Warrants
who were not included in the extracts, 14 percent (77) were not included because they did not
meet the extract criteria (foreign or no place of birth, prior immigration violation) and 8 percent
(44) may have been missed due to the two-week lag time between extracts.




U.S. Department of Justice                                                              47
Office of the Inspector General
Evaluation and Inspections Division
The Federal Government May Face Significant Costs to Later
Re-engineer the Different Fingerprint Systems

      According to Department officials, if timely action is not taken to adopt a
uniform fingerprint methodology, such as the NIST Technology Standard, and
establish the parameters for an interoperable system, the costs to re-engineer
the systems later will be significantly greater. Further, enrollment records
currently being created in US-VISIT may be incompatible with the Technology
Standard that ultimately is adopted. In that case, individuals may have to be
re-enrolled in order for their records to be complete. Among the decisions that
must be made are: Who should be subjected to fingerprint searches? What
fingerprint collection standard should be used? Which databases are to be
queried? Who will have access to the information in each database? How will
the information be used? Who will maintain the databases?

       The need for resolution of these questions is increasing because the
Department is proceeding with the development of new systems. For example,
JMD had begun planning for Version 2 of IDENT/IAFIS and the FBI is planning
for the Next Generation IAFIS. Further, in June 2004 the Department
submitted a draft proposal to members of the Policy Coordination Committee
containing options, costing up to $280 million, for a long-term strategy to
achieve interoperability.65 The Department recognized the potential for future
costs, stating:

       Significant cost savings will also be achieved by avoiding
       mistakes now that will be costly in the future. By collecting
       [more than two fingerprints] for US-VISIT enrollment now
       instead of later, system upgrade costs will be lower and the
       volume of re-enrollments will be minimized to reduce the
       inconvenience to foreign travelers.

      Because of the disagreements about collection of uniform biometric
fingerprint information and the extent to which systems should be made
interoperable, the Department, the DHS, and the DOS still have not developed
an MOU on how law enforcement agencies will be given direct access to all of
the DHS’s immigration data.




       65 Policy Coordination Committee Concept Paper Proposal: Law Enforcement
Interoperability with US-VISIT and Overseas Visa Issuance, June 2004 draft.




U.S. Department of Justice                                                        48
Office of the Inspector General
Evaluation and Inspections Division
                    RESULTS OF THE REVIEW – PART III
______________________________________________________________________________


       In response to our March 2004 report on IDENT/IAFIS: The
       Batres Case and the Status of the Integration Project, the
       Department, the CJIS Division, and the DHS have taken
       action to address four of the five recommendations. The
       Department assigned responsibility for the integration
       project within the Department to its CIO, the development
       of a fully integrated IDENT/IAFIS is being expeditiously
       pursued, Wants and Warrants updates are now provided to
       the DHS on a daily basis, and the criminal histories of
       aliens who have IAFIS hits are made available to Border
       Patrol agents and immigration inspectors. However, the
       Department and the DHS still have not developed a
       Memorandum of Understanding to guide the future efforts
       to integrate the IDENT and IAFIS systems.


       No Memorandum of Understanding developed. In our March 2004
report, we recommended that the Department work with the DHS to develop
and implement an MOU to guide integration of IAFIS and IDENT. The
Conference Report accompanying the FY 2004 omnibus appropriations
legislation also directed the Department to develop an MOU with the DHS and
other appropriate federal agencies regarding the continued integration of
fingerprint systems.

      Yet, as described above, the Department, the DHS, and the DOS have
not developed and implemented the MOU because of fundamental
disagreements over what the attributes of an interoperable biometric
fingerprint system should be, or the extent to which systems should be made
interoperable. Although the Department, the DHS, and the DOS have
continued to work together in interagency working groups to discuss
operational and technical problems of mutual concern, high-level decisions
regarding the fundamental issues must be resolved before agreement can be
reached on the long-term interoperability of the IAFIS, IDENT, and US-VISIT
systems.

      Responsibility for the integration project within the Department has
been assigned to the CIO. We recommended that the Department assign
responsibility for coordinating and overseeing the integration project to a senior
Department official. The Department assigned that responsibility for
coordinating the integration project to the Department CIO.


U.S. Department of Justice                                               49
Office of the Inspector General
Evaluation and Inspections Division
      The development of a fully integrated IDENT/IAFIS is being
expeditiously pursued. We recommended that the Department and the DHS
pursue expeditiously the development of an integrated version of IDENT/IAFIS
that would provide the DHS apprehension and criminal history information to
other federal, state, and local law enforcement agencies. We found that the
Department CIO, JMD, and the FBI’s CJIS Division have taken several actions
that will promote the implementation of an interoperable IDENT/IAFIS system.
Examples of these actions are:

       Long-term interoperability solutions developed. The CIO stated that the
Department would do whatever is necessary to improve the situation in the
short-term, but that it is important to focus on the long-term vision so that the
necessary planning can be done. The CIO and JMD developed and submitted
to the Policy Coordination Committee two options for a long-term solution to
implement a biometric fingerprint system that will effectively meet the security
and law enforcement needs of all concerned parties. Both options assume that
up to 42 million foreign visitors a year will be searched directly against IAFIS
records and that the FBI will have law enforcement access to US-VISIT files.
The options also entail modifying existing equipment to take more than two flat
fingerprints at consulates and at ports of entry. Under the first option, termed
the “unified approach,” the FBI CJIS Division in West Virginia would become
the consolidated U.S. Government center for biometric expertise, providing a
single source for enrollment, retention, criminal history, and terrorist data.

       The CJIS Division would maintain and administer the DHS biometrics
databases, including the IDENT lookout and apprehension databases and US-
VISIT data, and would provide a dedicated, partitioned AFIS for US-VISIT. The
DHS would continue to own its data and set relevant privacy and operating
rules to govern its use through MOUs with the CJIS Division. The second
option, termed the “enhanced status quo,” described a solution in which
modified IDENT/IAFIS workstations could be deployed at the visa-issuing
consulates and embassies and at primary US-VISIT enrollment stations at the
ports of entry to allow the capture of more than two flat fingerprints in order to
thoroughly evaluate visitors before they arrive, and to reduce false positives
and false negatives.

      The DoD has begun establishing the consolidated service center model
described in the Department’s option one. The DoD is implementing the same
type of dedicated, partitioned AFIS that the FBI would provide for US-VISIT
data, and has already begun building the system. The DoD, like the DHS, has
privacy concerns with its fingerprint data. In addition, the DoD has taken
action to ensure that all the fingerprints it collects from military detainees and
known and suspected terrorists are interoperable with IAFIS. On February 2,
2004, the DoD’s CIO announced a new requirement for all existing DoD


U.S. Department of Justice                                                50
Office of the Inspector General
Evaluation and Inspections Division
fingerprint collection systems to be upgraded to become interoperable with
IAFIS by December 31, 2004.

      Fast Capture technology. On September 4, 2004, the Department,
          U                           U




through the National Institute of Justice, issued a solicitation due by November
8, 2004, for fast capture fingerprint/palm print technology. The goal “is to
fund the development and demonstration of technology that will quickly
capture ten rolled-equivalent fingerprints and/or palm prints; significantly
improve the fingerprint and palm print image quality over current technologies;
reduce the failure to enroll rate (due to poor quality) over current technologies;
and be affordable, rugged, portable, relatively unobtrusive in size and
deployable in the near future.”

       Planned IDENT/IAFIS modifications to track immigration violators in
          U




IAFIS. In the Department’s FY 2005 Budget Request, JMD requested
      U




$5 million to start work on making immigration information accessible to other
federal, state and local law enforcement agencies, as directed by Congress. If
approved, JMD plans to begin designing a modification to IDENT/IAFIS Version
2 to create an Immigration Violator File that will include apprehension data
from IDENT and new enrollees submitted by the DHS.66              TP   PT




      The FBI has begun planning for “Next Generation IAFIS.” We found that
          U                                                                 U




the CJIS Division has started developing concepts for Next Generation IAFIS,
and has prepared a FY 2006 budget request and justification covering the
projected implementation costs. The CJIS Division has requested over
$77 million in FY 2006 for Next Generation IAFIS initiatives, which are
intended to:

    • Improve fingerprint identification accuracy: The IAFIS uses technology
      that is almost 10 years old, and the original AFIS specifications required
      only 95 percent accuracy.67 The latest biometric technologies now offer
                                          TP   PT




      advances in filtering, feature extraction, and matching algorithms that
      provide accuracy rates of up to 99.9 percent.

    • Allow flat fingerprint searching capability and increased search capacity.
      The CJIS Division must implement flat fingerprint capability for IAFIS to


          IDENT/IAFIS OMB Circular A-11, Exhibit 300, FY 2005. This was planned before
          66
          TP   PT




US-VISIT and may no longer be applicable. Progress has stalled and JMD is not actively
pursuing this approach as it awaits further decisions.

          These are likely to be false negatives (IAFIS may not return the correct identification
          67
          TP   PT




decision even if the match is in the IAFIS database).




U.S. Department of Justice                                                             51
Office of the Inspector General
Evaluation and Inspections Division
            process flat fingerprints for background checks for employment and
            licensing, and for ten-print and latent searches. The budget request
            estimates that increases in these searches “could easily triple current
            workloads” and proposes that the IAFIS ten-print search capacity be
            expanded to accommodate 200,000 searches per day, plus up to 1,000
            latent searches per day.

    • Create an Enhanced Terrorist Identification Service. This proposed
      specialized biometrics database will contain real-time fingerprint data
      from known and suspected terrorists and wanted persons. Enhanced
      Terrorist Identification Service will allow submissions of less than ten
      fingerprint images and will provide a response within seconds that will
      reflect a status of “no record” or “warning.”

    • Implement a “zone” concept. Next Generation IAFIS will enhance the civil
      fingerprint functionality to allow for the exchange of records between four
      databases or “zones,” one of which will support the Enhanced Terrorist
      Identification Service database. The zone concept will provide a means
      for ensuring segregation of DHS US-VISIT records.

       The FBI is implementing standard processing for ten flat fingerprints. In
       U                                                                                   U




April 2004, the CJIS Division published a study with the NIST, the Secret
Service, and the states of Ohio, Texas, and New York that examined the
feasibility of a “national, rapid, and positive fingerprint-based identification
background check system for authorized non-criminal justice [civil]
purposes.”68 The study analyzed the feasibility of processing fingerprint
                      TP   PT




searches using ten flat, rather than ten rolled, fingerprints through IAFIS and
found them comparable to civil fingerprint checks. The results are directly
applicable to the handling of US-VISIT fingerprint queries should US-VISIT
begin taking ten flat fingerprints. Based on review of a CJIS report, the
Compact Council provisionally approved the report’s 6-month implementation
option for ten-flat fingerprints, and the CJIS Advisory Policy Board
subsequently endorsed the Compact Council’s decision.69 The CouncilTP   PT




approved the recommendation to accept ten flat fingerprints so long as the
reliability meets or exceeds the IAFIS specifications, the FBI identifies a

       68
       TP  National Fingerprint-Based Applicant Check Study (N-FACS), FBI CJIS Division,
             PT   U                                                          U




April 5, 2004, p. iii.

       69
       TP The Compact Council is a 15-member group that governs the use of criminal history
             PT




records maintained by the CJIS Division for non-criminal justice (civil) purposes, per the FBI’s
National Crime Prevention and Privacy Compact. The Compact Council advises the CJIS
Advisory Policy Board on civil fingerprint standards.




U.S. Department of Justice                                                            52
Office of the Inspector General
Evaluation and Inspections Division
standard for flat capture devices, and there is no degradation to current IAFIS
criminal justice services.

      Wants and Warrants updates are now provided to the DHS on a daily
basis. We recommended that the Department work with the DHS to update
IDENT with FBI information on a daily, rather than bi-weekly, basis. Working
together with DHS on an accelerated schedule, the CJIS Division began to
provide daily Wants and Warrants extracts from IAFIS to the DHS on May 17,
2004.

        Criminal histories of aliens who have IAFIS hits are made available
to Border Patrol agents. We recommended that the Department coordinate
with the DHS to establish procedures to ensure that the criminal histories of
all aliens who have a lookout or IAFIS hit are provided to and reviewed by the
Border Patrol. As part of the DHS expedited deployment, the CBP established
and issued written procedures that outlined appropriate steps for handling
lookout hits and that ensured that criminal histories of all aliens who have a
lookout or IAFIS hit are provided to and reviewed by the Border Patrol.




U.S. Department of Justice                                             53
Office of the Inspector General
Evaluation and Inspections Division
                  CONCLUSION AND RECOMMENDATIONS
______________________________________________________________________________

       Although significant positive steps have been taken to expedite the
deployment of the initial integrated version of IDENT/IAFIS, progress toward
the longer term goal of making biometric fingerprint systems fully interoperable
has stalled. Under the current process, the FBI extracts certain data from
IAFIS and provides it to the DHS for insertion into IDENT. The result is an
unnecessary duplication of data, and the use of some erroneous, untimely, and
incomplete data by the DHS in lieu of direct queries of the most current and
complete information contained in IAFIS. Further, because only a small
percentage of aliens at ports of entry are being searched against IAFIS, the
likelihood of missing a criminal alien or terrorist is increased.

       The FBI and other law enforcement agencies (federal, state, and local)
have no access to the DHS’s IDENT and US-VISIT immigration records,
particularly the alerts in the apprehensions file, which are not in the IAFIS
database. Among other things, these alerts flag the records of aliens who did
not meet the criteria for inclusion in the lookout database but nevertheless who
should be closely scrutinized or detained if apprehended. If the FBI is unable
to directly access the information in IDENT and US-VISIT, it will be less able to
identify aliens arrested in the United States who have violated their
immigration status, tell employers the status of an applicant for a sensitive
position, and coordinate with the DOS to ensure that law enforcement can
identify persons of interest when they apply for a visa.

       Critical differences continue to exist between federal agencies over the
fundamental method of capturing fingerprint information. The NIST-
recommended Technology Standard calls for using ten flat fingerprints to
implement a long-term interoperable biometric fingerprint system. However,
the DHS and the DOS have neither agreed to implement the uniform
fingerprint Technology Standard recommended by the NIST nor agreed how to
develop a fully interoperable system that provides law enforcement agencies
with “readily and easily accessible” access to IDENT and US-VISIT immigration
records as required by Congress in both the Patriot and Border Security Acts.
Because these capabilities have not been developed, over 99 percent of the
visitors seeking admission to the United States will only be checked against the
US-VISIT watch list. Because that watch list relies on a limited number of
records extracted from the IAFIS Criminal Master File, the checks will not be as
complete as those made directly against the full 47-million record IAFIS
Criminal Master File. As the Department’s Metrics Study showed, when only
extracts are checked, many criminal aliens – including many who committed
violent crimes that threaten public safety – are not identified and may be
unknowingly admitted to the United States.


U.S. Department of Justice                                              54
Office of the Inspector General
Evaluation and Inspections Division
      For the Department to effectively proceed with planning to make IAFIS
interoperable with the biometric fingerprint systems of the DHS and the DOS,
high-level policy decisions must be made regarding who should be subjected to
fingerprint searches, the fingerprint collection standard to be used, the
databases to be queried, who will have access to the information, how the
information will be used, and who will maintain the databases. We recommend
that the Department seek to have the federal government address those
decisions in a timely and coordinated manner. We therefore recommend that
the Department:

       1. Within 90 days of the enactment of the Department’s FY 2005
          appropriations act, report to the Homeland Security Council and
          Congress that the Department, the DHS, and the DOS have reached
          an impasse and cannot complete the MOU directed by Congress. The
          report should formally request that the Homeland Security Council or
          Congress decide on the adoption of the NIST Technology Standard
          and define the capabilities to be provided in the interoperable system;

       2. Increase the transmission of the fingerprints of Known or Suspected
          Terrorists from the FBI to the DHS from monthly to at least weekly;

       3. Request access to a random sample of data from US-VISIT and other
          relevant immigration biometric databases used for enforcement or
          benefit purposes for comparison to IAFIS in order to determine the
          risk posed by not checking all visitors against IAFIS;

       4. Coordinate with the DHS to identify the capacity needed to conduct
          IAFIS searches on all visitors referred to secondary inspection and
          inform the Department’s CIO how the capacity of IAFIS (now planned
          to be 20,000 searches by October 1, 2005) could be increased to
          handle that level of activity;

       5. Develop options for the eventual upgrade of IAFIS to enable the
          system to conduct ten flat fingerprint searches on all US-VISIT
          enrollees and TPRS submissions from the Border Patrol and from the
          ports of entry; and

       6. Take steps to ensure that IAFIS meets its availability requirement of
          99 percent.




U.S. Department of Justice                                              55
Office of the Inspector General
Evaluation and Inspections Division
                                 APPENDIX I
                BACKGROUND ON FBI AND INS AUTOMATED
                FINGERPRINT IDENTIFICATION DATABASES
______________________________________________________________________________

       United States immigration authorities have long recognized the need for
an automated fingerprint identification system to quickly determine the
immigration and criminal histories of aliens apprehended at or near the border.
More than one million aliens are apprehended each year attempting to enter
the United States illegally. Many of these aliens are apprehended in large
groups, and the Border Patrol lacks the resources to detain them for extended
periods of time. Consequently, the vast majority are voluntarily returned to
their country of origin, mostly to Mexico, without any criminal charges being
filed.

       Immigration authorities need to be able to quickly determine which of
these aliens should be detained for prosecution based on multiple illegal
entries, reentering the United States after a prior deportation, alien smuggling,
a current arrest warrant, or a criminal record. Historically, in order to identify
which individuals to detain for possible prosecution or deportation, the INS had
to rely on the names provided by the apprehended aliens and check them
against its databases or other paper records. This method was ineffective
because aliens often used false or different names. Also, many aliens have
similar names, and spelling errors result in problems identifying individuals
accurately.

Automated Biometric Identification System (IDENT)

       In 1989, Congress provided the initial funding for the INS to develop an
automated fingerprint identification system that eventually became known as
IDENT. While one of the main purposes of IDENT was to identify and
prosecute repeat immigration offenders, another significant purpose was to
identify criminal aliens who should be detained. The 1989 conference report
described Congress’s rationale for funding the project:

       Illegal immigration continues at alarming rates, and criminal
       alien statistics provided by the INS indicate that a growing
       proportion of aliens are drug smugglers, known criminals, and
       suspected terrorists. Emerging technology in the area of
       automated fingerprint identification systems has the potential
       for providing empirical data to clearly define the problem of
       recidivism as well as immediately identify those criminal




U.S. Department of Justice                                               56
Office of the Inspector General
Evaluation and Inspections Division
       aliens who should remain in the custody of the INS (emphasis
       added).70

Integrated Automated Fingerprint Identification System (IAFIS)

       At about the same time, the FBI began to overhaul its paper-based
fingerprint card system, which it had maintained since the 1920s, to create a
new automated fingerprint identification system that would allow electronic
searches for fingerprint matches. Since the 1920s the FBI’s Identification
Division has maintained a central repository of ten-prints of criminal offenders’
fingerprints. In 1967, the FBI created the National Crime Information Center
(NCIC) to provide a national database of computerized information on
individuals with active Wants and Warrants, stolen articles, vehicles, guns,
license plates, and other data. Fingerprint information for wanted and missing
persons is submitted by participating federal, state, and local law enforcement
agencies, of which over 80,000 have access to NCIC. In February 1990, the
NCIC Advisory Policy Board recommended that the FBI update its paper-based
fingerprint identification system and create a new automated system, which
eventually became known as the FBI’s IAFIS. IAFIS currently contains in its
Criminal Master File over 47 million ten-print criminal fingerprint records that
can be electronically compared against submitted fingerprints. During 1990
and 1991, the INS and FBI met to discuss possible coordination of their
planned automated fingerprint identification systems. They discussed how the
FBI’s IAFIS and the INS’s proposed system could be linked to ensure uniform
high-quality fingerprint image and electronic transmission standards for
fingerprints and identification data so that they could be transmitted among
different fingerprint identification systems.

      From the start, the INS and the FBI recognized that integration of their
separate automated fingerprint identification systems would benefit both
agencies. An integrated system would reduce the likelihood that INS would
release an alien who had a serious criminal record and prior deportations. It
also would enable federal, state, and local law enforcement authorities to
search latent fingerprints against an immigration database of illegal border
crossers, especially if ten rolled fingerprints were taken.




       70See H.R. Conf. Rep. No. 100-979 at 30, accompanying H.R. 4728, 100th CONG.,
2d SESS. (1988).




U.S. Department of Justice                                                     57
Office of the Inspector General
Evaluation and Inspections Division
III.   IMPLEMENTATION OF SEPARATE FBI AND INS DATABASES

Two versus Ten Fingerprints

      An early difference of opinion between the INS and the FBI was whether
the INS should take two fingerprints or ten fingerprints from the aliens it
apprehended. The FBI, along with state and local law enforcement agencies,
believed that the INS should take ten rolled fingerprints so that they could be
matched against ten-fingerprint records in the law enforcement databases or
any latent fingerprints obtained at crime scenes. Because fingerprints at crime
scenes may be from any finger, the long-established law enforcement standard
requires that officers take fingerprints from all ten fingers.

      The INS emphasized that a fast response time was critical because the
INS could not detain large numbers of apprehended aliens for long periods of
time while waiting for responses to criminal checks. The INS believed that
taking ten fingerprints of all apprehended aliens would take too long and would
adversely affect its ability to carry out its mission.

       Between 1991 and 1993, the INS operated a pilot Automated Fingerprint
Identification System (AFIS) project in the San Diego Border Patrol Sector. In
1994, Congress allocated funding for the INS’s automated system. During an
April 1994 meeting regarding the deployment of IDENT, the FBI told the INS
that without additional development time and money, the FBI’s planned IAFIS
system could not meet the INS’s need to handle a high volume of fingerprints
(for more than one million aliens apprehended annually), and provide the quick
response time (two minutes or less) for each encounter. Further, the FBI said
that the alternative of searching and matching the two fingerprints captured by
IDENT against the FBI’s planned IAFIS ten-fingerprint database would require
much more computer power than the FBI had in order to provide the response
time that the INS needed.

        Therefore, in 1994 the INS decided to move forward with implementation
of its separate IDENT system, independent from the FBI’s IAFIS system. In
order to meet its own needs, the FBI decided that its automated fingerprint
system, IAFIS, would contain all ten fingerprints and provide a response in two
hours for high priority electronic requests and a longer time for lower priority
and non-electronic requests.

The Border Patrol’s Use of IDENT

     The INS’s IDENT system was designed to automatically alert personnel at
the Western Identification Network Automated Fingerprint Identification Center
(WIN/AFIS) whenever IDENT returned a lookout hit indicating an outstanding


U.S. Department of Justice                                             58
Office of the Inspector General
Evaluation and Inspections Division
warrant for an apprehended alien.71 INS procedures required WIN/AFIS
personnel promptly telephone the apprehending Border Patrol personnel to
confirm the lookout match and to inform the Border Patrol agents of the nature
of the warrant and the contact numbers for the appropriate law enforcement
officials regarding the warrant. This contact generally occurs within one hour.
A Border Patrol supervisor then contacts law enforcement officials who issued
the warrant to determine whether they want to pay for and transport the alien
to their jurisdiction for prosecution.

       Typically, if the issuing authorities do not want the alien transported,
and there is no other reason to detain the alien, the Border Patrol voluntarily
returns the alien across the border. However, some circumstances warrant
further detention and investigation. For example, if a processing agent learns –
usually from the alien himself, or through prior IDENT entries from previous
apprehensions – that the alien has a prior criminal history, the Border Patrol
may seek the prosecution of the alien for the offense of Entry Without
Inspection.72 Also, if the agent learns that the alien has a prior deportation, the
law requires reinstatement of the prior order of deportation, and the alien is
not eligible for voluntary return to Mexico.73 Upon learning of the prior
deportation, the processing agent should confirm the alien’s prior criminal
history.

       Moreover, an alien likely will be prosecuted for the felony charge of
Reentry After Deportation if the alien has a record of a prior felony or
aggravated felony. A conviction for Reentry After Deportation carries a
potential sentence of up to 10 years’ imprisonment for an alien with a prior
criminal record of a felony or three misdemeanors, or a sentence of up to 20
years’ imprisonment for an alien with a prior aggravated felony conviction
pursuant to § 1326(b).


       71   Formed in 1989, WIN/AFIS contains information from state and federal criminal
justice agencies in seven Western states. Its database contains about 2.5 million arrest
records from those member states and from the INS. Its fingerprint search capabilities are
provided by a large-scale AFIS installation in Sacramento, California. An additional unit called
the INS WIN/AFIS Service Center provided technical support to INS facilities performing
criminal searches on WIN and handled WIN registrations. The INS WIN/AFIS Service Center
operates 7 days per week, 24 hours per day, and is staffed by contract employees who were
qualified fingerprint examiners and who could make fingerprint matches.

       72  While the Border Patrol technically could bring this charge for every illegal entry, it is
not feasible to bring charges on each apprehended alien because of the effect on prosecutorial,
judicial, and detention resources.

       73   See 8 USC § 1231(a)(5).




U.S. Department of Justice                                                                59
Office of the Inspector General
Evaluation and Inspections Division
       The agents at Border Patrol stations that do not have direct access to the
FBI’s criminal records must telephone the Border Patrol sector’s
communications office, commonly known as the “radio room,” which has direct
links to various criminal and immigration databases. These databases include
the FBI’s NCIC; immigration databases containing records of prior immigration
contacts with the alien, such as deportations; and a DHS database, the
Treasury Enforcement Communications System/Interagency Border Inspection
System (TECS/IBIS), which is typically used by inspectors at ports of entry to
check incoming travelers.

      Because the Border Patrol lacks the manpower to conduct separate
criminal and immigration history checks for every apprehended alien, these
additional database checks are requested for only the small fraction of the
apprehended aliens whose behavior, appearances, outstanding warrants, or
other information in IDENT raises concerns with the Border Patrol agents
processing the aliens.

JMD’s Fingerprint Database Integration Efforts

      In the mid-1990’s, the Attorney General established a Fingerprint
Coordination Working Group, which included representatives from the INS and
the FBI, to address problems in fingerprint procedures. As part of this effort,
the Department’s Justice Management Division (JMD) reviewed integration
issues of the INS and FBI automated fingerprint identification systems, and
attempted to coordinate the integration of their separate systems.

       In March 1998, the OIG issued a report evaluating the INS’s
implementation of IDENT.74 The OIG found that the INS was enrolling less
than two-thirds of the aliens apprehended along the U.S.-Mexico border into
the IDENT system. In addition, the INS was entering into the IDENT lookout
database the fingerprints of only 41 percent of the aliens deported and denied
admission into the United States in FY 1996. Of these aliens, only 24 percent
had accompanying photographs entered into IDENT, even though the INS
relied on photographs as an important method of confirming identification.
The OIG found virtually no controls in place to ensure the quality of data
entered into the IDENT lookout database, which resulted in duplicate records
and invalid data. The OIG report also raised concerns that the INS had not
provided sufficient training to its employees on the use of IDENT, and that
these failures hampered the INS’s ability to make consistent and effective use
of IDENT.

       74  See “Review of the Immigration and Naturalization Service’s Automated Biometric
Identification System,” March 1998.




U.S. Department of Justice                                                         60
Office of the Inspector General
Evaluation and Inspections Division
       Two months later, in May 1998, in response to a letter from
Congressman Alan Mollohan urging that consideration be given to integrating
the IDENT and IAFIS systems, JMD issued a report recommending that the INS
retain IDENT to meet INS internal requirements, but that the INS adopt ten-
printing as a long-term policy goal. The JMD report concluded that, properly
funded, this option would permit the Border Patrol to maintain processing
times while providing other law enforcement agencies with a fingerprint
database that could be searched. The report also recommended a 12-month
pilot study, to begin in the fall of 1999, of a ten-fingerprint system in selected
Border Patrol stations.

IV.    THE RESENDEZ CASE

      In 1999, the consequences of INS’s inability to identify criminal aliens
without integrated IAFIS and IDENT databases were illustrated tragically by
the case of Rafael Resendez-Ramirez (Resendez).75 In 1998, the Border Patrol
in Texas and New Mexico apprehended Resendez, a Mexican citizen with an
extensive criminal record, seven times while crossing the border illegally. Each
time he was voluntarily returned to Mexico.

       Unbeknownst to the agents who apprehended and voluntarily returned
Resendez in accord with normal Border Patrol policy, Resendez had an
extensive criminal history in the United States. He had been convicted
previously on at least eight separate occasions for crimes that included
aggravated felonies. Resendez also had been previously deported to Mexico at
least three times and voluntarily returned to Mexico by the INS at least four
times.

      During each of the seven apprehensions in 1998, the Border Patrol
agents who processed Resendez through IDENT did not learn of his criminal
record or past deportations. Because IDENT was not integrated with IAFIS,
and because IDENT only included information about apprehended aliens on a
day-forward basis, IDENT did not contain any information about Resendez’s
past convictions and deportations. Also, because Resendez had been
apprehended less than the threshold number of times for prosecution for Entry
Without Inspection, the Border Patrol agents simply enrolled Resendez in
IDENT on each of these encounters and voluntarily returned him to Mexico.
They were not required to check, and did not check, FBI databases for criminal
history information and outstanding warrants on him.

       75 The facts of the Resendez case are detailed in a March 2000 OIG report entitled, “The
Rafael Resendez-Ramirez Case: A Review of the INS’s Actions and the Operation of Its IDENT
Automated Fingerprint Identification System.”




U.S. Department of Justice                                                          61
Office of the Inspector General
Evaluation and Inspections Division
      In early 1999, evidence linked Resendez to several brutal murders in
Texas and Kentucky, and warrants were issued for his arrest. Other federal
and local law enforcement authorities contacted INS personnel at least four
times to discuss the warrants and the evidence against Resendez, and to
ensure that the INS placed a lookout for Resendez in the event that he was
apprehended again while illegally entering the country. Yet, none of the INS
investigators who were contacted by the law enforcement officers thought to
have a lookout placed for Resendez in IDENT based on the warrants, either
because the INS investigators were unfamiliar with IDENT, or because they
thought it was the job of others to enter the warrants.

       On June 1, 1999 – at the same time that state and federal warrants for
Resendez were outstanding and law enforcement officers were searching for
Resendez in connection with several murders – Border Patrol agents in Santa
Teresa, New Mexico, apprehended Resendez again crossing the border illegally.
They processed him in IDENT according to their standard practice. IDENT
identified Resendez as a recidivist border crosser, but nothing in IDENT alerted
the Border Patrol agents that he was wanted for murder by the FBI and local
law enforcement authorities. Nor did IDENT disclose Resendez’s extensive
criminal history. Therefore, the Border Patrol did not detain Resendez and,
following its standard policy, voluntarily returned him to Mexico. Within days,
Resendez illegally returned to the United States and committed four more
murders.

       In mid-June 1999, a Border Patrol Intelligence Officer in Texas enrolled
Resendez into the IDENT lookout database to ensure that he would be detained
if encountered again by the INS. At that time, the Border Patrol discovered
that its agents had recently released Resendez despite the outstanding warrant
for his arrest for murder. Finally, On July 13, 1999, Resendez surrendered to
U.S. law enforcement authorities and on May 18, 2000, he was convicted of
capital murder and sentenced to death.

V.     RENEWED EMPHASIS ON INTEGRATION OF IDENT AND IAFIS

     In July 1999, a House Committee on Appropriations report, with the
Resendez incident clearly in mind, stated:

       [T]he Committee continues to be concerned about the
       inadequacies of this system [IDENT], specifically with regard
       to its ability to identify wanted criminals who may be
       apprehended by INS Border Patrol agents and inspectors
       along the border…the Committee repeatedly raised concerns
       that the IDENT database was not integrated with FBI’s IAFIS
       database.


U.S. Department of Justice                                             62
Office of the Inspector General
Evaluation and Inspections Division
Law Enforcement Access to INS Data

      The House Report expressed the belief that federal, state, and local law
enforcement should have access to INS fingerprint information and that the
INS should have the full benefit of FBI criminal history records. The House
report directed the INS to suspend further deployment of IDENT until the
Department submitted to the House Appropriations committee a plan for
integration of IDENT and IAFIS. The Conference Report for the Department’s
FY 2000 appropriations included this provision.

JMD Assigned to Coordinate Integration

      In response to the Congressional directive, the Department assigned
JMD to coordinate the efforts to develop an integration plan. On August 12,
1999, JMD convened a “Fingerprint Summit” meeting, attended by
representatives of the FBI and INS, to discuss a plan for integrating IDENT and
IAFIS. The conceptual model agreed to at that meeting required that the INS
be able to check fingerprints of apprehended aliens against all fingerprint
records in IAFIS and that federal, state, and local law enforcement agencies be
able to access the INS’s fingerprint records through IAFIS.

      JMD issues integration report. On March 1, 2000, JMD’s Management
Planning Staff issued a report entitled “Implementation Plan for Integrating the
INS’ IDENT and the FBI’s IAFIS Fingerprint Data.” The report stated that, “The
INS and FBI have acknowledged that integrating IDENT with IAFIS would
greatly benefit both agencies, as well as federal, state, and local law
enforcement.” The report further stated that such integration:

       has the potential to: reduce the likelihood that a wanted
       individual would be released from the INS’ custody; provide
       federal, state, and local law enforcement an integrated picture
       of the criminal activity known by agencies in DOJ, including
       the INS histories of illegal border crossers; and enable federal,
       state, and local law enforcement to search latent prints
       against additional illegal border crossers, especially if ten-
       prints are taken.

      The report discussed various options for integration, but directed that
before any recommendation would be finalized, the INS, the FBI, and JMD
would conduct three studies:

       (1) a criminality study that would estimate the percentage of
       apprehended illegal aliens who had been charged with more serious
       crimes;


U.S. Department of Justice                                                 63
Office of the Inspector General
Evaluation and Inspections Division
       (2) an engineering study that would produce a cost analysis for the
       integration, including alternative query response times; and

       (3) an operational impact study that would assess the effect that such
       changes as taking ten prints would have on operations and procedures
       at the border.

OIG Issues Resendez Report

      Also in March 2000, the OIG issued its report on the Resendez case.76
The OIG report noted that integration of IDENT and IAFIS would provide what
the IDENT lookout database did not – a check of all apprehended aliens to
determine whether they have serious criminal records, prior orders of
deportation, or any outstanding arrest warrants. The report recommended that
the Department and its components should aggressively and expeditiously link
the FBI and INS automated fingerprint systems.

The Department Conducts Three Integration Studies

       From June 2000 through July 2001, the Department conducted the
three studies in support of the integration project. First, the Operational
Impact Study concluded that it might be feasible for the INS to take ten rolled
fingerprints in many locations and check them against the FBI’s IAFIS files if
the INS could receive a response from the FBI within 10 minutes, except for
high volume workload periods. Second, the Engineering/System Development
Study concluded that IAFIS could not be searched using the IDENT two-
fingerprint system in the volume and within the response time that the INS
required. This study proposed an alternative approach requiring the INS to
collect ten rolled fingerprints (in addition to continuing to separately take two
fingerprints for IDENT). Third, the Criminality Study (based on a sample of the
recidivist database) projected that a total of 136,000 (8.5 percent) of the
approximately 1.6 million aliens apprehended each year by the Border Patrol
and allowed instead to voluntarily depart would be detained if their fingerprints
were matched against IAFIS and their criminal histories were checked.

JMD Announces Incremental Deployment of IDENT/IAFIS

       In January 2001, JMD issued its FY 2002 budget request, which stated
that incremental versions of the IDENT/IAFIS database would be deployed in
FY 2001, with a fully integrated version deployed in FYs 2006-7. The JMD

       76 “The Rafael Resendez-Ramirez Case: A Review of the INS’s Actions and the
Operation of Its IDENT Automated Fingerprint Identification System.”




U.S. Department of Justice                                                       64
Office of the Inspector General
Evaluation and Inspections Division
plan called for deployment during FY 2001 of Version 1, a single ten-fingerprint
workstation capable of querying IDENT using index fingerprints and IAFIS
using ten fingerprints. The electronic IAFIS response would indicate a match
or no match. When there was a match, IAFIS would electronically transmit the
criminal rap sheet to the workstation from which the query was made.

      JMD revises its plan. However, in August 2001 JMD revised its plan to
slow the pace of the integration project because of concerns about operational
issues relating to the Department’s ability to handle the additional workload
and the costs of detaining criminal aliens as projected by the criminality study.
JMD also sought the delay to further study the additional workload and costs
and to monitor developing biometric technologies to ensure that the
Department did not commit large sums of money to an integration plan that
would not take advantage of future technological advances. As a result of this
revised plan, JMD reduced its original FY 2002 budget request for the
integration project from $38 million to $9 million.77 Also, the anticipated time
frame for completing the first integrated version was delayed one year – from
December 2001 until December 2002.

USA Patriot Act Enacted

       In October 2001, in the wake of the September 11 terrorist attacks on
the United States, Congress enacted the USA PATRIOT Act of 2001, Public Law
107-56 (the Patriot Act). The Patriot Act directed the expedited implementation
of an integrated entry/exit data system, including the use of biometric
technology.78 The Patriot Act also required that the FBI share with the INS
wanted-persons information in IAFIS to determine whether an applicant for
admission at a port of entry has a criminal record. Finally, the Patriot Act
required that the Department report to Congress on enhancing IAFIS and other
identification systems to better identify aliens who may be wanted before their
entry to or exit from the United States.79 Subsequent Department responses to
Congress regarding the Patriot Act indicated that an integrated IDENT/IAFIS
was to be an integral tool to identify terrorist or criminal aliens attempting to
enter the United States.

        77 The $38 million included $10 million for IDENT system operation and maintenance

costs, but no funds for increased operational costs for the INS.

       78 The Data Management Improvement Act of 2000 directed the implementation of an

integrated entry/exit data system (US-VISIT) and assigned deadlines for completion of the
system.

       79 As of January 2004, the FBI’s CJIS Division had not completed the Attorney
General’s report.




U.S. Department of Justice                                                        65
Office of the Inspector General
Evaluation and Inspections Division
Wants and Warrants Records Added to IDENT

      The selected input of FBI criminal records into the IDENT database over
the past few years has illustrated the large number of criminal aliens who are
regularly apprehended by the Border Patrol. The Wants and Warrants were
added to IDENT in August 2001. From December 2001 to April 2003, 152,000
FBI Wants and Warrants fingerprint records were entered into IDENT. From
January 2002 to April 2003, immigration authorities apprehended 4,820 aliens
who were wanted for criminal offenses based on these records. Fifty of these
aliens were wanted in connection with murder. During the same period, an
additional 179,500 IAFIS criminal history fingerprint records of aliens from
countries believed to be a threat to the United States were entered into IDENT
and immigration personnel have matched these criminal records to 3,440
apprehended aliens.

OIG Issues Follow-up Report

       In December 2001, the OIG issued another follow-up report examining
the status of the continuing efforts to integrate IDENT and IAFIS.80 The report
concluded that the Department had moved slowly toward integrating the two
fingerprint systems. As of December 2001, JMD’s plans for the deployment of
the final version of the integrated database had been delayed another year (for
a total of 2 years). The OIG report recommended that the Department continue
to seek expeditious linkage of the FBI and INS automated fingerprint systems,
and to continue to use IDENT while the integration was proceeding. The OIG
report also supported the interim measure of immediately adding to the IDENT
lookout database IAFIS fingerprint records for aliens with outstanding Wants
and Warrants, as well as adding fingerprint records for Known or Suspected
Terrorists.

       OIG report found problems in IDENT’s lack of integration with IAFIS.
Thus, while the IDENT database is a useful tool for identifying recidivist aliens
who continue to enter the United States illegally, its lack of integration with the
FBI’s IAFIS database results in significant problems. First, IDENT contains
only a fraction of the Criminal Master File fingerprint records in the FBI IAFIS
database – limited to the Wants and Warrants that the FBI and United States
Marshals Service have entered into IDENT since August 2001 and the criminal
history fingerprint records of aliens from certain countries believed to pose a
security risk to the United States.



       80   See OIG report entitled “Status of IDENT/IAFIS Integration,” December 2001.




U.S. Department of Justice                                                          66
Office of the Inspector General
Evaluation and Inspections Division
       Second, the criminal history rap sheets which would help determine
which aliens warrant prosecution were not automatically transmitted to the
agents. As a result, Border Patrol agents may fail to take the extra steps
needed to query the alien’s criminal history information or, when Border Patrol
agents initiate criminal history checks, the results may not be communicated
to the processing agent (either by WIN/AFIS, the radio room, or assisting
agents) in an accurate or timely manner. Third, federal, state, and local law
enforcement agencies have a limited ability to access IDENT fingerprint records
through their systems in order to make use of the immigration records in their
investigations.

       In June 2003, we reported that the IDENT/IAFIS integration project had
fallen at least two years behind schedule.81 At that time, the next major project
milestone was deployment of the initial integrated version of IDENT/IAFIS,
Version 1.2. Originally scheduled for December 2001, that deployment
experienced a series of delays while JMD studied the operational costs of the
integration (called the Metrics Study) and while the INS focused on developing
the National Security Entry/Exit Registration System (NSEERS).82

       We also reported that the integration project was at risk of further delays
because JMD had not developed a transition plan for continued management of
the project after the INS transferred to the DHS in March 2003. Moreover,
JMD had not prepared a revised schedule for completing the full integration of
IDENT and IAFIS. We found that the lack of planning resulted in confusion
over whether JMD or the DHS would manage the development and deployment
of the integration project. We also noted the potential loss of expertise as the
DHS reassigned individuals experienced in IDENT away from the stalled
integration project. The delays and lack of planning we noted for the
integration project were troubling because the interim enhancements made to
IDENT had resulted in an impressive record of helping to identify wanted
aliens.

      Our June 2003 report recommended that JMD coordinate with the DHS
to identify the management, deployment, and operational issues raised by the

       81   See the OIG report entitled “Status of IDENT/IAFIS Integration,” June 2003.

       82 NSEERS is a national registry for nonimmigrant aliens arriving from certain

countries to the United States, or aliens meeting intelligence-based criteria and identified as
presenting an elevated security concern. NSEERS, which collected background, travel, and
departure information and fingerprints, was the first step taken by DOJ and then DHS to
comply with the congressionally mandated requirement for a comprehensive entry/exit
program by 2005. Although the NSEERS Program was superseded by the US-VISIT Program,
NSEERS registration continues.




U.S. Department of Justice                                                            67
Office of the Inspector General
Evaluation and Inspections Division
INS transfer to the DHS; prepare a revised project deployment plan; and report
quarterly on the progress and interim results of the Metrics Study. We
concluded that as of January 2004, some progress has been made in deploying
the initial integrated versions of IDENT/IAFIS, but the integration process
continued to proceed slowly. IDENT Version 1.1+ workstations had been
deployed to approximately 56 DHS sites, including 25 ports of entry and 31
Border Patrol stations.83 That represents about 12 percent of all ports of entry,
and about 20 percent of all Border Patrol sites.84

JMD Metrics Study Findings

      The first Metrics Study report sent to Congress on July 18, 2003,
estimated that, as a result of improved IAFIS access, the Border Patrol was able
to obtain additional criminal history information that it would not have known
about for between 8.8 percent and 10.3 percent of the aliens it apprehended at
the Metrics sites. Preliminary Metrics data from October through December
2003, with all sites deploying Version 1.1+, suggested that access to IAFIS
provided criminal history information to the Border Patrol on between 8.5 and
11.8 percent of apprehended aliens that would not have been known by
searching IDENT alone. From October 1, 2003, until January 31, 2004, the
Border Patrol had 9,650 criminal hits from IAFIS that, including hits for aliens
wanted in connection with 13 murders.

      The FBI continued to electronically update every two weeks the Wants
and Warrants file that goes into the IDENT lookout database. Every month,
the FBI also provides to the lookout database an updated Known and
Suspected Terrorist file, which includes fingerprint records the FBI has
acquired from various law enforcement and security sources. From October
2003 until January 31, 2004, the DHS received 3,034 hits on apprehended
aliens from the updated Wants and Warrants file, including 399 hits for aliens
wanted for violent crimes.




       83 Version 1.1+ workstations could take ten rolled fingerprints and simultaneously

query the IDENT and IAFIS databases to provide a rapid response for potential matches from
IAFIS in less than 10 minutes.

       84  In addition, another 56 locations (ports of entry, Border Patrol stations, and District
Offices) had received the unintegrated Version 1.1.1, which required that aliens be processed
twice in order to check both the IDENT lookout database and the IAFIS criminal history
records.




U.S. Department of Justice                                                              68
Office of the Inspector General
Evaluation and Inspections Division
JMD Revises Project Schedule

       JMD revised the official project schedule to reflect the delays that had
been incurred through September 2003. According to JMD officials, the DHS
will determine the date by which Version 1.2 is deployed nationwide. The
revised schedule indicates that the final version, Version 2 – which will provide
the important capability for the FBI and local law enforcement agencies to
access the DHS’s fingerprint and criminal history databases – will not be
completed before August 2008. That is more than 5 years later than Version 2
originally was scheduled to be deployed, and almost 2 years behind the original
scheduled completion date for the entire integration project. However,
according to JMD officials, the scope and phasing of the entire project has
undergone a thorough revision. Version 2 will incorporate what was referred to
as Versions 2, 3, and 4 in the original project plan.

VI.    THE BATRES CASE

       In 2002, another high-profile case demonstrated the urgent need for
integration of IDENT and IAFIS. Like the earlier Resendez case, this case
tragically illustrated the danger of requiring immigration agents at individual
Border Patrol stations to decide when they should research an apprehended
alien’s criminal history rather than relying on an integrated database that
matches an alien’s fingerprints and automatically transmits a criminal history
rap sheet to the Border Patrol station within 10 minutes.

       The Batres report examined the case of a Mexican citizen, Victor Manual
Batres, who had been detained by the Border Patrol on two occasions in
January 2002 for illegally entering the United States. On each occasion, the
Border Patrol returned him voluntarily to Mexico. They did this because
IDENT and IAFIS were not integrated and the apprehending Border Patrol
agents did not learn of Batres’ extensive criminal record or past deportation. If
his full history had been learned, according to Border Patrol policies he should
have been detained and prosecuted. Instead, after his voluntary return to
Mexico, Batres illegally reentered the United States and traveled to Oregon in
September 2002 where he brutally raped two Catholic nuns, resulting in the
death of one of the nuns.

      The Resendez and Batres cases both demonstrated the urgent need to
integrate the separate FBI and DHS fingerprint identification databases. In the
Resendez case, the INS failed to provide adequate training in IDENT policies
and failed to ensure adequate understanding and use of IDENT throughout the
INS. As a result, Resendez’s fingerprint record in IAFIS was not entered into
IDENT. In the Batres case, the Batres IAFIS fingerprint record was entered



U.S. Department of Justice                                              69
Office of the Inspector General
Evaluation and Inspections Division
into IDENT but his criminal history rap sheet was not automatically forwarded
to the immigration agents who never requested it for review.

      In these two cases, had the immigration agents been made aware of the
information in the FBI databases, both Batres and Resendez would have been
detained and likely incarcerated instead of being voluntarily returned to
Mexico, where they subsequently were able to return to the United States and
commit additional crimes.

Batres Report Findings and Recommendations

      In March 2004, the Office of the Inspector General issued, “IDENT/IAFIS:
The Batres Case and the Status of the Integration Project.” The report again
found delays in the effort to integrate the IDENT and IAFIS databases. While
the report found some progress in deploying an integrated version of
IDENT/IAFIS, we concluded that full integration of the two systems remained
years away. The report found that the current projections from the DHS were
that the two systems would not be fully integrated until at least August 2008,
almost two years behind the original scheduled completion date for the full
project. The report also found uncertainty as to who will be responsible for the
overall management of the integration project. We also found that the
integration project had been slowed by the attention placed by the DHS on
other technology projects, such as US-VISIT. In addition, the transfer of the
INS to the DHS had caused delays in the integration project.

     The OIG report made the following recommendations to assist the
Department of Justice in expediting integration of IDENT/IAFIS:

   •        Develop and implement a memorandum of understanding (MOU) with
            the DHS to guide the integration of IDENT and IAFIS;85   TP   PT




   •   Assign responsibility for coordinating and overseeing the integration
       project to a senior Department official;

   •   Pursue expeditiously the development of the integrated version of
       IDENT/IAFIS which will provide the DHS apprehension and criminal
       history information to other federal, state, and local law enforcement
       agencies;


       85
       TP  The Conference Report accompanying the FY 2004 omnibus appropriations
             PT




legislation directed the DOJ to develop an MOU with the DHS and other appropriate federal
agencies regarding the continued integration of fingerprint systems.




U.S. Department of Justice                                                        70
Office of the Inspector General
Evaluation and Inspections Division
   •   Work with the DHS to update IDENT with FBI information on a daily,
       rather than bi-weekly, basis; and

   •   Coordinate with the DHS to establish procedures to ensure that the
       criminal histories of all aliens who have a lookout or IAFIS hit are
       provided to and reviewed by the Border Patrol.




U.S. Department of Justice                                              71
Office of the Inspector General
Evaluation and Inspections Division
                                APPENDIX II
                     ACRONYMS USED IN THIS REPORT
______________________________________________________________________________

BTS           Border and Transportation Security

CAR           Criminal Answer Required

CBP           Customs and Border Protection

CIO           Chief Information Officer

CIS           Bureau of Citizenship and Immigration Services

CJIS          Criminal Justice Information Services

DAD           Deputy Assistant Director

DAAG          Deputy Assistant Attorney General

DHS           Department of Homeland Security

DoD           Department of Defense

DOJ           Department of Justice

DOS           Department of State

FBI           Federal Bureau of Investigation

HSC           Homeland Security Council

IAFIS         Integrated Automated Fingerprint Identification System

ICE           Bureau of Immigration and Customs Enforcement

IDENT         Automated Biometric Identification System

III           Interstate Identification Index

IISS          Identification and Investigative Services Section

IRQ           Fingerprint Image Request



U.S. Department of Justice                                             72
Office of the Inspector General
Evaluation and Inspections Division
ITMS          Information Technology Management Section

JABS          Joint Automated Booking Station

JMD           Justice Management Division

MOU           Memorandum of Understanding

NCIC          National Crime Information Center

NIJ           National Institute of Justice

NIST          National Institute of Standards and Technology

OIG           Office of the Inspector General

OMB           Office of Management and Budget

RMU           Requirements Management Unit

TPRS          Ten-Print Rap Sheet

US-VISIT      United States Visitor Immigrant Status Indicator Technology




U.S. Department of Justice                                             73
Office of the Inspector General
Evaluation and Inspections Division
                                APPENDIX III
        DEPARTMENT (JMD) COMMENTS ON THE DRAFT REPORT
______________________________________________________________________________




U.S. Department of Justice                                           74
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            75
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            76
Office of the Inspector General
Evaluation and Inspections Division
                                APPENDIX IV
                    OIG ANALYSIS OF DOJ COMMENTS
______________________________________________________________________________

       On November 19, 2004, the Office of the Inspector General (OIG) sent
copies of the draft report to the Federal Bureau of Investigation (FBI) and the
Department of Justice’s (DOJ) Justice Management Division (JMD) with a
request for written comments.1 The Assistant Attorney General for
Administration and the FBI responded to us in a consolidated memorandum
dated December 16, 2004 (Appendix III). JMD and the FBI concurred with all
six of our recommendations. Our analysis of their comments follows.

RECOMMENDATIONS

      Recommendation 1: By December 31, 2004, report to the Homeland
Security Council (HSC) and Congress that the DOJ, the DHS, and the DOS
have reached an impasse and cannot complete the MOU directed by Congress.
The report should formally request that the HSC or Congress decide on the
adoption of the NIST Technology Standard and define the capabilities to be
provided in the interoperable system.

       Status: Resolved-Open.

       Summary of Response. JMD stated that it hopes that our report will
help resolve the issues related to the objective of achieving interoperability
between IDENT and IAFIS. JMD stated that it would transmit our final report
to the HSC and ask that its members address the matter. JMD also stated that
it intends to report to Congress on the status of this project within 90 days of
enactment of the DOJ’s FY 2005 appropriations act.

      OIG Analysis. We accepted and modified the date in our
recommendation to reflect the Department’s proposed action. We consider the
recommendation resolved but open. To close the recommendation, we request
that by March 31, 2005, JMD provide a copy of the report sent to the HSC. In
addition, we request that JMD provide a copy of its status report to Congress
when completed.




       1 We also provided copies of the draft report to the Department of Homeland Security

(DHS) and the Department of State (DOS). Our analysis of the DHS’s and the DOS’s comments
are addressed separately.



U.S. Department of Justice                                                       77
Office of the Inspector General
Evaluation and Inspections Division
      Recommendation 2: Increase the transmission of the fingerprints of
Known or Suspected Terrorists from the FBI to the DHS from monthly to at
least weekly.

       Status: Resolved-Open.

      Summary of Response. JMD stated that the FBI will provide the
fingerprints of Known or Suspected Terrorists to the DHS within one week of
establishing the record in IAFIS. JMD also stated that the FBI is exploring
opportunities to improve its processing of Known and Suspected Terrorists and
is developing several IAFIS system changes that may allow for these records to
be exchanged with the DHS on a daily basis.

       OIG Analysis. We consider the recommendation resolved but open. To
close the recommendation, we request that by March 31, 2005, the FBI
provide: (1) documentation demonstrating that the FBI began providing the
DHS with the fingerprints of Known or Suspected Terrorists within one week of
establishing the record in IAFIS and (2) the status of the FBI’s efforts to
implement the daily transmission of these fingerprint records to the DHS.
Until the DHS is able to directly access IAFIS, we encourage the FBI to
continue working towards the goal of providing the DHS with the most recent
fingerprint records of Known or Suspected Terrorists.

       Recommendation 3: Request access to a random sample of data from
US-VISIT and other relevant immigration biometric databases used for
enforcement or benefit purposes for comparison to IAFIS in order to determine
the risk posed by not checking all visitors against IAFIS.

       Status: Resolved-Open.

      Summary of Response. JMD stated that although it has not yet reached
agreement with the DHS on the parameters of this proposed study, JMD
believes that an agreement can be achieved once other larger issues have been
resolved through the HSC.

       OIG Analysis. We consider the recommendation resolved but open. To
close this recommendation, we request that by March 31, 2005, JMD provide
documentation of the request for access to data, the DHS/DOS response, and
the results of the risk analysis conducted on any data received.

      Recommendation 4: Coordinate with the DHS to identify the capacity
needed to conduct IAFIS searches on all visitors referred to secondary
inspection and inform the DOJ’s CIO how the capacity of IAFIS could be
increased to handle that level of activity.


U.S. Department of Justice                                           78
Office of the Inspector General
Evaluation and Inspections Division
       Status: Resolved-Open.

      Summary of Response. JMD stated that until the issues articulated in
our report are resolved, it is premature to identify specific operational
requirements and the attendant system capabilities that would be needed.
JMD stated that “as soon as these issues are settled, the DOJ will move
expeditiously to ensure that it, and its systems, can meet expectations.”

        OIG Analysis. We consider the recommendation resolved but open. To
close the recommendation, we request that by March 31, 2005, JMD provide
documentation demonstrating that: (1) the DOJ coordinated with the DHS to
resolve issues and identify the capacity needed to conduct IAFIS searches on
all visitors referred to secondary inspection and (2) the DOJ’s CIO was
informed of how the capacity of could be increased to handle the activity that
would be generated by conducting IAFIS searches on all visitors referred to
secondary inspection.

      Recommendation 5: Develop options for the eventual upgrade of IAFIS
to enable the system to conduct ten flat fingerprint searches on all US-VISIT
enrollees and TPRS submissions from the Border Patrol.2

       Status: Resolved-Open.

      Summary of Response. JMD stated that this recommendation
presupposes policy decisions that have not been made. Until policy decisions
are made at the HSC level, JMD stated that it seems “inadvisable and
inappropriate to spend resources to develop detailed options for full operational
implementation.” JMD stated that pending policy decisions by the HSC, the
DOJ “continues exploring various options informally as to ways to further and
better support US-VISIT.”

      OIG Analysis. We consider the recommendation resolved but open. We
accept JMD’s statement that decisions by the HSC could alter the final
operational implementation requirements. Thus, by March 31, 2005, please
provide a copy of the HSC’s final decision on IAFIS, IDENT, and US-VISIT
operational requirements; or a status report on the efforts to establish the final
operational requirements and a copy of the initiatives that the FBI stated that it
has developed initiatives to support improving search reliability for ten flat
fingerprint searches.

       2   Ten-Print Rap Sheet (TPRS) refers to the criminal history file associated with an
alien’s fingerprints. Border Patrol agents and inspectors at ports of entry receive a TPRS
response from IAFIS if an alien’s fingerprints return a potential match to fingerprints in the
IAFIS database.



U.S. Department of Justice                                                             79
Office of the Inspector General
Evaluation and Inspections Division
       To close this recommendation, we request that within 90 days after the
final operational requirements are established, JMD and the FBI provide the
plans developed to upgrade IAFIS to meet the requirements established.

      Recommendation 6: Take steps to ensure that IAFIS meets its
availability requirement of 99 percent.

       Status: Resolved-Open.

       Summary of Response. JMD stated that the FBI has been working to
improve IAFIS availability routinely since the system became operational in
July 1999. JMD stated that since that time, IAFIS system availability has
increased annually and the FBI has several initiatives underway to reduce
unscheduled outages by eliminating single point of failure and creating
redundancy where possible. JMD stated that the FBI is currently
standardizing the hardware platforms across IAFIS, which it stated will provide
automated recovery capabilities to support rapid restoration of services during
off-nominal events (i.e., unscheduled downtime). The FBI stated that this
initiative, which began in 2003, will be completed by April 2005. JMD also
stated that the FBI’s long-term plans to reduce scheduled and unscheduled
IAFIS outages include developing a full system disaster recovery capability.
JMD stated that the FBI is currently defining the concept of operations and
system requirements for this capability, but because funding for the capability
has not yet been identified, the FBI has not determined the implementation
date.

       OIG Analysis. We consider this recommendation resolved but open. To
close the recommendation, we request that by June 1, 2005, the FBI provide:
(1) documentation demonstrating that it has implemented initiatives to reduce
unscheduled IAFIS outages; (2) the status of efforts to standardize the
hardware platforms across IAFIS; and (3) the implementation date of its long-
term plans for full system disaster recovery capability, including the concept of
operations and system requirements. We believe the FBI should continue to
improve IAFIS availability and develop initiatives to that effect.




U.S. Department of Justice                                              80
Office of the Inspector General
Evaluation and Inspections Division
                                APPENDIX V
                 DHS COMMENTS ON THE DRAFT REPORT
______________________________________________________________________________




U.S. Department of Justice                                           81
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            82
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            83
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            84
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            85
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            86
Office of the Inspector General
Evaluation and Inspections Division
                                APPENDIX VI
                    OIG ANALYSIS OF DHS COMMENTS
______________________________________________________________________________

      On November 19, 2004, the Office of the Inspector General (OIG) sent
copies of the draft report to the Department of Homeland Security (DHS). The
Undersecretary of Border and Transportation Security provided the DHS
response in a letter and attached comments dated December 3, 2004
(Appendix V). None of the six recommendations in the report are directed to
the DHS. However, because the report addresses DHS policies and operations,
we offered the DHS an opportunity to comment on the report. Our analysis of
the DHS comments follows.

       Summary of DHS Comments Regarding Patriot Act Requirements: The
DHS stated that the HSC Deputies Committee’s July 18, 2003, decision to
“establish as the technical standard for the US-VISIT Program” two fingerprints
and a photograph constituted fulfillment of the Patriot Act requirements. The
DHS also stated that the Patriot Act did not assign the NIST the sole
responsibility for setting the technology standard. Regarding the Deputies’
decision that the DOS, the DHS, and the OMB conduct planning for migration
to an eight fingerprint system, the DHS stated that this was based on concern
expressed by the NIST that when the US-VISIT database grows to a certain
size, the result might be a large number of false positive fingerprint matches.3
The DHS stated that the Deputies’ decision did not relate to ten fingerprints
and the use of IAFIS, and “the problem of false positives has not materialized.”
Lastly, the DHS stated that it is conducting appropriate planning to support
the move to an eight-fingerprint system “when appropriate.”

       OIG Analysis: The July 18, 2003, HSC Deputies’ decision, which
appears in a document entitled “Summary of Conclusions,” consists of the
following statement: “With respect to the biometric identifier standards for the
US-VISIT program, the Deputies approved the use of a photograph and two
fingerprints for initial deployment in sea and airports. Deputies directed the
Departments of Homeland Security and State to work with HSC and OMB in
developing future plans to migrate to an eight fingerprint system.” In light of
DHS’s comment, we added language describing the Deputies’ decision to the
Executive Summary of the report (we already had referred to the HSC Deputies’
decision in the body of the report).

      The DHS response demonstrates that the departments do not interpret
the Deputies’ decision or the requirements of the Patriot Act in the same way.

       3  The false positive rate, or false accept rate, is the probability that the system will
incorrectly determine that a search fingerprint and a file fingerprint are matches.



U.S. Department of Justice                                                                87
Office of the Inspector General
Evaluation and Inspections Division
The DOJ does not concur with the DHS contention that the Deputies’ decision
to authorize a two-fingerprint technology for initial US-VISIT deployment
represents a decision on the final fingerprint collection standard for the US-
VISIT program, or that the decision replaced the congressional mandate for the
Secretaries of the DHS and DOS, working jointly with the NIST, to develop and
certify a technology standard. The DOJ’s position that the Deputies’ decision
was not meant to be the final fingerprint collection standard is based on the
Deputies’ direction that plans be made to migrate to an eight-fingerprint
system. As described to us by DOJ officials, the HSC’s decision was intended
to allow the DHS to deploy US-VISIT quickly by taking advantage of the
existing two-fingerprint IDENT system. While it is correct that the Deputies do
not specifically mention a ten-fingerprint system, the congressional report that
the NIST, Attorney General, and Secretary of State submitted to Congress in
January 2003 stated that a standard based on ten flat fingerprints offered the
most technologically and operationally acceptable approach for the
Departments of Justice, Homeland Security, and State to screen incoming
visitors. The varying interpretations reinforce our finding that the departments
have failed to agree on a uniform fingerprint collection standard.

       It is also important to note that the decision on a uniform fingerprint
collection standard is required before further progress can be made on the
efforts to achieve full interoperability of IDENT and IAFIS, efforts that are
currently stalled. Because the decision has not been made, we recommended
that the DOJ report to the HSC and Congress that the departments have
reached an impasse and cannot complete the congressionally directed MOU to
guide the integration of IDENT and IAFIS. We believe that the DOJ’s report
should formally request that the HSC or Congress decide whether or not to
adopt the NIST Technology Standard (ten flat fingerprints for enrollment and
two flat fingerprints and a photograph for identity verification). It is clear that
a final decision on the adoption of a uniform fingerprint collection standard
must occur before plans to make IAFIS and IDENT fully interoperable can be
completed.

       We agree, as the DHS commented, that the NIST was not assigned the
sole responsibility for establishing the fingerprint technology standard, and we
did not state otherwise in the report. In order to make clear that the NIST does
not have sole responsibility for developing the technology standard, we
amended the language on pages vi, 8, and 31 to reflect that Congress directed
the Attorney General and Secretary of State, jointly through the NIST, to
develop the technology standard.

      Regarding the increasing number of false positives, the DHS correctly
stated that NIST research determined that the number of false positive
fingerprint matches would increase as the US-VISIT database grows. As we


U.S. Department of Justice                                                 88
Office of the Inspector General
Evaluation and Inspections Division
stated on pages 31 and 32 of the report, the NIST also found that search
accuracy increased (i.e., there were fewer false positives) when the maximum
number of fingers (ten) was used to search a database. The NIST found that
this was true for all fingerprint matching systems that it tested. We also noted
in the report the DOJ’s position that the most effective approach to addressing
the issue of false positives is to increase the number of fingerprints collected for
each person in the database before the number of false positives becomes a
problem.

      Summary of DHS Comments Regarding Success of US-VISIT: The DHS
stated that both it and the DOS have engineered “the single most significant
change to the visa issuance and U.S. border inspections process ever.” Citing
the over 13 million travelers that have been processed through US-VISIT, the
DHS stated that at ports of entry, it has identified over 1,500 individuals who
were on the US-VISIT watch list and denied entry to hundreds of them, and at
consular posts, over 3,500 individuals have been identified through the US-
VISIT watch list. The DHS stated that all of this has been accomplished while
protecting traveler privacy and without increasing wait times or impacting
trade and travel.

      OIG Analysis: We acknowledge the DHS’s statement that the first phase
of US-VISIT is a significant achievement. The DHS reported that it identified
5,000 of 13,000,000 visitors as being on the US-VISIT watch list. However, as
described in our report, the Metrics study conducted by the DOJ found that
most aliens with criminal records could be identified only by checking the
IAFIS Criminal Master File, not through IDENT alone, which is what US-VISIT
checks. Of the 24,020 aliens identified by the Metrics study as having criminal
records, 17,553 (73.1 percent) were identified only through IAFIS. Therefore,
we recommended that the DOJ request a random sample of records from US-
VISIT and other relevant immigration biometric databases to determine the
additional number of criminals that IAFIS could identify if enrollments in
US-VISIT were checked against IAFIS.

        Summary of DHS Comments Regarding NIST Research on Time
Requirements for Taking Ten Flat Fingerprints: The DHS stated that the draft
report was misleading because it stated that the NIST research showed that ten
“flat” fingerprints can be taken almost as quickly as two flat fingerprints. The
DHS stated that readers would believe that the additional 10-15 seconds
required to take ten fingerprints of 43 million visitors per year is operationally
feasible. The DHS stated that even discounting the required processing time,
the additional 10-15 seconds required to capture ten fingerprints would have
“an enormous impact” and would require a significant number of additional
inspectors, consular officers, and significant facility modifications to handle the



U.S. Department of Justice                                                89
Office of the Inspector General
Evaluation and Inspections Division
increased wait times. The DHS contended that the report therefore showed a
lack of understanding of DHS and DOS operations.

        OIG Analysis: Our report stated that the NIST’s research found that 10
flat fingerprints can be taken in approximately 30 seconds (10 to 15 seconds
longer than taking 2 flat fingerprints). As the OIG responsible for oversight of
the Immigration and Naturalization Service (INS) before its transfer into DHS,
and in light of the many reviews we conducted of the immigration process, we
have a long and deep understanding of immigration operations. We
understand that additional time to take ten flat fingerprints will have an effect
on DHS and DOS operations. In our review, we also recognized that the
significant time constraints that exist at primary inspection do not exist in
secondary inspection or at the consulates where visa applications are taken,
which the DHS response does not address. Importantly, although the DHS
asserted that it is not operationally feasible to implement a ten-flat fingerprint
system, it did not provide detailed information describing how many additional
resources and facility modifications that it believes would be necessary if such
a system was implemented, either in primary or secondary inspection.

        However, as we noted in the report, the NIST studies we cite have
indicated that taking ten fingerprints is the best technological solution to
ascertaining the identify of individuals entering the United States. The critical
issue to be determined is whether the operational costs would be justified by
the benefits of implementing a ten-flat fingerprint system. Until the DHS
grants the DOJ access to a random sample of data from US-VISIT and other
relevant immigration biometric databases, the DOJ cannot conduct a proposed
study (as we recommended to the DOJ) to determine the risk of not checking
all visitors against IAFIS. Therefore, whether the cost of implementing a ten
fingerprint system are justified because of the benefits that such a system will
likely identify more criminal aliens by checking IAFIS directly cannot be
compared at this point. We believe that the HSC and the Congress need that
analysis to decide whether the risks constitute significant national security
threats that warrant providing the DHS with the necessary resources and
personnel to implement a ten-flat fingerprint system.

        Lastly, the DHS stated that it is already conducting planning to support
moving to an eight-fingerprint system, at the direction of the HSC. Therefore,
the DHS objections regarding the additional processing costs are inconsistent
because the DHS appears to believe that it will have to eventually address the
issues of additional processing time and personnel costs, as well as potential
facility modifications as a result of its own plans.

      Summary of DHS Comments Regarding US-VISIT Architecture: The DHS
stated that our report is misleading because it incorrectly equates the MitreTek


U.S. Department of Justice                                               90
Office of the Inspector General
Evaluation and Inspections Division
study of the FBI’s IAFIS system with the DHS’s IDENT system, but US-VISIT
does not use the same architecture as IAFIS. The MitreTek study, the DHS
stated, analyzed IAFIS’s architecture, which requires using all ten fingerprints
in order to filter the database down to a small enough size to compare the two
index fingerprints. The DHS stated that IDENT does not use this type of
filtering in its architecture, and that adding ten fingerprints to IDENT would
add additional time to the process because IDENT would need to make more
matches, not fewer.

       OIG Analysis: We recognize that IDENT uses a different type of filtering
in its architecture than IAFIS. Although in the report we presented a brief
description of how fingerprint filtering in IAFIS works, we made no
assumptions about the IDENT architecture. Our report cites a MitreTek study
that found that searching a biometric database using two flat fingerprints
results in longer processing times and reduced accuracy (a greater likelihood of
identifying false positives) compared to using more fingerprints to conduct the
searches, and NIST findings that providing more fingerprints substantially
speeds search processing and increases search accuracy. The need to ensure
that compatible architectures can be integrated is a primary reason for timely
resolving the issues we raise in this report.

      In addition, because the DHS did not earlier communicate to us its
contention that adding ten flat fingerprints to IDENT would increase rather
than reduce processing time, we contacted the manager of the NIST Image
Group to discuss this issue. In response to our inquiry, he contacted a
contractor involved in developing IDENT, and then responded to us that
implementing a ten-flat fingerprint system would cause about a 20 percent
increase in the time taken by the IDENT fingerprint matching process.
However, he stated, the operational impact of such an increase in the matching
process would likely be negligible because the computer processing time is only
a part of the fingerprint check. In sum, the biometrics experts at the NIST and
the DHS will need to address this issue fully in order to determine the extent to
which an increase in the fingerprint matching process could affect the DHS’s
operations.

       Summary of DHS Comments Regarding IDENT/IAFIS: The DHS stated
that our report incorrectly assumes that the US-VISIT program has the same
set of requirements that generated the need for IDENT/IAFIS. The DHS stated
that the component of IDENT that US-VISIT uses is a “traveler identification
system with lookout capability,” which is not designed for booking criminals.
The primary US-VISIT database, the DHS stated, contains the biometrics of
over 10 million enrolled legitimate foreign travelers, which is separate from the
IDENT lookout database that receives daily extracts from IAFIS. The DHS
stated that IDENT/IAFIS was originally intended to provide quick access to


U.S. Department of Justice                                               91
Office of the Inspector General
Evaluation and Inspections Division
criminal history information to INS officers during apprehension, but that
future versions were to give state and local law enforcement organizations
access to IDENT immigration information. Lastly, the DHS stated that the US-
VISIT database does not contain immigration violators.

       OIG Analysis: We did not assume that the US-VISIT program has the
       U              U




same set of requirements that generated the need for IDENT/IAFIS. Our report
makes clear that the US-VISIT and IDENT databases are separate and that it is
the US-VISIT watch list that is being queried when visitors apply for a visa or
arrive to be inspected. The report explains that the US-VISIT watch list
includes the IDENT lookout database, which, as the DHS stated, contains data
extracted from IAFIS. However, the information extracted into IDENT is only a
small portion of all the records in IAFIS. The majority of the estimated
43 million annual visitors to the United States are not checked directly against
IAFIS – which contains the most current and complete criminal history
information – but are only checked against the US-VISIT watch list. The risk of
this practice is that some known criminals will be missed, as the DOJ’s Metrics
study showed, because the extracts included in IDENT are not complete and
are prone to have errors and omissions.

       Therefore, while it is correct that the US-VISIT is not intended to be a
booking system for criminals, it should still be as effective as it can be at
identifying whether visitors have criminal records or are suspected terrorists.
However, neither the potential for a ten-fingerprint system to identify more
criminal aliens among visitors to the United States, nor the potential additional
costs of implementing a ten-fingerprint system are known at this point. As we
stated above, we believe that the HSC and the Congress need that information
in order to decide whether the operational and financial costs of implementing
a ten-flat fingerprint system outweigh the benefits of implementing such a
system.

       Summary of DHS Comments Regarding IAFIS’s Ability to Meet DHS
       U




Operational Requirements: The DHS stated that our report incorrectly
                              U




assumes that the FBI’s IAFIS system could be used for US-VISIT purposes and
that taking ten fingerprints for every traveler at ports of entry and submitting
these to the FBI’s IAFIS “would solve most of the interoperability issues and
would be beneficial.” The DHS stated that this assumption is inaccurate
because it believes IAFIS, as currently established, cannot meet DHS
operational requirements for several reasons, which the DHS listed:

    • Not all criminal history records are relevant to all DHS decisions. The
      DHS included an example stating that its analysis has shown that only a
      small percentage of the wanted person’s information in IAFIS has a
      bearing on whether the individual will be admissible to the U.S., and


U.S. Department of Justice                                              92
Office of the Inspector General
Evaluation and Inspections Division
      immigration officers in primary inspection do not have the time or need
      to review the vast majority of these records.
    • IAFIS’ response time on a Ten Print Rap Sheet Request (TPRS) query is
      approximately 10 minutes versus 10 seconds for US-VISIT at primary
      inspection.

    • IAFIS does not have the capacity to handle the volumes associated with
      US-VISIT. The DHS stated that there could be up to 180,000
      transactions per day, which would be nearly 10 to 20 times the current
      capacity of a TPRS search through IAFIS.

    • IAFIS’ availability is not adequate for real-time operations. The DHS
      cited two days per month of IAFIS downtime (planned and unplanned)
      over the last six months and stated that planned outages have recently
      been occurring almost monthly. The DHS also stated that unscheduled
      outages are a significant problem for IAFIS; it provided an example of
      IAFIS being down numerous times, including one time for two hours, in
      the two weeks prior to their response.

    • IAFIS does not have any backup capability as our report noted. The DHS
      stated that IAFIS resides in a single location, with tapes stored off-site. It
      would be impossible, the DHS stated, to bring the system back on line in
      a reasonable amount of time, should something happen to its primary
      location. The DHS stated that US-VISIT IDENT has “redundant search
      capability” in Rockville, Maryland and Dallas, Texas, with “failover
      capability” between the two locations.

    • The costs of moving to an FBI-based ten-fingerprint solution are
      significant and with little benefit to the DHS, given the FBI’s current
      inability to respond to the DHS’s operational time constraints with
      focused and relevant information. The DHS stated that even discounting
      the significant cost to the FBI that would be required to expand IAFIS
      capacity, the costs to the DHS are prohibitive; the DHS stated that
      capturing ten fingerprints would require hundreds of additional
      inspectors and significant facility modifications at the ports.

      Finally, the DHS stated that it does not believe that there would be cost
savings for moving immediately to a ten-fingerprint system because the costs
would be far greater than DHS’s initial investment of $70 million for US-VISIT
IDENT, and $15 million annual operating costs. The DHS stated that it
recognizes that biometric technology is constantly evolving, and although it is
not technically or economically feasible to implement a change now, with
advances in fingerprint capture and matching technology it may be technically
feasible to move to a multi-print system in the future. However, the DHS


U.S. Department of Justice                                                93
Office of the Inspector General
Evaluation and Inspections Division
stated that even if it were possible, the “potential huge disruption to the travel
and tourism industry, due to increased processing times and cultural
resistance associated with criminality,” must be analyzed before the DHS
would make the significant investments to move to a ten-print system.

       OIG Analysis: Regarding the DHS’s first point that not all criminal
history records are relevant to all DHS decisions, having access to all criminal
records would enable immigration officers to make the most informed decision
possible. Currently, consular and immigration officers do not have full access
to the most current and complete records contained in IAFIS. Should such
access be granted, the immigration officer first would be alerted to a possible
fingerprint match and then the visitor would be referred to secondary
inspection where the information would be evaluated.

        The DHS’s reference to response time is a legitimate concern for primary
inspections, and our report makes this point. The FBI stated that IAFIS would
provide a TPRS response time of less than 10 minutes and currently the
system is averaging 2-3 minutes, although 2 minutes is currently the fastest
response time it can produce. However, adjudications that occur in secondary
inspections or in consular offices do not have the same time constraints as
primary inspection points. Secondary inspections involve checking other
databases and questioning the visitor. Therefore, as is the case with
processing time, the TPRS transaction response time is much less of an issue
for officers working at secondary inspection and the consular offices.

       Regarding IAFIS capacity, we agree with the DHS that IAFIS does not
presently have the capacity to handle the volume of transactions associated
with US-VISIT. Part I of the report makes this point clearly. Nonetheless, we
believe that is it important to fully utilize existing IAFIS capacity. Moreover,
decisions on future requirements are needed to enable the FBI to ensure that
IAFIS will be prepared to handle a large increase in transactions associated
with US-VISIT. We recommended that the DOJ and the FBI coordinate with
the DHS to identify the capacity needed to conduct IAFIS searches on all
visitors referred to secondary inspection. The DOJ and the FBI concurred with
this recommendation.

      Regarding IAFIS availability, we agree with the DHS that IAFIS must
improve its availability. Part I of the report makes this point clearly. We also
made a recommendation that the FBI take steps to ensure that IAFIS meets its
system availability requirements of 99 percent; both the DOJ and the FBI
concurred with this recommendation.

       Regarding the lack of IAFIS backup, we discuss this at some length in
Part I of the report. In addition, on page 28 of the report, we added a footnote


U.S. Department of Justice                                                94
Office of the Inspector General
Evaluation and Inspections Division
containing the information that the DHS provided about the redundant
US-VISIT and IDENT search capability.

       Regarding the DHS conclusion that the costs of implementing a ten-
fingerprint system are significant and provide little benefit, we believe that
conclusion is both premature and not clear. Our report recognized that there
would be additional costs to the DHS and the DOS in order to implement a
system that takes more than two fingerprints. However, neither the potential
for a ten-fingerprint system to identify more criminal aliens among visitors to
the United States, nor the potential additional costs of implementing a ten-
fingerprint system are known at this point.

       Regarding the DHS statement that it is erroneous that there would be
any cost savings associated with expediting the implementation of a ten-
fingerprint system, a number of potential savings that could result from such a
decision were identified to us during this review. These include eliminating or
reducing the cost of maintaining duplicate data in redundant systems; reduced
costs of processing ten fingerprints against ten fingerprints, rather than
processing two against ten (as cited by the NIST and others); and operational
savings (and reduced inconvenience to visitors) from reducing the number of
false positive matches. There are also potential costs associated with delaying
implementation of a ten-fingerprint system. Those include operational and
financial costs to re-engineer the fielded systems and re-enroll individuals
using more than two fingerprints.

       The DHS stated that delays would likely occur at primary inspection due
to slow IAFIS response times, which it believed would be disruptive to the travel
and tourism industry. However, some disruption will likely result in
conjunction with any procedural change that the DHS implements, whether
now or in the future. Moreover, should an incident occur involving a criminal
alien or terrorist inadvertently admitted to the United States, which is a viable
risk, the DHS and the DOS would likely experience greater pressure to move
more quickly to a re-engineered system, and would be at risk of implementing
rushed or inadequate measures. We believe that by effectively planning for
implementation of a system that uses more than two fingerprints – including
completing the MOU with the DOJ – the DHS and the DOS can better ensure
that costs and disruptions are minimized. Moreover, as stated above, the HSC
and the Congress need an analysis of both the potential costs and the risks of
not checking all visitors against IAFIS to decide whether they warrant
expending additional resources for the DHS to implement a ten-flat fingerprint
system and to accommodate the additional processing time. Only after the
results of this study are analyzed will the federal government be able to fully
assess the costs and benefits of a ten-fingerprint system.



U.S. Department of Justice                                              95
Office of the Inspector General
Evaluation and Inspections Division
      Summary of DHS Comments Regarding JMD Criminality Study: The
DHS stated that the findings of the JMD criminality study cannot be
extrapolated to the US-VISIT population. The DHS stated that our report
incorrectly compares the results from JMD’s Metrics study and US-VISIT
because the two populations are fundamentally different; US-VISIT contains
information on travelers while the individuals in the JMD study had already
been arrested by the Border Patrol. The DHS stated that these individuals
have already shown a disregard for the law by crossing the Border illegally.
The DHS added that it already had accelerated the deployment of the fully
integrated IDENT/IAFIS terminal to all Border Patrol locations.

       OIG Analysis: We agree that the visitors in US-VISIT and the sample of
aliens examined by the Metrics study are different. The Metrics study found
that about one in eight of the aliens detained by the Border Patrol and checked
in the Metrics study had a criminal record. According to data cited by the DHS
in its response, the US-VISIT has identified about 5,000 of the 13,000,000
visitors checked so far (about 1 in every 2,600 visitors) as being on the US-
VISIT watch list. Although the US-VISIT watch list is not a comprehensive list
of criminals and other individuals ineligible to enter the United States, these
results indicate that the percentage of the general population of US-VISIT
visitors who have criminal records (the criminality rate) is less than that of the
aliens examined in the Metrics study. We are aware of these differences and,
for that reason, we did not extrapolate the criminality rate found in the JMD
Metrics study to the US-VISIT population.

       Nonetheless, the findings of the Metrics study regarding the capability of
IDENT and IAFIS to identify criminal aliens are relevant. The Metrics study
clearly showed that only checking IDENT (which the US-VISIT watch list relies
on) will fail to identify most criminal aliens. Over 70 percent of the criminals
identified in the Metrics study were only identified by IAFIS. While we agree
that the criminality rate of US-VISIT visitors may be lower than the Metrics
study, neither the actual US-VISIT criminality rate nor the percentage of
criminals that are missed by US-VISIT is known. It is for that reason that we
recommended that the DOJ conduct a study using random samples from US-
VISIT and from other relevant immigration biometric databases used for
enforcement or benefit purposes to determine the additional number of
individuals that IAFIS will identify as criminals and the risk posed by not
checking all visitors against IAFIS.

      Summary of DHS Comments Regarding Organizational Responsibility:
The DHS stated that the draft report cited the DOJ and the DOS as being
responsible for implementing appropriate biometric standards under the
Border Security Act, but that this responsibility has now been transferred from
the DOJ to the DHS. The DHS also stated that it has developed an “alternative


U.S. Department of Justice                                               96
Office of the Inspector General
Evaluation and Inspections Division
proposal” for addressing the need for IDENT/IAFIS interoperability, especially
in relation to US-VISIT, which is designed to achieve appropriate data exchange
between the DOJ and the DHS.

       OIG Analysis: The DHS is correct about the shifting of organizational
responsibility from the DOJ to the DHS. On pages iv and 8 of the report, we
added a footnote to the description of the Border Security Act that clarifies this
shift in responsibility. Regarding the “alternative proposal,” the DHS has
provided us with no information on this.

       Summary of DHS Comments Regarding Monitoring IDENT Performance:
The DHS stated that it and the DOS are aware of both the capabilities and
limitations of the biometric systems employed by US-VISIT. The DHS stated
that it continues to closely monitor the IDENT system and work with the NIST
with the goal of improving system performance, including false positive rates,
accuracy rates, and system throughput. The DHS stated, “We will move to a
multi-print system at the appropriate time to improve system performance.”

      OIG Analysis: We accept the DHS statement that it closely monitors US-
VISIT and works with the NIST. However, because we found that the DHS, the
DOS, and the DOJ did not interpret the HSC Deputies’ decision or the Patriot
Act requirements in the same way, and because the departments continue to
disagree on a uniform fingerprint collection standard, no further progress
toward achieving full interoperability between IDENT and IAFIS can be made.

      It has been almost two years since the NIST, the Attorney General, and
the Secretary of State issued the report to Congress stating that ten flat
fingerprints is the most effective and efficient method of enrolling individuals in
large biometric databases. Similarly, it has been almost one and a half years
since the HSC Deputies’ approved the use of two flat fingerprints and a
photograph for initial US-VISIT deployment, with the direction to conduct
planning for the eventual migration to an eight-fingerprint system. The DHS
stated it is already conducting this planning. However, the departments have
as yet been unable to complete an MOU to establish how the project to achieve
interoperability will proceed. The recommendations we make are partly
intended to improve the information available to the HSC and Congress
regarding the risks and costs associated with the various options so that they
may better examine the issues related to the fingerprint technology standard
and capabilities required for an interoperable biometric fingerprint system.

      Summary of DHS Comments Regarding US-VISIT Strategic Plan: The
DHS stated that the DOJ and the FBI are part of the team working on US-
VISIT’s Strategic Plan, which will “outline the business functionality needed for
the immigration and border management enterprise, the technology, data, and


U.S. Department of Justice                                                97
Office of the Inspector General
Evaluation and Inspections Division
facilities needed to support that functionality, and the business case that
justifies the program.” The DHS stated that providing the DHS and the DOS
with access to IAFIS information is part of the US-VISIT Strategic Plan.

      OIG Analysis: The US-VISIT Strategic Plan team is a recently formed
       U               U




group that we did not review during our fieldwork. However, based on
discussions with DOJ staff, we added this group to the report’s list of working
groups on page 18.

       Summary of DHS Comments Regarding Recommendations to be Added
       U




to the Report: The DHS stated that it would like the following
               U




recommendations added to the report.

   1. “IAFIS modernization should support DHS’s operational needs.” The
      DHS stated that it would like an expanded role for DHS/Border and
      Transportation Security, US-VISIT, and the DOS in FBI’s ongoing IAFIS
      modernization efforts. As large customers of IAFIS, the DHS stated that
      it would welcome the opportunity to inform the FBI of future
      requirements and operational needs, including the need to:

           •   Improve availability/reliability (up time and failover).
           •   Increase availability of terrorist prints.
           •   Re-architect IAFIS and NCIC to allow searches by offense.
           •   Improve system capacity and system response time.

       OIG Analysis: Improving IAFIS availability and increasing the availability
       U               U




of terrorist fingerprints are already recommendations in our report. Although
re-engineering IAFIS and NCIC to allow searches by offense may be beneficial,
this is the first time that the DHS has raised this issue to us, and it is outside
the scope of this report. Improving IAFIS capacity is also addressed in the
report and is already addressed in our recommendations. Reducing IAFIS
response time is a goal of Next Generation IAFIS, but DOJ, FBI, and DHS
technical experts will have to determine how IAFIS can meet the response time
required at primary inspection.

   2. “DHS would like the third recommendation in the report instead to ask
      the FBI to work with DHS to determine which IAFIS records are relevant
      in the determination of admissibility.” The DHS stated that it believes
      that the FBI should immediately provide the relevant criminal history
      records to the DHS. The DHS stated that it is currently conducting a
      study to determine which IAFIS records provide the highest value to
      immigration officials so that they may prioritize their access while the
      more difficult interoperability challenges are architected. The DHS
      stated that it was disappointed when it requested the criminal history


U.S. Department of Justice                                                 98
Office of the Inspector General
Evaluation and Inspections Division
       records of aliens of unknown origin from the FBI and was told that it
       would take 720 days. The DHS believes that it should be a top priority
       for the FBI to provide this information to the DHS.

       OIG Analysis: This DHS comment is unrelated to the random sampling
of US-VISIT that our report recommends. We do describe the fingerprint image
requests and the DHS’s desire to prioritize them. We also understood that the
US-VISIT watch list may not have the capacity to handle the estimated
7 million additional records of individuals who are foreign born, have no place
of birth listed, or who have had previous encounters with immigration officials
documented in IAFIS. Moreover, the DHS’s expectation that the FBI should
provide all of these records to the DHS is indicative of its position that the
current interim measure involving the FBI extracting data from IAFIS and
providing it to the DHS for inclusion in IDENT is adequate. As our report
states, the DOJ does not believe that providing extracts of IAFIS data achieves
interoperability; rather, the extract process is an inadequate method of
checking individual’s criminal history because the extracts are untimely,
erroneous, and incomplete. The extract process also creates data duplication.

      The FBI sent a letter to the US-VISIT Program Manager in February 2004
stating that a mass extract of the types of records (described above) that the
DHS requested would require 750 days to process with current IAFIS capacity.
However, the FBI told us that it would take many years to extract the entire
population in which the DHS has an interest. We state in the report that since
the DHS is permitted to extract 3,000 records a day from IAFIS, by dividing
3,000 into 7 million we estimate that it will take over 6 years to accomplish.

   3. “DHS and the FBI should finalize the Memorandum of Understanding
   (MOU) to clearly articulate how data should be shared and used, and to
   protect the privacy of our visitors.” The DHS stated that it has provided:
   (1) the FBI with access to US-VISIT and immigration violator data, (2) user
   accounts to FBI analysts, and (3) extracts of data to IAFIS in support of DOJ
   operational needs. The DHS stated that it did this in good faith that an
   MOU would be agreed upon that provides for information sharing with the
   DOJ/FBI and ensures that the necessary privacy protections and data
   access procedures are clearly delineated.

       OIG Analysis: We agree that the DHS and the FBI should finalize such
an MOU. On page 37 of the report, we added language discussing the DHS’s
November 1, 2004, memorandum to the HSC Deputy Director, which stated
that it had met its obligations to provide the FBI with full access to its US-
VISIT records. In the memorandum, the DHS stated that it had provided
training on the data limitations of US-VISIT records to 30 individuals named by
the FBI. In the memorandum, the DHS also stated that it would provide US-


U.S. Department of Justice                                             99
Office of the Inspector General
Evaluation and Inspections Division
VISIT access and training to an additional 200 users whom the FBI indicated
also need access to US-VISIT.

       However, DOJ officials told us that they are disappointed at the slow
pace and limited scope of the access that the DHS has provided thus far and
do not consider that the FBI has “full and immediate” access to the US-VISIT
database. Further, DOJ officials stated that they considered the DHS’s
granting access to 30 FBI individuals a short-term, stop-gap measure intended
to provide limited access to certain FBI users quickly. Our report also states
that little progress has been made toward providing the DHS’s apprehension
and criminal history information to other federal, state, and local law
enforcement agencies. Based on our discussions with officials in all the
departments, as described in this report, we concluded that the efforts to
ensure that the information in the DHS’s IDENT and US-VISIT databases will
be “readily and easily accessible,” (as required by the Patriot Act), to the DOJ or
other federal, state, and local law enforcement agencies have stalled.

   4. “The FBI should actively work to improve the quality of IAFIS and NCIC
   data” so that it would:

           •   Provide final dispositions,
           •   Provide full criminal history response, and
           •   Improve the quality of fingerprints from local law enforcement
               officers because fingerprint quality is the most important
               determinant of matching accuracy. The DHS stated that the DOJ
               should ensure that state and local law enforcement is equipped to
               electronically capture and submit, in real time, high quality
               fingerprints from individuals they arrest and prosecute.

       OIG Analysis: The first time that the DHS has raised these issues to us
       U               U




was in their response to our draft report. We contacted responsible FBI
officials, and they told us that the FBI is working on these issues to the extent
that they are within its area of responsibility and authority. However, these
issues are not within the scope of this report.




U.S. Department of Justice                                              100
Office of the Inspector General
Evaluation and Inspections Division
                                APPENDIX VII
                 DOS COMMENTS ON THE DRAFT REPORT
______________________________________________________________________________




U.S. Department of Justice                                          101
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            102
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            103
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            104
Office of the Inspector General
Evaluation and Inspections Division
                               APPENDIX VIII
                    OIG ANALYSIS OF DOS COMMENTS
______________________________________________________________________________

      On November 19, 2004, the Office of the Inspector General (OIG) sent
copies of the final draft report to the Department of State (DOS). The Deputy
Assistant Secretary for Visa Services provided the DOS response in a letter
dated December 3, 2004 (Appendix VII). None of the six recommendations in
the report are directed to the DOS. However, because the report addresses
DOS policies and operations we offered the DOS an opportunity to comment on
the report. Our analysis of the DOS’s comments follows.

       Summary of DOS Comments Regarding Technology Standard: The DOS
stated that our report presents “fundamental inaccuracies” on the technology
standard because it states that the NIST has statutory authority to develop and
certify a Technology Standard, which implies that the NIST solely has this
authority. The DOS stated, “by section 403(c) of the USA PATRIOT Act, the
Secretary of State and the Attorney General -- not the NIST -- are granted the
statutory authority to set the technology standard.” The DOS further stated
“the NIST is assigned only a technical advisory role in the decision-making
process.”

       OIG Analysis: As noted above, it is correct that the NIST was not
assigned the sole responsibility for establishing the technology standard. On
pages 8 and 31 of our report, we acknowledged the language of section 403(c)
of the Patriot Act, which states that “the Attorney General and the Secretary of
State jointly, through the [NIST]…” shall develop and certify a technology
standard. After extensive testing to determine the most efficient and effective
method for verifying the identify of visa applicants, the NIST recommended to
Congress (in a January 2003 report issued jointly by the NIST, the Attorney
General, and the Secretary of State) that ten flat fingerprints be used for
enrollment into large databases and two flat fingerprints and a photograph only
be used to verify individuals’ identities against existing records. Thus, we refer
to this as the NIST-recommended Technology Standard.

      In order to make clear that the NIST did not have sole responsibility for
developing the technology standard, we amended the language on pages vi, 8
and 31 to reflect that Congress directed the Attorney General and Secretary of
State, jointly through the NIST, to develop the technology standard.

      Summary of DOS Comments Regarding HSC Deputies’ Decision: The
DOS stated that the July 18, 2003, HSC Deputies Committee decision to use a
two-fingerprint and photograph system for initial US-VISIT deployment in sea
and air ports of entry reflected the Secretary of State’s and the Attorney


U.S. Department of Justice                                             105
Office of the Inspector General
Evaluation and Inspections Division
General’s statutory authority to set the technology standard. The DOS stated
that “it is the [HSC] decision, not the NIST advice that controls DOS, DHS and
DOJ implementation of a technology standard.”

       OIG Analysis: As we stated in response to the DHS’s comments, the
DOS response further demonstrates that the departments do not interpret the
Deputies’ decision or the requirements of the Patriot Act in the same way. The
DOJ does not concur with the DHS and DOS contention that the Deputies’
decision to authorize a two-fingerprint technology for initial US-VISIT
deployment represents a decision on the final fingerprint collection standard
for the US-VISIT program, or that the decision replaced the congressional
mandate for the Secretaries of the DHS and State, working jointly with the
NIST, to develop and certify a technology standard. The DOJ’s position that
the Deputies’ decision was not meant to be the final fingerprint collection
standard is based on the Deputies’ direction that plans be made to migrate to
an eight-fingerprint system. As described to us by DOJ officials, the HSC’s
decision was intended to allow the DHS to deploy US-VISIT quickly by taking
advantage of the existing two-fingerprint IDENT system. The varying
interpretations contained in the departments’ responses reinforce our finding
that the departments have not agreed on a uniform fingerprint collection
standard.

       The decision on a uniform fingerprint collection standard is required
before further progress can be made on the development of an MOU to guide
the efforts to achieve full interoperability of IDENT and IAFIS, efforts that are
currently stalled. Because the decision has not been made, we recommended
that the DOJ report to the HSC and Congress that the departments have
reached an impasse and cannot complete the congressionally directed MOU to
guide the integration of IDENT and IAFIS. We specified that the DOJ’s report
formally request that the HSC or Congress decide whether or not to adopt the
NIST Technology Standard (ten flat fingerprints for enrollment and two flat
fingerprints and a photograph for identity verification) because the adoption of
a uniform fingerprint collection standard must occur before plans to make
IAFIS and IDENT fully interoperable can be completed.

       In previous comments provided to us on a working draft of this report,
the DOS acknowledged that the NIST expressed concern that when the US-
VISIT enrollment database grows to a certain size, a large number of “false
positive” fingerprint matches would occur. In this response, the DOS stated
that the problem of false positives has not materialized. The DOS is correct
that NIST research determined that the number of false positive fingerprint
matches would increase as the US-VISIT database grows. As we stated on
pages 31 and 32 of the report, the NIST also found that search accuracy
improved (there were fewer false positives) when the maximum number of


U.S. Department of Justice                                              106
Office of the Inspector General
Evaluation and Inspections Division
fingers (ten) was used to search a database. The NIST found that this was true
for all fingerprint matching systems that it tested. We noted in the report the
DOJ’s position that the most effective approach to addressing the issue of false
positives is to increase the number of fingerprints collected before the number
of false positives becomes a problem.

        Summary of DOS Comments Regarding Time Required to Take Ten
Fingerprints: The DOS stated that by presenting the NIST finding that taking
10 flat fingerprints takes 10 to 15 seconds longer than taking two flat
fingerprints, our report ignores the significant effect on operations at ports of
entry that this additional time would have. The DOS also stated that at its
consulate in Monterrey, Mexico, it is conducting a pilot project to collect ten
flat fingerprints from certain visa applicants. The DOS stated that with a
consulate employee assisting the person whose fingerprints are being enrolled,
it takes 60 to 90 seconds to enroll 10 flat prints. That is, they say, 30 to 60
seconds longer than it takes to enroll two flat fingerprints without the
assistance of a consular employee and has significant workload implications.

        OIG Analysis: The independent NIST research found that taking 10 flat
fingerprints only takes approximately 10 to 15 seconds longer than taking 2
flat fingerprints. We amended page 16 of the report to reflect that the DOS is
currently conducting several pilot projects in Mexico to take ten flat
fingerprints. However, we do not have enough information on the structure,
process, or equipment used in the DOS pilot projects to evaluate whether they
are similar to that used by the NIST in its studies. More importantly, the
results of these pilot projects are not yet conclusive and the reasons for the
enrollment time that the DOS has experienced thus far have not yet been
identified or analyzed. We recognize that enrollment time is an important issue
for the DOS. However, unlike the DHS inspectors at primary inspection,
consular officers do not have to make an immediate adjudication.

      Summary of DOS Comments Regarding Resources: The DOS stated that
because enrollment of ten flat fingerprints would require shifting the
enrollment process off-site at some consular posts, “facilities and personnel
costs would skyrocket.” These operational and cost factors, the DOS stated,
are not the responsibility of the NIST; they are decisions to be made by agency
heads.

       OIG Analysis: Our report recognized that there would be additional costs
to the DHS and the DOS in order to implement a system that takes more than
two fingerprints. However, the DOS did not provide detailed information
describing the facilities and personnel costs that it believes would be necessary
if such a system is implemented. In fact, neither the potential for a ten-
fingerprint system to identify more criminal aliens among visitors to the United


U.S. Department of Justice                                             107
Office of the Inspector General
Evaluation and Inspections Division
States, nor the potential additional costs of implementing a ten-fingerprint
system are known at this point.

       As we noted in the report, the NIST studies we cite have indicated that
taking ten fingerprints is the best technological solution to ascertaining the
identify of individuals entering the United States. The critical issue to be
determined is whether the operational costs would be justified by the benefits
of implementing a ten-flat fingerprint system. Until the DHS grants the DOJ
access to a random sample of data from US-VISIT and other relevant
immigration biometric databases, the DOJ cannot conduct a proposed study
(as we recommended to the DOJ) to determine the risk of not checking all
visitors against IAFIS. Therefore, whether the cost of implementing a ten
fingerprint system is justified by the potential for such a system to identify
more criminal aliens by checking IAFIS directly cannot be fully known at this
point. We believe that the HSC and the Congress need that analysis to decide
whether the risks constitute significant national security threats that warrant
providing the DOS with the necessary resources and personnel to implement a
ten-flat fingerprint system.

       Moreover, on page 48 of our report we present the DOJ position that the
federal government may face significant costs to later re-engineer existing
systems if changes are not implemented now to upgrade US-VISIT to collect
more than two fingerprints. These costs may include re-enrolling individuals
when it is decided to begin using more than two fingerprints. A number of
potential savings that could result from such a decision were also identified to
us during this review. These include eliminating or reducing the cost of
maintaining duplicate data in redundant systems; reduced costs of processing
ten fingerprints against ten fingerprints, rather than processing two against ten
(as cited by the NIST and others); and operational savings (and reduced
inconvenience to visitors) from reducing the number of false positive matches.

       Summary of DOS Comments Regarding Additional Pilot Study: The DOS
described another pilot project at the embassy in San Salvador, El Salvador,
that it is conducting in conjunction with the FBI. This pilot, the DOS stated,
involves taking two fingerprints from certain visa applicants whose fingerprints
are on the IDENT watch list, and automatically receiving the rap sheets for
these applicants. The DOS described a three-step process for transferring
fingerprints from IAFIS to IDENT and stated that the two-fingerprint pilot being
tested in El Salvador could be deployed globally in conjunction with the three-
step process to give consular officers fully automated access to visa applicants’
rap sheets. This, the DOS stated, would be a main component of the
interoperable electronic data system envisioned in the Border Security Act.




U.S. Department of Justice                                             108
Office of the Inspector General
Evaluation and Inspections Division
       The three-step process that the DOS referred to consists of (1) a DHS
initiative to prioritize the 7-8 million records of foreign-born individuals
contained in IAFIS before transfer into IDENT, (2) an expansion of IAFIS’s
3,000 daily image request services function, and (3) an upgrade of the IAFIS
and IDENT connectivity “to be able to handle a rapid daily transfer of many
thousands of fingerprint files.” The DOS recommended that a consultant be
hired to conduct a study of the technical issues involved with the second and
third items, and to propose solutions and cost estimates. The DOS stated it
believes that this three-step process would cost “a fraction of the DOJ
proposals” and would “keep intact the highly successful Biometric Visa and
US-VISIT Programs, which the DOJ [ten-] fingerprint proposals would
unnecessarily dismantle in their present forms.” The DOS stated that
requiring consular officers to collect ten fingerprints would detract time from
visa interviews and would be detrimental to border security. Lastly, the DOS
restated its position that its proposal for enhancing the current two-fingerprint
system would achieve the DOS, DHS, and DOJ common goal of screening visa
applicants against criminal history records that would render them ineligible
for visas.

       OIG Analysis: The three steps that the DOS described all rely on the
existing interim measures and do not present a long-term solution for
fingerprint biometric interoperability, which according to the DOJ relies on
multi-directional, direct, real-time access between the FBI, the DHS, and other
law enforcement agencies needing access to immigration records. Checking a
visa applicant’s fingerprints against IDENT means that the individual’s
fingerprints are not checked directly against the FBI’s IAFIS, which is the
largest, most current, and most complete file of criminal fingerprints.

       The DOS’s response is consistent with its position that the current
interim measure involving the FBI extracting data from IAFIS and providing it
to the DHS for inclusion in IDENT is adequate. As we report, the DOJ does not
agree that providing extracts of IAFIS data achieves interoperability; rather, the
extract process is an inadequate method of checking individual’s criminal
history because the extracts are untimely, erroneous, and incomplete. The
extract process results in the creation and maintenance of redundant
databases.

       The fact that the DHS is developing a prioritization method for the
7 million-plus records of foreign-born individuals suggests that it cannot
currently support the entire file. As we stated on page 45 of our report, the
current daily transfer will take 6 years to complete. According to the DOJ, this
problem could be avoided by directly accessing IAFIS rather than waiting for
the FBI to transfer, one day at a time, portions of the entire file. Further,
upgrading IAFIS will not ameliorate the faulty extract process. Even with an


U.S. Department of Justice                                              109
Office of the Inspector General
Evaluation and Inspections Division
upgraded capacity, the FBI would still have to continue providing the DHS with
regular extracts of its data, which the DOJ’s Metrics study report found is
incomplete and error prone.

       Regarding the two DOJ proposals that the DOS cited, our report
describes a draft proposal that the DOJ submitted to the Policy Coordination
Committee containing two options and cost estimates for a long-term strategy
to achieve interoperability by enrolling individuals in US-VISIT using more than
two fingerprints. In previous correspondence to us, the DOS indicated that its
own cost estimates are much higher than the DOJ’s. However, as we stated
above, the DOS did not include its own cost estimates or provide alternative
suggestions. Our reading of the DOJ’s proposal indicated that it is not
intended to dismantle the DOS’s nor the DHS’s Biometric Visa and US-VISIT
programs. On page 48 of our report, we include a statement from the DOJ’s
proposal which says that reducing the inconvenience to foreign travelers is one
of the benefits of upgrading US-VISIT. If more than two fingerprints are
collected from travelers now, they will not have to be re-enrolled in the future.

       In response to the DOS’s statement that requiring consular officers to
collect ten fingerprints would detract from visa interviews and would be
detrimental to border security, we believe that conclusion is premature because
neither the potential for a ten-fingerprint system to identify more criminal
aliens among visitors to the United States, nor the potential additional
operational and financial costs of implementing a ten-fingerprint system are
known at this point.




U.S. Department of Justice                                            110
Office of the Inspector General
Evaluation and Inspections Division
